No. 20-366

IN THE

Supreme Court of the United States

d

DONALD J. TRUMP, PRESIDENT

OF

THE UNITED STATES ,

—v.—

STATE

OF

NEW YORK ,

ET AL .,

Appellants,

ET AL .,

Appellees.
ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

MOTION TO DISMISS OR AFFIRM
John A. Freedman
Elisabeth S. Theodore
R. Stanton Jones
Daniel F. Jacobson
ARNOLD & PORTER KAYE
SCHOLER LLP
601 Massachusetts Avenue, N.W.
Washington, D.C. 20001
Perry Grossman
NEW YORK CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004

Dale E. Ho
Counsel of Record
Adriel I. Cepeda Derieux
Davin Rosborough
Cecillia D. Wang
Sophia Lin Lakin
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004
(212) 549-2693
dho@aclu.org

Counsel for Appellees New York Immigration Coalition, et al.
(Counsel continued on inside cover)

Andre I. Segura
Edgar Saldivar
Thomas Buser-Clancy
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION OF TEXAS
P.O. Box 8306
Houston, TX 77288

David D. Cole
Sarah Brannon
Ceridwen Cherry
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, NW
Washington, D.C. 20005

Julia A. Gomez
Peter Eliasberg
ACLU FOUNDATION OF
SOUTHERN CALIFORNIA
1313 West 8th Street
Los Angeles, CA 90017
Counsel for Appellees New York Immigration Coalition, et al.

QUESTION PRESENTED
1.
Whether the district court correctly held
that the exclusion of undocumented immigrants from
the population base used for the apportionment of the
House of Representatives violates the statutory requirement to apportion based on the “whole number
of persons in each State.” 2 U.S.C. § 2a(a); see also 13
U.S.C. § 141(b).
2.
Whether the district court correctly held
that the subtraction of undocumented immigrants
from the total population count under the census to
create a “second” population tabulation for purposes of
apportionment, J.S. 7, violates the statutory requirement to apportion based on the “tabulation of total
population by States,” “as ascertained under the … decennial census of the population.” 13 U.S.C. § 141(b),
2 U.S.C. § 2a(a).
3.
Whether, in the alternative, the exclusion
of undocumented immigrants violates the constitutional requirements that apportionment be based on
the “whole number of persons in each State,” U.S.
Const., amend. IV, sec. 2, and “the actual Enumeration,” U.S. Const., art. I, sec. 2.
4.
Whether the district court correctly found
that, given “undisputed evidence that the [Presidential] Memorandum is affecting the census count,”
causing a diversion of Appellees’ organizational resources, App.30a, Appellees have standing for declaratory and injunctive relief.

i

TABLE OF CONTENTS
QUESTION PRESENTED .......................................... i
TABLE OF AUTHORITIES ...................................... iv
INTRODUCTION ....................................................... 1
STATEMENT OF THE CASE.................................... 2
ARGUMENT ............................................................. 11
I. The Presidential Memorandum Violates The
Statutory And Constitutional Requirements To
Include All Persons In Each State In The
Apportionment Regardless Of Immigration
Status……………………………………….………. 13
A. The Census Act Requires Including
Undocumented Immigrants Residing in this
Country in the Apportionment Base ………... 13
B. The Constitution Requires Including
Undocumented Immigrants Residing in this
County in the Apportionment Base………….. 17
C. Appellants’ Justifications for the Memorandum
Are Unavailing………………………………….. 20
II. The Presidential Memorandum Violates The
Statutory And Constitutional Requirements To
Base The Apportionment On The Decennial
Census Alone……………………………….………. 22
III. Plaintiffs Have Standing, This Case Is Not Moot,
And There Is No “Mismatch” Between Plaintiffs’
Injury And The Relief Awarded………………… 29
CONCLUSION…………………………………………37

ii

TABLE OF CONTENTS
SUPPLEMENTAL APPENDIX ……………………..1a
I. Opinion And Order…………………………………. 1a
II. Memorandum Of Law In Support Of Defendants'
Motion To Dismiss and In Opposition To
Plaintiffs' Motion For Partial Summary Judgment
Or Preliminary Injunction …….……………..… 18a
III. Declaration Of Albert E. Fontenot, Jr...….…. 98a
VI. Parties’ Joint Letter, Aug. 3, 2020…...……… 103a

iii

TABLE OF AUTHORITIES
CASES
Adarand Constructors, Inc. v. Slater,
528 U.S. 216 (2000) ............................................. 33
Bank of America Corp. v. City of Miami,
Florida, 137 S. Ct. 1296 (2017) ........................... 35
Barrientos v. 1801-1825 Morton LLC,
583 F.3d 1197 (9th Cir. 2009) ............................. 30
Bostock v. Clayton County, Georgia,
140 S. Ct. 1731 (2020) ............................... 9, 13, 14
Burnet v. Chicago Portrait Co.,
285 U.S. 1 (1932) ................................................. 24
Campbell-Ewald Co. v. Gomez,
136 S. Ct. 663 (2016) ........................................... 32
Department of Commerce v. Montana,
503 U.S. 442 (1992) ............................................. 23
Department of Commerce v. New York,
139 S. Ct. 2551 (2019). ............................ 12, 30, 35
Department of Commerce v. United States
House of Representatives,
525 U.S. 316 (1999) .................................. 23, 32-33
Eldred v. Ashcroft,
537 U.S. 186 (2003) ............................................. 15
Evenwel v. Abbott,
136 S. Ct. 1120 (2016) ....................... 11, 17, 18, 19
Federal Election Commission v. Wisconsin
Right To Life, Inc., 551 U.S. 449 (2007) ....... 35, 36
Federation for American Immigration Reform
v. Klutznick, 486 F. Supp. 564 (1980) ............. 3, 17
iv

Federation for American Immigration Reform,
447 U.S. 916 (1980) ............................................... 3
Federation for American Reform v. Klutznick,
No. 79-3269, 1980 WL 683642
(D.D.C. Jan. 3, 1980) ........................................... 16
Franklin v. Massachusetts,
505 U.S. 788 (1992) ..................................... passim
Friends of the Earth, Inc. v. Laidlaw
Environmental Services (TOC), Inc.,
528 U.S. 167 (2000) ................................. 32, 33, 34
Griffin v. Oceanic Contractors, Inc.,
458 U.S. 564 (1982) ............................................. 20
Kaplan v. Tod,
267 U.S. 228 (1925) ............................................. 21
Kingdomware Technologies, Inc. v. United
States,136 S. Ct. 1969 (2016) .............................. 35
Massachusetts v. Environmental Protection
Agency, 549 U.S. 497 (2007) ................................ 35
Michigan v. Long,
463 U.S. 1032 (1983) ........................................... 32
National Urban League v. Ross,
20-cv-05799-LHK, ECF No. 208
(N.D. Cal. Sept. 24, 2020). ...................... 5, 7, 10-11
New York v. Department of Commerce,
351 F. Supp. 3d. 502 (S.D.N.Y. 2019) ................. 17
O’Rourke v. United States Department of
Justice, 684 F. Supp. 716 (D.D.C. 1988) ............. 14
Plyler v. Doe,
457 U.S. 202 (1982) ....................................... 13, 17

v

Salazar v. Buono,
559 U.S. 700 (2010) ............................................. 30
Suzlon Energy Ltd. v. Microsoft Corp.,
671 F.3d 726 (9th Cir. 2011) ............................... 14
United States Bancorp Mortgage Co. v. Bonner
Mall Partnership, 513 U.S. 18 (1994) ................. 36
United States v. McMillan,
165 U.S. 504 (1897) ............................................. 16
Utah v. Evans,
536 U.S. 452 (2002) ..................................... passim
Wisconsin v. City of New York,
517 U.S. 1 (1996) ................................................. 24
Zadvydas v. Davis,
533 U.S. 678 (2001) ............................................. 17
CONSTITUTIONAL PROVISIONS
U.S. Const. amend. XIV, § 2 ................................. 2, 10
U.S. Const. art. I, § 2 ...................................... 2, 11, 24
STATUTES
2 U.S.C. § 2a ...................................................... passim
13 U.S.C. § 141 .................................................. passim
28 U.S.C. § 2284(b) ..................................................... 7
Pub. L. No. 71-962, § 6(b) ......................................... 14
RULES & REGULATIONS
83 Fed. Reg. 5525 (Feb. 8, 2018) ................................ 3
83 Fed. Reg. 5526 (Feb. 8, 2018) .............................. 16
83 Fed. Reg. 5533 (Feb. 8, 2018) .............. 3, 16, 22, 25
vi

85 Fed. Reg. 44,679 (July 23, 2020) ..................... 5, 26
85 Fed. Reg. 44,680 (July 23, 2020) ................. passim
LEGISLATIVE MATERIALS
1980 Census: Counting Illegal Aliens: Hearing
Before the S. Subcomm. on Energy,
Nuclear Proliferation & Fed. Services of the
Comm. on Governmental Affairs (1980
Census), 96th Cong. 10 (1980). ........................... 15
71 Cong. Rec. (1929) ............................................. 4, 15
H.R. Rep. No. 76-1787 (1940) ................................... 15
Hearing Before the H. Comm. on Oversight &
Reform, 116th Cong. 12 (Feb. 12, 2020) ............... 4
S. Rep. 71-2 (1920) .................................................... 23
OTHER AUTHORITIES
Benjamin B. Kendrick, The Journal of the Joint
Committee of Fifteen on Reconstruction,
39th Congress, 1865-1867 (1914) ........................ 18
N. Bailey, An Etymological English Dictionary
(20th ed. 1763) ..................................................... 21
The Federalist No. 36 (Alexander Hamilton)
(Clinton Rossiter, rev. ed. 2003) .................. 25, 26
S. Johnson, A Dictionary of the English
Language (6th rev. ed. 1785) .............................. 20
U.S. Department of Commerce, Office of the
Inspector General, The Acceleration of
the Census Schedule Increases the Risks
to a Complete and Accurate 2020 Census,
Final Management Alert No. OIG-20-050-M
(Sept. 18, 2020) ...................................................... 7
vii

INTRODUCTION
Every census and every apportionment since 1790
have included all people residing in the United States,
regardless of citizenship or immigration status.
A recent Presidential Memorandum, however, declares that it is now the “policy of the United States to
exclude from the apportionment base” all undocumented individuals, solely on the basis of their immigration status. Presidential Mem., 85 Fed. Reg. 44,680
(the “Memorandum”).
That the Memorandum violates federal law is “not
particularly close or complicated.” App.6a. The district
court correctly held that the Memorandum defies “the
statutory scheme” governing the Census “in two independent ways.” App.93a. It excludes millions of
“persons in each state” from the apportionment base,
and it mandates apportionment based on figures other
than the “tabulation of total population” “as ascertained under the … decennial census.” Id.
Based on an undisputed record below, the district
court correctly found that this unprecedented “policy”
was deterring census responses, causing injuries to
Appellees that are redressable through declaratory
and injunctive relief.
Because Appellants’ arguments lack merit, the
appeal should be dismissed for lack of a substantial
federal question. In the alternative, the judgment of
the district court should be affirmed.

1

STATEMENT OF THE CASE
A.

The Constitutional
Framework

and

Statutory

Seats in the House of Representatives “shall be apportioned among the several States according to their
respective numbers, counting the whole number of
persons in each State.” U.S. Const. amend. XIV, § 2
(emphasis added). The Constitution requires that the
“numbers” used for apportionment be those ascertained from the Decennial Census’s “actual Enumeration” of the population. U.S. Const. art. I, § 2, cl. 3.
That actual Enumeration must be taken in “such
Manner as [Congress] by Law direct[s].” Id. Congress
has directed the Commerce Secretary to “take a decennial census of population” and to report to the President “[t]he tabulation of total population by States”
that is “required for the apportionment of Representatives in Congress.” 13 U.S.C. § 141(a)-(b) (emphasis
added). And it has directed the President to transmit
to Congress “a statement showing the whole number
of persons in each State … as ascertained under the …
decennial census of the population, and the number of
Representatives to which each State would be entitled” under the “method of equal proportions.” 2
U.S.C. § 2a(a) (emphases added).
These statutes create an “automatic reapportionment” scheme that is “virtually self-executing.”
Franklin v. Massachusetts, 505 U.S. 788, 791-2 (1992).
Section 2(a) “expressly require[s] the President to use
… the data from the ‘decennial census,’” and to apply
a strict mathematical formula to that data to determine the apportionment. Id. at 797.

2

B.

The Enumeration of Undocumented
Immigrants in the Census

“The Census Bureau has always attempted to
count every person residing in a state on Census Day,
and the population base for purposes of apportionment has always included all persons, including aliens
both lawfully and unlawfully within our borders.”
Fed’n for Am. Immigration Reform v. Klutznick
(“FAIR”), 486 F. Supp. 564, 576 (1980) (three-judge
court), appeal dismissed, 447 U.S. 916 (1980).
The 2020 Census is no different. On February 8,
2018, after notice-and-comment rulemaking, the Census Bureau promulgated its 2020 Census “Residence
Rule.” 83 Fed. Reg. 5525 (Feb. 8, 2018). The Residence
Rule establishes how and where individuals will be
enumerated. “Citizens of foreign countries living in
the United States” are to be “[c]ounted at the U.S. residence where they live and sleep most of the time.” Id.
at 5533.
Census Bureau public guidance confirms that all
noncitizens, including undocumented immigrants,
who satisfy the Residence Rule will be counted in the
2020 Census. For example:
Are undocumented residents included in
the apportionment population counts?
Yes, all people (citizens and noncitizens)
with a usual residence in the 50 states
are included in the resident population

3

for the census, which means they are all
included in the apportionment counts.1
In February 2020, the Census Bureau Director
confirmed that the census will “count everyone, wherever they are living,” including undocumented immigrants. Hearing Before the H. Comm. on Oversight &
Reform, 116th Cong. 12 (Feb. 12, 2020).
Congress and the Executive Branch have always
understood that the Constitution and relevant
statutes require counting all people living in the
United States in the census and apportionment,
regardless of immigration status. The current statutes
governing the census were first enacted in 1929, when
“the Senate and the House both considered and
rejected amendments that would have excluded noncitizens from the apportionment.” App.88a (citing
71 Cong. Rec. 1907, 2065, 2360-63 (1929)). Congress
rejected these amendments on the understanding
“that the Constitution mandated inclusion of illegal
aliens residing in the United States.” App.88a. “Every
Congress [has] acted … and every apportionment [has
been] made in reliance upon” the same understanding.
App.88a-89a (internal quotation marks and citation
omitted). And, “until the Presidential Memorandum,
the Executive Branch had also always taken the view
that the 1929 Act, if not the Constitution, prohibited
exclusion of illegal aliens from the apportionment
base due to legal status alone.” App.90a.

U.S. Census Bureau, Frequently Asked Questions on Congressional Apportionment, https://www.census.gov/topics/public-sector/congressional-apportionment/about/faqs.html#Q6.
1

4

C.

Changes to 2020 Census Operations
Due to COVID-19

The Commerce Secretary’s apportionment report
is normally due to the President on December 31,
2020. 13 U.S.C. § 141(b). In response to the COVID-19
pandemic, however, “the President of the United
States and Bureau officials publicly stated that
meeting the December 31, 2020 deadline would be
impossible in any event.” Nat’l Urban League v. Ross,
20-cv-05799-LHK, ECF No. 208 at 7, 9 (N.D. Cal. Sept.
24, 2020). Accordingly, on April 13, the Census
Bureau extended field operations through October 31,
with the Commerce Secretary’s apportionment report
set to be delivered to the President on April 30, 2021,
rather than December 31, 2020. Id. at 9.
D.

The Presidential Memorandum

On July 21, 2020, the President issued a
Memorandum, titled “Excluding Illegal Aliens From
the Apportionment Base Following the 2020 Census.”
85 Fed. Reg. 44,679. The Memorandum declares, for
the first time in history, that “it is the policy of the
United States to exclude from the apportionment base
aliens who are not in a lawful immigration status.” Id.
at 44,680. It asserts that “States adopting policies that
encourage illegal aliens to enter this country … should
not be rewarded with greater representation in the
House of Representatives.” Id. And it “anticipates that
excluding illegal aliens from the apportionment count
could reduce the number of representatives in States
with large immigrant populations, noting explicitly
that in ‘one State … home to more than 2.2 million
illegal aliens’—apparently, California—the inclusion
of illegal aliens could ‘result in the allocation of two or

5

three more congressional seats than would otherwise
be allocated.’” App.19a (quoting 85 Fed. Reg. 44,680).
Appellants represented to Congress and to the
district court that the Memorandum would not affect
“the actual census, but an apportionment number that
will be chosen by the President after the census is
complete.” Supp.App.110a-11a (emphasis added).
See also Supp.App.34a, 88a (explaining that the
Memorandum “does not purport to change the conduct
of the census itself”); Prepared Statement of Dr.
Steven Dillingham Before the H. Oversight & Reform
Comm. 1 (July 29, 2020)2 (similar). Under the
Memorandum, the Commerce Secretary will report
“two sets of numbers” to the President: first, the total
population enumerated in the census according to the
Census Bureau’s “Residence Criteria for counting
everyone at their usual residence”—which includes
undocumented immigrants—and “a second” number,
excluding undocumented immigrants. Supp.App.28a,
79a. Then, the “President will choose [the latter]
to plug into the ‘method of equal proportions’” to
determine the apportionment. Id. at 79a.
The Memorandum was issued without any
advance notice to the public or the Census Bureau,
while “the census was in full swing.” App.46a. “[L]ess
than two weeks later,” Appellants suddenly
announced “that they were ending the census” on
September 30 instead of October 31, and moved up
their planned date for the Commerce Secretary’s
apportionment report from April 30, 2021 to
Available at https://docs.house.gov/meetings/GO/GO00/20200729/110948/ HHRG-116-GO00-Wstate-DillinghamS-20200729.pdf.
2

6

December 31, 2020. See Nat’l Urban League, 20-cv05799-LHK, ECF No. 208 at 7, 12. The Commerce
Inspector General concluded that the accelerated
deadlines “pose[] a myriad of risks to [the] accuracy
and completeness” of the census; that the decision
“likely came from the White House”; and that the
Memorandum likely “played some role” in the
decision.3
E.

Proceedings Below

On July 24, 2020, Appellees—a group of States,
localities, and non-governmental organizations
engaged in census outreach—filed complaints raising
numerous constitutional and statutory claims.
A three-judge panel was convened to hear the case
pursuant to 28 U.S.C. § 2284(b). App.21a.
Appellees moved for partial summary judgment on
some of their constitutional and statutory claims.
Appellees submitted dozens of declarations describing
both the ongoing and future injuries caused by the
Memorandum. Appellants “did not ask to depose
Plaintiffs’ declarants or request discovery of any kind;
nor did they seek a hearing.” App.22a.
After full briefing and oral argument, the threejudge panel issued a per curiam opinion granting
Appellees summary judgment.
First, the district court found “undisputed evidence
that the Memorandum is affecting the census count in
U.S. Dep’t of Commerce, Office of the Inspector General,
The Acceleration of the Census Schedule Increases the Risks to a
Complete and Accurate 2020 Census, Final Management Alert
No. OIG-20-050-M, at 10, 5, 6-7 (Sept. 18, 2020), available at
https://www.oig.doc.gov/OIGPublications/OIG-20-050-M.pdf.
3

7

the present,” App.44a, by causing “widespread
confusion among illegal aliens and others as to
whether they should participate in the census,”
App.35a. That confusion “has obvious deleterious
effects on their participation rate.” Id. The court found
that “[t]hese deterrent effects have far-reaching
ramifications, including increasing costs for census
outreach programs run by NGOs and governments,”
such as Appellees. App.35a. “[T]he undisputed facts
in the record also reflect[ed] that judicial
relief … would likely reduce the confusion felt by
immigrant communities,” thereby enabling Appellees
to “conduct more efficient and effective census
outreach,” and ultimately “alleviat[ing] some of the
injuries being felt by Plaintiffs.” App.42a (citations
omitted).
The district court concluded Appellees therefore
had standing to seek declaratory and injunctive relief.
App.43a-68a. The court did not resolve whether
Appellees also have standing based on injuries arising
from the Memorandum’s effect on apportionment
or on federal funding, as it deemed the Memorandum’s
chilling effect on census participation and the
consequent drain on Appellees’ organizational
resources sufficient for standing. App.43a.
On the merits, the district court ruled that the
Memorandum violated 2 U.S.C. § 2a and 13 U.S.C.
§ 141 in two distinct respects.
First, it concluded that the Memorandum violates
the requirement to base the apportionment on the
decennial census. The relevant statutes provide that
“the Secretary is required to report a single set of
figures to the President—namely, ‘[t]he tabulation of
total population by States’ under the ‘decennial
8

census’—and the President is then required to use
those same figures to determine apportionment using
the method of equal proportions.” App.78a. The Memorandum, however, contravenes this dictate. It requires the Secretary of Commerce to alter the total
population figures ascertained by the decennial
census, by subtracting undocumented persons who
were included in the actual Enumeration. The Court
held that the President’s plan to “choos[e]” a different
“apportionment number … after the census is complete” violates “Congress’s mandate to use the results
of the census — and only the results of the census —
in connection with the apportionment process.”
App.79a, 82a (quoting Supp.App.110a-111a).
Second, the district court found that the
Memorandum violates statutory requirements to use
the “total population by States,” 13 U.S.C. § 141(b),
and “the whole number of persons in each State,”
2 U.S.C. § 2a, for the apportionment. It does so by
categorically excluding undocumented persons living
in this country solely due to their immigration status.
The district court reached this holding based on
the statute’s plain text and the “the ordinary public
meaning of [its] terms at the time of [] enactment,”
Bostock v. Clayton Cty., Ga., 140 S. Ct. 1731, 1738
(2020). The court observed that “[t]he ordinary meaning of the word ‘person’ is ‘human’ or ‘individual’ and
surely includes citizens and non-citizens alike.”
App.83a. And “look[ing] to 1929, when Section 2a was
enacted,” App.87a, the court concluded that Congress
understood the phrase “whole number of persons in
each state” to include all persons who reside in the
country regardless of immigration status, based on
their understanding “that the Constitution mandated
9

inclusion of illegal aliens residing in the United
States.” Id. at 88a. The court further observed that,
“since 1929 (if not before), the consistent view of both
political branches has been that Section 2a, if not the
Constitution, requires the inclusion of all residents in
the apportionment base, without regard for their legal
status.” Id. at 91a.
Having decided this case on statutory grounds, the
district court concluded that it was unnecessary to
reach the merits of Appellees’ constitutional claims.
Id. at 102a.
The district court permanently enjoined all
Appellants—except the President—from including in
the Commerce Secretary’s apportionment report “any
information concerning the number of aliens in each
State ‘who are not in a lawful immigration status
under the Immigration and Nationality Act.’” Id.
at 99a. The court ordered that the Secretary’s report
must include only the results of the 2020 decennial
census. Id. at 99a. It also clarified that its limited
injunction did not block Appellants “from continuing
to study whether and how it would be feasible to
calculate the number of illegal aliens in each State.”
Id. at 100a. Finally, the district court issued
“an unambiguous judicial declaration that the
Presidential Memorandum is unlawful,” which it
determined “would help ensure that the chilling
effects on participation in the census are mitigated to
the maximum extent possible.” Id. at 102a.
F.

Post-Judgment Developments

Since the judgment below, the December 31
statutory deadline for the Commerce Secretary’s apportionment report has been stayed. Nat’l Urban
10

League, 20-cv-05799-LHK, ECF No. 208 (N.D. Cal.
Sept. 24, 2020). Appellants subsequently notified this
Court that they can only “partially implement[]” the
Presidential Memorandum before December 31.
Appellants’ Supp. Br. at 5 (Oct. 2, 2020).
ARGUMENT
Federal law and the Constitution require
including all “persons in each State” in the apportionment. 2 U.S.C. § 2a(a); U.S. Const., amend. XIV,
sec. 2. The Presidential Memorandum violates that
requirement, because it categorically excludes
undocumented immigrants from the apportionment
base. The words “person” or “in” cannot be plausibly
read to exclude undocumented immigrants who reside
in this country. And this Court’s recent decision in
Evenwel v. Abbott, 136 S. Ct. 1120 (2016) makes clear
that the total population—including undocumented
immigrants—must be part of the apportionment.
In addition, federal law directs the apportionment to be conducted solely on the basis of the total
“population” as “ascertained under the … decennial
census.” 2 U.S.C. § 2a(a); see also 13 U.S.C. § 141(a),
U.S. Const., art. I, sec. 2. But the Memorandum—
which Appellants asserted “does not affect how the
Census
Bureau”
counts
the
population,
Supp.App.35a—directs apportionment to be based on
a number different from the total population as
ascertained under the decennial census. This “second”
number (without undocumented immigrants), J.S. 5,
will be calculated “following the 2020 census,” rather
than as a part of it, 85 Fed. Reg. 44,680 (capitalization
omitted). That departure from the census violates the
“automatic reapportionment” scheme Congress
11

designed, Franklin, 505 U.S. at 792, and constitutes
the type of “political chicanery” the Framers sought to
prevent. Utah v. Evans, 536 U.S. 452, 500 (2002)
(Thomas, J. dissenting).
There is a live case or controversy between
the parties right now. The district court found
“undisputed evidence that the Memorandum affects
the census count,” by dissuading census participation,
with attendant “adverse consequences that are likely
to flow from that deterrent effect.” App.30a. Injuries
caused by such a “predictable effect of Government
action on the decisions of third parties”—here,
deterrence of census responses and diversion of
organizational resources to address that chilling
effect—establish standing. Dep’t of Commerce v. New
York, 139 S. Ct. 2551, 2566 (2019).
Finally, there is no “mismatch” between these
injuries and the relief ordered by the district court.
The injunction and declaratory relief address injuries
caused by the Memorandum now. And after census
counting is complete, it will be Appellants’ burden to
show mootness, which they will be unable to do given
that the Memorandum will shift congressional seats
away from the States in which Appellees’ members
reside. Indeed, that is the Memorandum’s stated purpose and anticipated effect. Where, as here, the President has made his intentions clear, and his plan
plainly violates federal statutes and the Constitution,
immediate relief is necessary and appropriate.

12

I.

THE PRESIDENTIAL MEMORANDUM
VIOLATES THE STATUTORY AND
CONSTITUTIONAL REQUIREMENTS
TO INCLUDE ALL PERSONS IN EACH
STATE IN THE APPORTIONMENT
REGARDLESS OF IMMIGRATION
STATUS.

The district court correctly concluded that the
Memorandum’s policy of excluding undocumented
immigrants from the apportionment base violates the
Census Act. Although the Court did not reach the
issue, the Memorandum also violates the Fourteenth
Amendment, and should the Court note probable
jurisdiction, it should include this constitutional claim
as well.
A.

The Census Act Requires Including
Undocumented Immigrants Residing in
this Country in the Apportionment Base

1.
This case “involve[s] no more than the
straightforward application of legal terms with plain
and settled meanings.” Bostock, 140 S. Ct. at 1743.
The governing statutory text directs the Commerce
Secretary to report to the President “[t]he tabulation
of total population by States,” 13 U.S.C. § 141(b), and
requires the President to transmit to Congress “a
statement showing the whole number of persons in
each State.” 2 U.S.C. § 2a.
“The ordinary meaning of the word ‘person’ is
‘human’ or ‘individual’ and surely includes citizens
and non-citizens alike.” App.83a (citing Plyler v. Doe,
457 U.S. 202, 210 (1982)). Congress knows how to
distinguish “citizens” from “persons.” See, e.g., Suzlon
Energy Ltd. v. Microsoft Corp., 671 F.3d 726, 729
13

(9th Cir. 2011) (phrase “any person” in Electronic
Communications Privacy Act includes foreign
persons); O’Rourke v. U.S. Dep’t of Justice, 684 F.
Supp. 716, 718 (D.D.C. 1988) (phrase “any person” in
Freedom of Information Act includes non-citizens).
It certainly knew how to do so in 1929. See, e.g., Pub.
L. No. 71-962, § 6(b) (prohibiting “alien” from “being
admitted to citizenship” without being “a person of
good moral character” as shown by testimony of two
“citizens”).
The phrase “[i]n each state” also clearly
encompasses undocumented immigrants who live in
this country. Those persons plainly are “in” a state if
they live there on Census Day. That is true even under
“the gloss” of “usual residence.” Franklin, 505 U.S. at
804, as undocumented immigrants who live in the
United States maintain their “usual residence” in a
state under any possible conception of the phrase. As
the district court summarized, “[a] person living in a
State but facing future removal is no less ‘a person
in that State’ than someone living in the State without
the prospect of removal.” App.86a (citations omitted).
The plain text of the statutes “should be the end of the
analysis.” Bostock, 140 S. Ct. at 1743 (internal quotation marks omitted).
2.
History confirms that the statute means
what it says. “This Court normally interprets a statute
in accord with the ordinary public meaning of its
terms at the time of its enactment.” Id. at 1738.
Accordingly, the district court “look[ed] to 1929, when
Section 2a was enacted and the words ‘whole number
of persons in each State’ entered the statutory lexicon.” App.87a.
14

The historical record from 1929 is clear. First,
“in enacting the 1929 Act … the Senate and the House
both considered and rejected amendments that would
have excluded non-citizens from the apportionment
base.” App.88a (citing proposed amendments and
respective votes against their inclusion). Senate
counsel noted that Congress had “been uniformly in
favor of inclusion of aliens,” 71 Cong. Rec at 1822
(1929), and that the “whole number of persons”
language would continue that practice. And “[t]here
is no dispute that the concept of ‘illegal aliens’ existed
in 1929, when Section 2a was enacted.” App.88a, n.17.
Indeed, Congress enacted the statute over the objection that it would include in the apportionment base
several million noncitizens who had entered unlawfully “without the consent of the American people.”
71 Cong. Rec. at 1919 (1929) (Sen. Heflin).
Congress has since repeatedly rejected bills to
exclude noncitizens from the apportionment base.
See H.R. Rep. No. 76-1787 at 1 (1940) (showing proposed exclusion of noncitizens in 1940); 1980 Census:
Counting Illegal Aliens: Hearing Before the S. Subcomm. on Energy, Nuclear Proliferation & Fed. Services of the Comm. on Governmental Affairs (1980
Census), 96th Cong. 10 (1980). “Congress’ unbroken
practice” cuts strongly against “petitioner[’s] argument” here. Eldred v. Ashcroft, 537 U.S. 186, 213-14
(2003).
Second, “until the [] Memorandum, the Executive
Branch has also always taken the view that the 1929
Act prohibited exclusion of illegal aliens from the
apportionment base due to legal status alone.”
App.90a. That “long practice amount[s] to a contemporaneous and continuous construction of the statute
15

by the … executive officers charged with … carrying
out its provisions.” United States v. McMillan, 165
U.S. 504, 515-16 (1897).
For example, in 1980, the Department of Justice
argued that “[t]he plain language of [the Act]
maintains the Constitutional requirement of counting
all inhabitants of the states, legal and illegal, for
purposes of apportionment.” Defs.’ Reply Mem. & Opp.
Pls.’ Mot. Summ. J. at 11, FAIR v. Klutznick, No. 793269, 1980 WL 683642, at *11 (D.D.C. Jan. 3, 1980)
(emphasis added). In 1988 and 1989, the Justice
Department reaffirmed in letters “to Congress that
excluding illegal aliens from the census and apportionment would be unconstitutional.” App.90a-91a
(citing Ltr. from Thomas M. Boyd, Acting Ass’t. Atty.
Gen., to Rep. William D. Ford (June 29, 1988));
Ltr. from Carol T. Crawford, Assistant Attorney Gen.,
to Sen. Jeff Bingaman (Sept. 22, 1989) (reprinted in
135 Cong. Rec. S22,521 (daily ed. Sept. 29, 1989)).
The Census Bureau continues to interpret the
statutes to require including undocumented immigrants. Under the Residence Rule, foreign citizens
including undocumented immigrants who live in the
United States will be “counted at the U.S. residence
where they live and sleep most of the time.” 83 Fed.
Reg. 5533. The Rule’s stated aim is “to ensure that the
concept of usual residence is interpreted and applied,
consistent with the intent of the Census Act of 1790,
which was authored by a Congress that included many
of the framers … .” Id. at 5526.

16

B.

The Constitution Requires Including
Undocumented Immigrants Residing in
this Country in the Apportionment Base

This Court should also summarily affirm because
the Constitution requires including the “whole number of persons in each state” in the apportionment.
Rarely is a constitutional issue presented to this Court
so clear-cut. The Constitution’s express terms, the
unambiguously expressed intent of the Framers of the
Fourteenth Amendment, and this Court’s decision in
Evenwel, 136 S. Ct. 1120, conclusively establish that
undocumented immigrants residing in this country
must be included in the apportionment.
1.
The Fourteenth Amendment requires
apportionment to be based on “the whole number of
persons in each state,” and this Court has held that
the term “person” in the Fourteenth Amendment
includes undocumented immigrants. Plyler, 457 U.S.
at 210; cf. Zadvydas v. Davis, 533 U.S. 678, 688 (2001)
(“the Due Process Clause applies to all persons within
the United States, including aliens, whether their
presence is lawful, unlawful, temporary, or permanent”). “Whatever his status under the immigration
laws, an alien is surely a ‘person’ in any ordinary
sentence of that term.” 457 U.S. at 210. Because
undocumented residents “are clearly ‘persons’” residing in a state, the Fourteenth Amendment is “not
ambiguous” in mandating that undocumented immigrants living in this country must be included for
apportionment. FAIR, 486 F. Supp. at 576; accord
New York v. Dep’t of Commerce, 351 F. Supp. 3d. 502,
514 (S.D.N.Y. 2019).
2.
History confirms that the Fourteenth
Amendment means what it says. Its Framers
17

considered this exact question, and determined the
apportionment base should include all persons living
in this country, including all foreign citizens.
The Fourteenth Amendment’s Framers “considered at length the possibility of allocating House seats
to states on the basis of voter population” or citizen
population. Evenwel, 136 S. Ct. at 1127 (citation omitted). The Joint Committee of Fifteen initially voted to
apportion House seats based on “the whole number of
citizens of the United States in each state.” Benjamin
B. Kendrick, The Journal of the Joint Committee of
Fifteen on Reconstruction, 39th Congress, 1865-1867,
49–52 (emphasis added). After further deliberation,
however, Representative Conkling moved to “strik[e]
out the words ‘citizens of the United States in each
state,’ and inserting in lieu thereof the words, ‘persons
in each State.” Id. at 52. The Joint Committee adopted
the amendment. Id.
Conkling explained that his amendment specifically ensured that all aliens residing in this country
would be counted. Using “citizens” rather than
“persons,” he clarified, would “cause considerable
inequalities …, because the number of aliens in some
States is very large, and growing larger now, when
emigrants reach our shores at the rate of more than a
State a year.” Cong. Globe, 39th Cong., 1st Sess.
359 (1866). “[M]any of the large States [held] their
representation in part by reason of their aliens,”
Conkling added, and the Fourteenth Amendment had
to “be acceptable to them” to ensure ratification. Id.
Other Framers agreed. Representative John
Bingham explained that the “whole immigrant
population should be numbered with the people and

18

counted as part of them” because “[u]nder the Constitution as it now is and as it always has been, the entire
immigrant population of this country is included in
the basis of representation.” Id. at 432 (emphases
added); see also, e.g., id. at 411, 1256, 2987.
The Framers’ decision reflected the view that
the Constitution demands representation of “the
whole population” of each state. Senator Jacob
Howard explained when introducing the Fourteenth
Amendment’s final language: “Numbers, not voters;
numbers, not property; this is the theory of the
Constitution.” Cong. Globe, 39th Cong., 1st Sess.
2766–67 (1866).
3.
In Evenwel, this Court confirmed that the
Fourteenth Amendment incorporates this “theory of
the constitution.” “Texas, like all other States, [drew]
legislative districts on the basis of total population”—
including all residents counted in the census, without
regard to citizenship or immigration status. 136 S. Ct.
at 1123 (emphasis added). Evenwel rejected the notion
that the Fourteenth Amendment precluded Texas
from using the same “total population” base to draw
districts, on the ground that the Fourteenth Amendment “retained total population as the congressional
apportionment base.” Id. at 1128. As the Court explained, “[i]t cannot be that the Fourteenth Amendment calls for the apportionment of congressional districts based on total population, but simultaneously
prohibits States from apportioning their own legislative districts on the same basis.” Id. at 1128–29.
That resolves this case. The “total population”
Texas used for intra-state redistricting included undocumented immigrants living there. Evenwel held
that the Fourteenth Amendment requires inter-state
19

apportionment to be based on this same “total population” base including undocumented immigrants.
C.

Appellants’
Justifications
for
Memorandum Are Unavailing

the

1.
Appellants attempt to create uncertainty
around the meaning of “inhabitants” at the time of the
founding by invoking the Swiss theorist Emmerich de
Vattel’s definition of “inhabitants” from the 1760
treatise The Law of Nations. J.S. 27. But Vattel’s definition was never cited in the Constitutional Convention. Nor was it mentioned in the Reconstruction
Debates. The best Appellants can do is note that Chief
Justice Marshall cited Vattel’s definition of “inhabitant” in an 1814 dissenting opinion discussing war
prizes. Id. at 27-28.
In any event, Appellants’ reliance on Vattel proves
too much. Vattel defined “inhabitants” as “distinguished from citizens”—i.e., in his lexicon, only noncitizens were classified “inhabitants.” The Law of
Nations, Ch. 19, § 213 (1760). Applying that definition
for apportionment purposes would exclude all citizens
from the population base. Cf. Griffin v. Oceanic
Contractors, Inc., 458 U.S. 564, 575 (1982) (“interpretations of a statute which would produce absurd
results are to be avoided”).4

While unnecessary to resolve this case given the clear history
surrounding the Fourteenth Amendment, “inhabitant” as understood at the Founding may be gleaned by reference to dictionaries
from the founding era. These sources all define “inhabitant”
broadly to mean one who resides in a place, without regard to
notions of government permission. See 1 S. Johnson, A Dictionary
of the English Language 658 (6th rev. ed. 1785) (“Dweller; one
that lives or resides in a place.”); N. Bailey, An Etymological
4

20

2.
Appellants point to “certain categories of
illegal aliens” they claim could be cut from the apportionment base, such “as aliens residing in a detention
facility,” “aliens who have been detained for illegal entry and paroled into the country pending removal proceedings, or aliens who are subject to final orders of
removal.” J.S. 29.
But “illegal alien” is not a term of art in the
Immigration and Nationality Act. And noncitizens
paroled into the country or detained pending removal
proceedings are currently residing in the United
States.5 “[M]any people in immigration custody or removal proceedings actually have lawful immigration
status, and their placement in custody or removal proceedings does not necessarily render them unlawfully
present.” App.86a. Moreover, many are ultimately
permitted “to remain in the United States,” and
“many people initially designated as ‘undocumented’—including many intercepted at the border—
ultimately obtain lawful status, such as asylum.
App.86a-87a. And while “foreign tourists,” J.S. 24, are
not part of the census, that is because they are not
residents, not because of their immigration status.
App.84a, n.16. Indeed, under the Residence Rule, even
U.S. citizens who usually reside outside this country

English Dictionary (20th ed. 1763) (“one who dwells or lives in a
Place.”). None of these definitions imposes any requirement of
legal consent of the sovereign.
Indeed, Esther Kaplan of Kaplan v. Tod, 267 U.S. 228 (1925),
whom Appellants contend never resided in the U.S. because she
was denied lawful entry, J.S. 29-30, was in fact counted as an
inhabitant in the 1920 census. See Dkt. 149-2.
5

21

would not be counted here if they were only transiently present. See 83 Fed. Reg. 5533.
In any event, the Memorandum does not purport
to exclude some subcategories of undocumented
immigrants from the apportionment. It makes it the
categorical “policy of the United States to exclude from
the apportionment base aliens who are not in a lawful
immigration status,” and directs that those persons
must be excluded solely because they are “not in a
lawful immigration status.” 85 Fed. Reg. 44,680. That
is unquestionably unlawful. It is not a “particularly
close” question. App.6a.
II.

THE PRESIDENTIAL MEMORANDUM
VIOLATES THE STATUTORY AND
CONSTITUTIONAL REQUIREMENTS
TO BASE THE APPORTIONMENT ON
THE DECENNIAL CENSUS ALONE.

The district court also correctly found that the
Memorandum “violates Congress’s mandate to use the
results of the census—and only the results of the
census—in connection with the apportionment
process.” Id. at 79a (emphasis added). Here, too, the
Memorandum also violates the Constitution.
A.

The Census Act and the Constitution
Require Apportionment Based on the
Decennial Census Alone

1. The relevant Census Act provisions require
that both the Secretary’s report to the President, and
the President’s apportionment statement to Congress,
must use the “total population” and “whole number of
persons” as “ascertained under the … decennial

22

census.” 13 U.S.C. § 141(a), 2 U.S.C. § 2a(a). As Appellants acknowledge, once the census is complete, the
statutes assign a “ministerial” role to the
President in calculating apportionment by applying a
strict mathematical formula to census data. J.S. at 5;
see also Franklin, 505 U.S. at 799.
This “automatic reapportionment” scheme, Franklin, 505 U.S. at 792, is made clear by “the historical
background of the decennial census and the Act that
governs it.” Dep’t of Commerce v. U.S. House of Reps.,
525 U.S. 316, 335 (1999). In 1920, for the first time,
Congress failed to pass a reapportionment act. See
Dep’t of Commerce v. Montana, 503 U.S. 442, 451-52
(1992). Responding to a “10-year stalemate,” Congress
reshaped the reapportionment scheme in 1929 to
“make it virtually self-executing.” Franklin, 505 U.S.
at 792. The result was “an ‘automatic connection
between the census and the reapportionment’; [] that
was ‘the key innovation of the [Census] Act.’” App.75a
(quoting Franklin, 505 U.S. at 809 (Stevens, J.,
concurring in part and concurring in the judgment)
(emphasis added). As the 1929 Senate Report
explained, after that year’s census, “with these figures
in hand, the President would report the census
figures, together with a table showing how, under
these figures, the House would be apportioned.”
S. Rep. 71-2 at 4 (1920) (emphasis added). The district
court correctly relied on this background to “confirm
that the Secretary’s ‘tabulation’ … must be based on
decennial census data alone.” App.75a.
The district court also properly relied on the
Executive Branch’s longstanding understanding of
the statutory framework. “[G]reat weight is attached
to the construction consistently given to a statute
23

by the executive department … .” Burnet v. Chicago
Portrait Co., 285 U.S. 1, 16 (1932). Indeed, almost 30
years ago, Chief Justice Roberts, then Deputy
Solicitor General, explained to the Court that “[t]he
law directs [the President] to apply … a particular
mathematical formula to the population figures,” and
“[i]t would be unlawful … to say, these are the figures,
they are right, but I am going to submit a different
statement.” Franklin, 505 U.S. 788 (No. 91-1502),
Oral Arg. Tr., 1992 WL 672612, at *12.
2.
The Constitution likewise instructs that the
apportionment be conducted on the basis of the decennial census alone.
Article I, section 2 mandates that House seats be
allocated based on the “numbers” determined by the
“actual Enumeration” of the decennial census. U.S.
Const. art 1, § 2. While the Executive Branch may
maintain some discretion over the manner of the
census, once the decennial census determines the
“actual Enumeration,” the Constitution commands
Appellants to use those numbers—and only those
numbers—to apportion House seats. As this Court has
explained, “the results of the census shall be used to
apportion the Members of the House of Representatives among the States.” Wisconsin v. City of New
York, 517 U.S. 1, 5 (1996) (emphasis added).
The Framers required that apportionment be
based solely on the actual enumeration to “limit political chicanery.” Utah, 536 U.S. at 500 (Thomas, J.,
concurring in part and dissenting in part). Their
“principal concern was that the Constitution establish
a standard resistant to manipulation.” Id. at 503.
George Mason described having a “permanent and
precise standard as essential to fair representation.”
24

Id. at 502 (quoting The Founders’ Constitution 102-03
(P. Kurland & R. Lerner eds. 1987)). Roger Sherman
agreed that “the rule of revising the Representation
ought to be fixt by the Constitution.” Id. (quoting
The Founders’ Constitution 104). And Alexander
Hamilton, writing about the Enumeration Clause’s
apportionment of direct taxes among the States,
explained that “an actual Census or enumeration of
the people must furnish the rule,” so as to “shut[] the
door to partiality or oppression.” The Federalist No. 36
at 220 (emphasis added).
B.

The Presidential Memorandum
Requires that the Apportionment Be Conducted on the Basis of a Population
Count Other than the Decennial
Census.

1.
The Memorandum flouts this statutory
and constitutional requirement. Appellants repeatedly represented in the district court that, notwithstanding the Memorandum, the “complete enumeration” for the 2020 census will include all persons residing in the United States, including undocumented
immigrants. Supp.App.120a. Under the Bureau’s Residence Rule, undocumented immigrants who “live and
sleep most of the time” in the United States are part
of the census’ enumeration of the population. 83 Fed.
Reg. 5533. And the Bureau publicly represents that
“undocumented residents . . . with a usual residence
in the 50 states are included in the resident population for the census, which means they are all included
in the apportionment counts.”6

6

See supra note 1.

25

But the Memorandum calls for the use of
population numbers that “will necessarily be derived
from something other than the census itself.” App.78a79a (emphasis added). Appellants will take the
enumerated total population, and subtract some
estimate of the undocumented immigrants who live
in each State, using sources other than the actual
Enumeration. See 85 Fed. Reg. 44,679-80. Appellants’
Jurisdictional Statement clearly explains that the
President will use this “second” number, reflecting
“the population of each State ‘exclud[ing]’ undocumented immigrants,” for the apportionment. J.S. at 5
(quoting 85 Fed. Reg. 44,680).
The Census Act and the Constitution prohibit
Appellants from apportioning this way. The President
does not have “discretion” to pencil out persons included in the actual enumeration to create a separate
apportionment base of his own liking. The fixed “rule”
of the Constitution, The Federalist No. 36 at 220,
and statutory text, bar the President from using an
apportionment base that differs from the “the whole
number of persons in each State … as ascertained
under the … decennial census.” 2 U.S.C. § 2a(a).
2.
Appellants’ reliance on Franklin is misplaced. Franklin did not “suggest, let alone hold, that
the President [can] use something other than the census when calculating the reapportionment,” App.79a.
To the contrary, Franklin affirmed that Congress has
“expressly required the President to use … the data
from the ‘decennial census.’”
505 U.S. at
797. It did not recognize any presidential authority to
depart from the actual enumeration for apportionment.

26

Although Franklin acknowledged the President’s
authority “to direct the Secretary in making policy
judgments that result in ‘the decennial census,’”
505 U.S. at 799, “that is not what the President[]’s
Memorandum] did … .” App.81a-82a. Appellants
repeatedly represented that the Memorandum will
not affect the actual census count. See Supp.App.35a
(“Memorandum does not affect how the Census
Bureau is conducting its remaining enumeration
operations or ‘ … commitment to count each person in
their usual place of residence’”); id. at 110a-111a
(“Plaintiffs are not challenging some procedure that
will be used in the actual census, but an apportionment number that will be chosen by the President
after the census is complete.”). “They cannot
now … on appeal—retreat from those admissions.”
Supp.App.9a.
Franklin, by contrast, involved the “conduct of
the census—specifically … the Census Bureau’s
decision to count federal employees serving overseas
as residents of the State listed as their home of
record.” App.79a (emphasis added). There, “[i]n July
1989, nine months before the census taking was to
begin, then-Secretary of Commerce Robert Mosbacher
decided to allocate overseas federal employees to their
home states for purposes of congressional apportionment.” 505 U.S. at 793 (emphasis added). The result
was an “amendment of the ‘decennial census’ itself.”
Id. at 797-98 (emphasis added).
Appellants’ assertion that the Census Bureau
may use “data other than that collected as part of the
questionnaire responses or other field operations,”
J.S. at 22, is true, but irrelevant. The fact that the
Census Bureau may use administrative records to
27

decide where to allocate people who should be included
in the enumeration is a horse of a different color.
Supp.App.7a-9a. Using administrative data to fill
“gaps” in self-responses is part and parcel of enumerating total population, as the Constitution and
statutes command. Utah, 536 U.S. at 457. That is very
different from using non-census data to subtract
persons already counted in the enumeration, post hoc,
in order to alter the apportionment, contrary to both
constitutional and statutory mandates.
It does nothing for Appellants that “the ‘decennial
census’” might “present[] a moving target even after
the Secretary reports to the President.” Franklin, 505
U.S. at 797. The “question” in Franklin was “whether
the census count is final before the President” sends
the apportionment statement to Congress for purposes of Administrative Procedure Act review. Id. at
798 n.1. This Court concluded it was not, but only
because of the possibility of “correction[s]” to the final
census data. See id. at 797-99. Franklin was clear that
the President may exercise “accustomed supervisory
powers over his executive officers,” id. at 800—but
nowhere gave the President discretion to alter the
final population after-the-fact for apportionment
purposes. Thus, while “[a]s enacted, 2 U.S.C. § 2a(a)
provides that the Secretary cannot act alone,” id., it
still “require[s] the President to use … the data from
the ‘decennial census’” for the apportionment. Id. at
797.
Appellants’ plan to use something other than the
actual Enumeration for apportionment—with the express purpose of punishing “States adopting policies”
with which the Administration disagrees and reshaping political representation for the next decade, 85
28

Fed. Reg. 44,680—constitutes precisely the type of
“political chicanery” and “manipulation” that the
Framers sought to avoid by requiring the apportionment to be conducted on the basis of the census alone.
Utah, 536 U.S. at 500, 503 (Thomas, J., concurring in
part and dissenting in part). The “actual Enumeration” forming the basis for apportionment must be the
“whole number of persons” counted in the census, not
whatever the President says it is.
III.

PLAINTIFFS HAVE STANDING, THIS
CASE IS NOT MOOT, AND THERE
IS
NO
“MISMATCH”
BETWEEN
PLAINTIFFS’ INJURY AND THE
RELIEF AWARDED

Appellants assert that the Court should “summarily reverse” because they believe this matter will become moot sometime in the future. It will not.
A.
Appellants first object that the Memorandum’s “chilling effect” is speculative. J.S. 13-14. But
the record below featured “undisputed evidence that
the Memorandum [affects] the census count in the
present,” App.44a, by causing “widespread confusion
among illegal aliens and others as to whether they
should participate in the census.” App.35a. The result
is a clear “deterrent effect on participation in the decennial census, particularly among noncitizens,
immigrants, and their family members, and, in turn,
the adverse consequences that are likely to flow from
that deterrent effect.” App.30a. See also App.29a-68a.
These facts are established by dozens of declarations
from Appellees, their members, and experts.
Appellants did not rebut any of them.

29

The consequences include not only depressed
counts, but resource-diversion injuries, App.35a-37a,
which Appellants do not even address. Injuries
stemming from “the predictable effect of Government
action on the decisions of third parties” were sufficient
to establish standing in this Court’s last Census case,
New York, 139 S. Ct. at 2566. They are sufficient here.
B. Appellants next assert that the case will become
moot when census data collection ends (an as-yet
undetermined date given court orders in different
litigation). But field data collection remains ongoing
now. Appellants’ ask this Court to summarily reverse
a declaratory judgment and injunction that redresses
an ongoing injury to Plaintiffs because it may become
moot later. That request is baseless. The Court can
and should summarily affirm the lower court’s
decision now, while data collection continues.
Appellants’ related argument that there is a
“mismatch” between the relief provided and plaintiffs’
injury, J.S. 13-14, is equally unpersuasive. First,
Appellants failed to raise this argument below.
The district court specifically asked the parties to
address the proper scope of relief, but Appellants did
not assert their “mismatch” argument. The district
court therefore held “they waived the argument by not
pressing it” until stay briefing. Supp.App.12a-13a. Because the scope of relief “is not an argument about
standing but about the merits,” Salazar v. Buono, 559
U.S. 700, 713 (2010) (plurality opinion), it may be
waived, see Barrientos v. 1801-1825 Morton LLC, 583
F.3d 1197, 1215 (9th Cir. 2009) (failure to object to
scope of injunction in district court meant argument
was waived on appeal).

30

Second, there is no “mismatch.” The government’s
theory that the injunction will be moot “before” it
takes “effect” on December 31, J.S. 14, ignores the fact
that the court issued a declaratory judgment that is
effective now, precisely because the Memorandum is
injuring plaintiffs now. And the injunction, too, is
effective now—it enjoins the Memorandum itself,
which is what the district court found is chilling the
ongoing count.
The fact that relief might be reversed on appeal
does not make it an “advisory opinion.” J.S. 15. Injunctions and declaratory judgments are always subject to
appellate reversal. Appellants purport to distinguish
this case on the ground that the district court issued
“future relief” to “redress only present injury.” J.S. 16.
But as just noted, the declaratory judgment and injunction both address the Appellees’ current injuries
by invalidating the Memorandum.
On Appellants’ “mismatch” theory, the Department of Justice could announce today that, starting
November 10, 2020, it will investigate for campaign
finance violations everyone who contributes to Joe
Biden, and a court would be powerless to prevent the
obvious chill on First Amendment rights. As here,
that injunction would be directed at a current
announcement of future action, but surely such a
threat would create a justiciable controversy—just as
the Memorandum does here.
C.
Nor will this case become moot once the census count is complete. Appellants’ argument on this
score “confuse[] mootness with standing.” Friends of
the Earth, Inc. v. Laidlaw Envtl. Servs. (TOC), Inc.,
528 U.S. 167, 189 (2000). “Standing doctrine functions
to ensure … that the scarce resources of the federal
31

courts are devoted to those disputes in which the
parties have a concrete stake.” Id. at 191. “In contrast,
by the time mootness is an issue, the case has been
brought and litigated,” and “[t]o abandon the case at
an advanced stage may prove more wasteful than
frugal.” Id. at 191-92.
For these reasons, Appellants bear a “heavy burden” of establishing that this case will become moot
when data collection ends. Michigan v. Long, 463 U.S.
1032, 1042 n.8 (1983). “A case becomes moot … only
when it is impossible for a court to grant any effectual
relief whatever to the prevailing party.” CampbellEwald Co. v. Gomez, 136 S. Ct. 663, 669 (2016) (internal quotation marks omitted). Appellants have not
carried their heavy burden here.
First, even after the census concludes, summary
affirmance will prevent injury to Appellees in the form
of diminished representation in Congress. The
Memorandum explicitly anticipates that excluding
undocumented immigrants would affect one State
that “is home to more than 2.2 million illegal aliens”
(California) by reducing “the allocation of two or three
more congressional seats than would otherwise be
allocated.” 85 Fed. Reg. 44,680. Two Plaintiff organizations have members in California, Dkt. 75 ¶¶ 34, 37,
47-48, and face certain and cognizable future injuries
due to the Memorandum. Additionally, Appellees’
expert concluded, and Appellants did not dispute, that
Texas—home to numerous members of the
Plaintiff organizations—has a 98.3% chance of losing
a congressional seat if Appellants’ policy is implemented. Dkt. 76-58 (¶43, Tbl. 7). See Dep’t of
Commerce v. U.S. House of Representatives, 525 U.S.

32

316, 330 (1999) (affirming standing on summary judgment based on expert testimony that “it is a virtual
certainty that Indiana will lose a seat … under the
Department’s Plan”).
The district court did not reach this injury because
Appellees’ other injuries were sufficient to establish
standing. App.43a-44a. But there is nothing speculative about what the Memorandum intends to do:
reduce the congressional representation of several
states and their residents. And because the illegal
conduct and its remedy do not turn on the particulars
of which states lose seats, or on precisely how many
seats are lost, that injury is ripe for review now, and
easily establishes Appellees’ continued, concrete stake
in the legality of the Presidential Memorandum.
Moreover, this Court has explained that “harmful
conduct may be too speculative to support standing,
but not too speculative to overcome mootness.”
Adarand Constructors, Inc. v. Slater, 528 U.S. 216,
224 (2000) (quoting Friends of the Earth, Inc., 528 U.S.
at 170). Here, there is no genuine dispute that excluding undocumented immigrants is all but certain to affect the apportionment—that is the very point of the
Presidential Memorandum. To carry their burden in
establishing mootness on appeal, Appellants would
have to establish that excluding undocumented
immigrants would not achieve the Memorandum’s
stated goal of causing states to lose congressional
seats. They do not even try.
This is the paradigmatic case where “[t]o abandon
the case at an advanced stage may prove more
wasteful than frugal.” Friends of the Earth, Inc., 528
U.S. at 189. If this Court were to deem Appellees’ census count injuries moot when the census count is over,
33

and to apply Munsingwear rather than to simply dismiss the appeal, but see infra IV.E, the proper course
would be a remand to the district court to address Appellants’ remaining standing claims. By that time, if
it is not already, the apportionment injury will be sufficiently concrete to support standing, Supp.App.14a
n.8, so the district court would just reinstate its merits
opinion. A mootness finding would do nothing but delay this case’s resolution by a few months, and waste
the scarce time and resources of the half-dozen threejudge district court panels that have actively presided
over the cases challenging the Memorandum. Appellants’ request that this case be found moot when it will
become live again two months later in no way serves
the public interest.
Second, Appellants’ most recent representations
give rise to an additional basis for a live case and controversy: that the Memorandum will directly reduce
census-related appropriations to states and localities
with substantial immigrant populations—including to
programs on which Appellees’ members rely. Appellants argued below that the Memorandum would not
have such fiscal effects, because it would exclude
undocumented immigrants from the apportionment
base only—and not from the “actual census.” App.84a.
But in this Court, they now state that they intend to
use administrative records to eliminate undocumented immigrants from the “census tabulation”
altogether. J.S. 19; accord J.S. 23.
In that event, the Presidential Memorandum
would certainly cause financial injury to Appellees.
Excluding any undocumented immigrants from the
census will necessarily reduce federal funding tied
to the census count. See New York, 139 S. Ct. at 2565.
34

That, in turn, will reduce the funding available to
Appellees and their members, who provided undisputed evidence of their reliance on census-based
appropriations. See e.g., Dkt. 76-14 ¶¶ 5, 12; Dkt. 7618 ¶¶ 5, 18; Dkt. 76-26 ¶¶ 17-18; Dkt. 76-43 ¶¶ 6, 20;
Dkt. 76-47 ¶3. . Such financial injuries independently
support standing and prevent mootness. Cf. Bank of
Am. Corp. v. City of Miami, Fla., 137 S. Ct. 1296, 1303
(2017) (standing based on unquantified “lost tax revenue and extra municipal expenses” due to discriminatory mortgage lending); Massachusetts v. E.P.A., 549
U.S. 497, 523 (2007) (standing based on likely future
climate change remediation costs to state, where the
amount was uncertain). And again, because the violation (excluding undocumented immigrants in the
count) and the remedy (including them) do not turn in
any way on the particulars of the downstream effects,
this dispute is fully ripe now.
D.
Even if this matter were moot, it would
satisfy the capable-of-repetition-yet-evading-review
exception. First, the census count runs for eight or
nine months—“too short” to allow a challenge based
on chilling participation “to be fully litigated prior to
cessation or expiration.” Fed. Election Comm’n v. Wis.
Right To Life, Inc., 551 U.S. 449, 462 (2007);
see Kingdomware Techs., Inc. v. United States, 136 S.
Ct. 1969, 1976 (2016) (“two years is too short to
complete judicial review”). That is especially so given
the possibility that an announcement of a policy that
chills participation may come well into the counting
period, as it did here. App.46a-47a.
Second, “there is a reasonable expectation that the
same complaining party will be subject to the same
action again.” FEC, 551 U.S. at 462. The NGO
35

plaintiffs are well-established organizations that
intend and reasonably expect to be around for the
2030 census. The New York Immigration Coalition,
for example, was founded in 1987. And, of course, the
state and local governmental plaintiffs will be subject
to the 2030 census and all future censuses. If the
judgment below is reversed, the policy of the United
States will continue to be to exclude undocumented
immigrants from the apportionment, and that policy,
unless declared invalid by the courts, will injure the
NGO plaintiffs and the states in 2030 in precisely the
way it injured them in 2020, by chilling participation
in the census. As this dispute and prior census
disputes have demonstrated, absent judicial relief
clarifying the government’s obligations, there is a real
risk that similar manipulations will recur next time,
and again be too short-lived to be reviewed.
E.
Finally, if the Court were to decide that the
appeal had become moot, the proper course would be
to dismiss the appeal for lack of jurisdiction, not to
vacate the decision below. A losing party is not
automatically entitled to vacatur when the Court loses
jurisdiction on appeal; Munsingwear is an equitable
remedy to which a “suitor's conduct in relation to the
matter at hand may disentitle him.” U.S. Bancorp
Mortg. Co. v. Bonner Mall P'ship, 513 U.S. 18,
25 (1994). Appellants have not even tried to
“demonstrate … equitable entitlement to the
extraordinary remedy of vacatur.” Id. at 26.
Nor could they. Here, any mootness would be
entirely attributable to the Government. Appellants
were asked specifically whether an injunction would
redress the chilling effect on the census count, see
Dkt. 158, and waived any argument that it would not,
36

Supp.App.12a-13a. The Court declined to reach
Appellants’ apportionment theory of injury—which
indisputably would not be moot—at Appellants’
urging. App.43a. And, as the district court found, “it is
Defendants’ own conduct that has put Plaintiffs in
such a precarious position.” App.67a. Appellants
inexplicably chose to announce their policy change
belatedly, in the middle of the census count, rather
than sufficiently in advance to allow a full course of
judicial review. It would be “perverse” to allow them
to benefit from that decision. Cf. id.
CONCLUSION
For the reasons stated above, the motion to dismiss
or affirm should be granted.
In the alternative, if this Court notes probable jurisdiction, the Court should include the constitutional
challenges asserted below, and Appellants’ motion to
expedite plenary consideration should be denied in
light of their repeated representations that errors in
the apportionment can be remedied after the fact, and
their recently-acknowledged inability under any
circumstances to implement the Presidential
Memorandum prior to the December 31 statutory
deadline for the Commerce Secretary’s apportionment
report.

37

Respectfully submitted,
John A. Freedman
Elisabeth S. Theodore
R. Stanton Jones
Daniel F. Jacobson
ARNOLD & PORTER
KAYE SCHOLER LLP
601 Mass. Ave., NW
Washington, DC 20001
Perry Grossman
NEW YORK CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004

Dale E. Ho
Counsel of Record
Adriel I. Cepeda Derieux
Davin Rosborough
Cecillia D. Wang
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004
(212) 549-2693
dho@aclu.org
David D. Cole
Sarah Brannon
Ceridwen Cherry
AMERICAN CIVIL LIBERTIES UNION FOUNDA-

Andre I. Segura
Edgar Saldivar
Thomas Buser-Clancy
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION OF
TEXAS
P.O. Box 8306
Houston, TX 77288

TION

915 15th Street, NW
WASHINGTON, DC 20005
Julia A. Gomez
Peter Eliasberg
ACLU FOUNDATION OF
SOUTHERN CALIFORNIA
1313 West 8th Street
LOS ANGELES, CA 90017

Counsel for Appellees New York Immigration
Coalition, et al.
Date: October 7, 2020

38

SUPPLEMENTAL
APPENDIX

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
20-CV-5770 (RCW) (PWH) (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS,
-vDONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS.
FILED: September 29, 2020
OPINION AND ORDER
Before:

RICHARD C. WESLEY, United States
Circuit Judge; PETER W. HALL,
United States Circuit Judge; JESSE M.
FURMAN, United States District Judge

PER CURIAM
On July 21, 2020, the President of the United
States issued a Memorandum declaring that, “[f]or the
purpose of the reapportionment of Representatives
following the 2020 census” —which is still ongoing —
“it is the policy of the United States to exclude from
the apportionment base aliens who are not in a lawful
immigration status.” Excluding Illegal Aliens From
the Apportionment Base Following the 2020 Census §
2, 85 Fed. Reg. 44,679, 44,680 (July 23, 2020) (ECF
No. 1-1) (the “Presidential Memorandum”). Within
days, Plaintiffs filed these consolidated cases,
familiarity with which is assumed, alleging that the
1a

Presidential Memorandum violates the Constitution,
statutes governing the census and apportionment,
and other laws. In an Opinion and Order entered
September 10, 2020, we granted summary judgment
to Plaintiffs on the ground that the Presidential
Memorandum constituted an “ultra vires violation of
Congress’s
delegation
of
its
constitutional
responsibility to count the whole number of persons in
each State and to apportion members of the House of
Representatives among the States according to their
respective numbers under 2 U.S.C. § 2a and 13 U.S.C.
§ 141.” New York v. Trump, — F. Supp. 3d —, No. 20CV-5770 (RCW) (PWH) (JMF), 2020 WL 5422959, at
*36 (S.D.N.Y. Sept. 10, 2020) (ECF No. 164); see ECF
No. 165 (“Judgment”).We declared the Presidential
Memorandum to be unlawful. And we also entered an
injunction barring the Secretary of Commerce (the
“Secretary”) and other Defendants from “including in
the Secretary’s report to the President pursuant to
Section 141(b) [of the Census Act] . . . any information
concerning the number of aliens in each State who are
not in a lawful immigration status under the
Immigration and Nationality Act.” New York, 2020
WL 5422959, at *35 (internal quotation marks and
citation omitted). We confirmed, however, that
Defendants were “not enjoin[ed] . . . from continuing
to study whether and how it would be feasible to
calculate the number of illegal aliens in each State.”
Id.
On September 16, 2020, Defendants filed a
notice of appeal of our judgment to the Supreme Court
and, the same day, moved for a stay of judgment
pending appeal. See ECF Nos. 170-71; see also ECF
No. 172 (“Defs.’ Mem.”). Plaintiffs filed their
opposition on September 23. See ECF No. 176. Upon
2a

review of the parties’ submissions, and for the reasons
that follow, we DENY Defendants’ motion as
meritless.
LEGAL STANDARD
In deciding whether to issue a stay pending
appeal, a court must consider four factors: (1) whether
the movant has “made a strong showing” that it “is
likely to succeed on the merits”; (2) whether the
movant “will be irreparably injured absent a stay”; (3)
whether a stay “will substantially injure the other
parties interested in the proceeding”; and (4) “where
the public interest lies.” Nken v. Holder, 556 U.S. 418,
434 (2009). The first two factors — the likelihood of
success and irreparable harm — “are the most
critical,” id., and “have typically been evaluated on a
sliding scale, so that a strong showing that the
applicant is likely to succeed excuses a weaker
showing of irreparable injury,” Nat. Res. Def. Council,
Inc. v. U.S. Food & Drug Admin., 884 F. Supp. 2d 108,
122 (S.D.N.Y. 2012); accord Thapa v. Gonzales, 460
F.3d 323, 334 (2d Cir. 2006). Nevertheless, as the
Supreme Court has emphasized (in the parallel
context of issuing a preliminary injunction), “the
applicant must demonstrate that both factors are
satisfied, so that even if a party makes a robust
showing that it is likely to succeed on appeal, it must
also show that ‘irreparable injury is likely.’” Nat. Res.
Def. Council, 884 F. Supp. 2d at 122 & n.12 (emphasis
added) (quoting Winter v. Nat. Res. Def. Council, Inc.,
555 U.S. 7, 22 (2008)). Notably, “[a] stay is not a
matter of right, even if irreparable injury might
otherwise result. It is instead an exercise of judicial
discretion, and the propriety of its issue is dependent
upon the circumstances of the particular case.” Nken,
3a

556 U.S. at 433 (internal quotation marks and
citations omitted). Ultimately, the party or parties
seeking the stay bear “the heavy burden of
demonstrating that a stay is warranted.” U.S.
Commodity Futures Trading Comm’n v. eFloorTrade,
LLC, No. 16-CV-7544 (PGG), 2020 WL 2216660, at *2
(S.D.N.Y. May 7, 2020) (internal quotation marks
omitted); accord Nken, 556 U.S. at 433-44. Defendants
fall well short of carrying their burden. In fact, they
satisfy none of the four factors relevant to the
analysis.
IRREPARABLE HARM
First and foremost, Defendants fail to show
that they will suffer any irreparable injury absent a
stay. In fact, they do not even purport to make the
necessary showing. They say only that they “may
suffer irreparable injury without a stay of the
judgment.” Defs.’ Mem. 6 (emphasis added)
(capitalization altered). But that is not the relevant
standard. See Nken, 556 U.S. at 434 (“will be
irreparably injured” (emphasis added)); see also, e.g.,
Rubin v. United States, 524 U.S. 1301, 1301 (1998)
(Rehnquist, C.J., in chambers) (“An applicant for stay
first must show irreparable harm if a stay is denied.”
(emphasis added)).
By itself, that failure is enough to deny
Defendants’ motion. But even if Defendants were
correct about the applicable standard, their
arguments about irreparable harm are frivolous.
First, by their own admission, our injunction will not
“actually constrain[] Defendants’ actions” until at
least December 31, 2020 — the statutory deadline for

4a

the Secretary’s Section 141(b) report. Defs.’ Mem. 3.1
At a minimum, therefore, Defendants would have to
show that they could not obtain appellate relief by
that date. Yet they make no such showing.2
Even if Defendants could not obtain appellate
relief by the statutory deadline for the Section 141(b)
report, their own prior representations and
arguments make plain that they would not face any
harm, let alone irreparable harm, absent a stay.
Defendants have repeatedly maintained (in service of
their arguments that resolution of these cases was not
urgent and that Plaintiffs could not show
apportionment-based irreparable harm) that “an
erroneous or invalid apportionment number can be
remedied after the fact.” ECF No. 118 (“Defs.’ Original
Mem.”), at 48 (emphasis added); see also ECF No. 79
(“Aug. 5, 2020 Tr.”), at 16 (“[T]he case could be decided
after the president submits the numbers to
Congress.”); Defs.’ Original Mem. 9-10 (“[Plaintiffs’]
challenge should await the actual apportionment . . .
Due to events since Defendants’ motion, the injunction may not
constrain Defendants’ actions until later. On September 24,
2020, the United States District Court for the Northern District
of California granted a preliminary injunction staying the “U.S.
Census Bureau’s . . . September 30, 2020 deadline for the
completion of data collection and December 31, 2020 deadline for
reporting the tabulation of total population to the President” and
enjoining the Secretary, the Department of Commerce, the
Director of the U.S. Census Bureau, and the U.S. Census Bureau
“from implementing these two deadlines.” Nat’l Urban League v.
Ross, — F. Supp. 3d —, No. 5:20-CV-5799 (LHK), 2020 WL
5739144, at *48 (N.D. Cal. Sept. 24, 2020).
1

Notably, we entered final judgment only 48 days after these
lawsuits were filed (and 51 days after the Presidential
Memorandum was issued), at which time there were 112 days
remaining until the statutory deadline.
2

5a

.”); ECF No. 154 (“Defs.’ Original Reply”), at 2
(“[A]pportionment challenges have historically been
decided postapportionment without spurring the
‘chaos’ that Plaintiffs allege (without factual support)
will occur here if the Court waits.”). “[T]here is no
need,” they asserted, “to resolve this lawsuit before
the submission of the enumeration numbers to the
President” — so long as it was resolved in time for “the
2022 elections.” ECF No. 37 (“Joint Pre-Conf. Ltr.”), at
5 (emphasis added).
That position is surely correct, see, e.g., Utah v.
Evans, 536 U.S. 452, 462 (2002); Franklin v.
Massachusetts, 505 U.S. 788, 803 (1992), and,
regardless, is binding on Defendants here, see, e.g.,
New Hampshire v. Maine, 532 U.S. 742, 749 (2001)
(“Where a party assumes a certain position in a legal
proceeding, and succeeds in maintaining that
position, he may not thereafter, simply because his
interests have changed, assume a contrary position . .
. .” (brackets and internal quotation marks omitted)).
And it is fatal to any claim of irreparable harm. As
Defendants admit, there is no magic to the deadline
for the Secretary’s Section 141(b) report; in the event
Defendants obtain appellate relief thereafter, they can
implement the Presidential Memorandum.
LIKELIHOOD OF SUCCESS ON THE MERITS
Defendants also fail to make a showing, let
alone a “strong showing,” that they are “likely to
succeed on the merits.” Nken, 556 U.S. at 434.
Defendants make three arguments: (1) that, in
holding that “the Presidential Memorandum violates
Congress’s mandate to use the results of the census —
and only the results of the census — in connection
with the apportionment process,” New York, 2020 WL
6a

5422959, at *27, we failed to consider that Franklin
approved the use of “administrative records when
conducting the enumeration,” Defs.’ Mem. 4-5; (2)
that, in holding that “[t]he statutory command to use
the ‘whole number of persons in each State’ as the
apportionment base does not give the President
discretion to exclude illegal aliens on the basis of their
legal status, without regard for their residency,” New
York, 2020 WL 5422959, at *32, we “mistakenly
suggested that the meaning of 2 U.S.C. § 2a is
different from the substantive standard under the
Constitution,” and that the Constitution leaves room
for the President to exclude illegal aliens from the
“whole number of persons in each State,” Defs.’ Mem.
5-6 (citation omitted); and (3) that there is “a
mismatch between the asserted injury on which the
Court relied (the chilling effect [on the census count])
and the relief that it ordered (an injunction of conduct
after census field operations end),” id. at 3.
We will address each argument in turn.
A.

Apportionment Must Be Based on
the Results of the Census Alone

Defendants’ first argument rests on either a
mischaracterization or a serious misunderstanding of
our Opinion and Order, as well as additional disregard
of their own prior concessions. We did not overlook
that the census count in Franklin was based in part
on administrative records, let alone suggest that the
Secretary, in exercising his discretion with respect to
the census under Section 141(a), could not use
administrative records “to subtract people” in
reaching a final census count even though they were
enumerated. Defs.’ Mem. 5 (emphasis omitted). To the
contrary, we explicitly acknowledged Defendants’
7a

argument that the overseas personnel at issue in
Franklin “were counted using administrative records
rather than a questionnaire” and explained that that
fact “was of no moment” because there, unlike here,
“[t]he overseas personnel were counted as part of the
census itself, resulting in a single ‘tabulation of total
population by States’ under the ‘decennial census.’”
New York, 2020 WL 5422959, at *28 n.15 (quoting 13
U.S.C. §§ 141(a)-(b)).
The Secretary might have discretion under the
Census Act to use administrative records as a method
of not counting people in the census. But for whatever
strategic reason, that is not what the Presidential
Memorandum does. Instead, the Presidential
Memorandum directs the Secretary to report “[t]he
tabulation of total population by States” under the
previously adopted “Residence Rule” that governs the
“decennial census” and a second set of numbers based
on something other than the census.3 Indeed, during
this litigation, Defendants themselves repeatedly
admitted as much. See, e.g., Joint Pre-Conf. Ltr. 5
(“Plaintiffs are not challenging some procedure that
will be used in the actual census, but an
apportionment number that will be chosen by the

See Presidential Memorandum, 85 Fed. Reg. at 44,679 (titled
“Excluding Illegal Aliens From the Apportionment Base
Following the 2020 Census” (emphasis added); id. at 44,680 § 3
(requiring the Secretary “to provide information permitting the
President, to the extent practicable, to exercise the President’s
discretion to carry out the policy set forth in section 2 of this
memorandum. The Secretary shall also include in that report
information tabulated according to the methodology set forth in
Final 2020 Census Residence Criteria and Residence Situations,
83 [Fed. Reg.] 5525 (Feb. 8, 2018).” (emphasis added)).
3

8a

President after the census is complete.”).4 They cannot
now — or on appeal —retreat from those admissions.
And for the reasons we have already explained, those
admissions render the Presidential Memorandum an
ultra vires violation of the statutes governing the
census and apportionment. See New York, 2020 WL
5422959, at *25-29.
B.

The Apportionment Base Must
Include Illegal Aliens Who Reside in
a State

Defendants’ second claim — that we erred in
finding that illegal aliens who reside in the United
States qualify as “persons in” a “State” under Section
2a — fares no better. For one thing, the argument
assumes that Defendants have the better of the
constitutional argument —that the same language in
the Constitution might carry a different meaning.
Although we did not reach the constitutional question
in our Opinion and Order — and need not do so here
— that proposition is certainly debatable. By their
own admission, Defendants cannot cite a single
example in the historical record where any branch of
the Government adopted the interpretation of the
Constitution that they now advance. See Oral Arg. Tr.
See also, e.g., ECF No. 120 ¶ 12 (“The Presidential
Memorandum . . . has had no impact on . . . the Census Bureau’s
commitment to count each person in their usual place of
residence, as defined in the [Residence Rule].”); ECF No. 118, at
4 (“The Presidential Memorandum directs the Secretary of
Commerce to submit to the President two tabulations.”); id. at 12
(“[T]he Memorandum does not affect how the Census Bureau is
conducting its remaining enumeration operations . . . .”
(emphasis in original)); Defs.’ Original Reply 2 “([T]he
Memorandum itself [does] not in any way affect the conduct of
the actual census . . . .”).
4

9a

46; New York, 2020 WL 5422959, at *32; see also, e.g.,
N.L.R.B. v. Noel Canning, 573 U.S. 513, 524 (2014)
(holding that “historical practice” was entitled to
“significant weight” in interpreting the Recess
Appointments Clause); Free Enter. Fund v. Pub. Co.
Accounting Oversight Bd., 561 U.S. 477, 505 (2010)
(observing that “[p]erhaps the most telling indication
of the severe constitutional problem with” the
structure of the independent agency at issue was its
“lack of historical precedent” (quoting Free Enter.
Fund v. Pub. Co. Accounting Oversight Bd., 537 F.3d
667, 699 (D.C. Cir. 2008) (Kavanaugh, J.,
dissenting))).
In any event, Justice Frankfurter’s axiom that
“if a word is obviously transplanted from another legal
source . . . it brings the old soil with it,” Felix
Frankfurter, Some Reflections on the Reading of
Statutes, 47 COLUM. L. REV. 527, 537 (1947) (cited
at Defs.’ Mem 5), does not get Defendants very far, for
at least two reasons. First, as we noted in our Opinion
and Order, a court’s principal task in interpreting a
statute is to apply its terms “in accord with the
ordinary public meaning . . . at the time of its
enactment.” Bostock v. Clayton Cnty., 140 S. Ct. 1731,
1738 (2020); accord Food Mktg. Inst. v. Argus Leader
Media, 139 S. Ct. 2356, 2362-63 (2019) (citing cases).
The “old soil” axiom is a means to that end; at bottom,
it is an application of the well-established principle
that when Congress adopts the language of an earlier
legal source, it is presumed to have also adopted the
settled understanding given to such language “and
made it a part of the enactment.” United States v.
Kwai Fun Wong, 575 U.S. 402, 425 (2015) (Alito, J.,
dissenting) (citation omitted); see Stokeling v. United
States, 139 S. Ct. 544, 551 (2019). As we previously
10a

demonstrated, to the extent that there was a settled
understanding of the constitutional language in 1929,
when the precursor to Section 2a was enacted, it was
that the “whole number of persons in each State” used
for apportionment included all persons residing in a
State, without regard for legal status. See New York,
2020 WL 5422959, at *30-32.5 At best, Defendants
maintain that the constitutional question was
unsettled in 1929 (and, indeed, that it remains
unsettled today). If so, the old soil does not answer the
relevant question.
Moreover, as we explained in our Opinion and
Order, there was a good reason not to plow the “old
soil” in this case: Doing so would run contrary to the
equally well-established principle that courts should
not “pass upon a constitutional question although
properly presented by the record, if there is also
present some other ground upon which the case may
be disposed of.” New York, 2020 WL 5422959, at *25
(quoting Ashwander v. TVA, 297 U.S. 288, 347 (1936)
(Brandeis, J., concurring).6 The Supreme Court has
Defendants argue that, in our Opinion and Order, we “appeared
to rely on statements suggesting a view only that aliens (writ
large) cannot be excluded from the enumeration count for
apportionment,” which “does not answer the question whether a
smaller subset — some or all aliens who are here unlawfully —
may be excluded.” Defs.’ Mem. 6 (citation omitted). But
Defendants do not identify a single statement or source in 1929
that differentiated between legal and illegal aliens with respect
to the statutory phrase “whole number of persons in each State.”
That silence is fatal to Defendants’ argument.
5

Thus, Defendants’ assertion in the Jurisdictional Statement
they filed in the Supreme Court, that we “gave no reason for
departing from the presumption that when ‘a word is obviously
transplanted from another legal source,’ it ‘brings the old soil
with it,’” is wrong. Jurisdictional Statement 32, Trump v. New
York, No. 20-366 (Sept. 22, 2020) (“Jurisdictional Statement”)
6

11a

never followed the “old soil” axiom in interpreting a
statute where, as here, the “old soil” was the
Constitution itself, let alone where, as here also, doing
so would entail passing upon a constitutional question
for the first time. Doing so would be inconsistent with
“the fundamental principle of judicial restraint.”
Wash. State Grange v. Wash. State Republican Party,
552 U.S. 442, 450-51 (2008). And doing so here would
have unnecessarily complicated our task, as the
meaning of the phrase “whole number of persons in
each State” in 1929 was and is clear without the need
to delve into Founding and Reconstruction era
sources. See Ashwander, 297 U.S. at 347 (Brandeis, J.,
concurring) (“It is not the habit of the [C]ourt to decide
questions of a constitutional nature unless absolutely
necessary to a decision of the case.” (citation omitted)).
C.

Defendants’ Mismatch Argument
Was Waived and Does Not Justify a
Stay

Finally, Defendants’ mismatch argument does
not merit a stay for several reasons. First, they waived
the argument by not pressing it earlier. See, e.g.,
Barrientos v. 1801-1825 Morton LLC, 583 F.3d 1197,
1215 (9th Cir. 2009) (“[The defendant] did not object
to the scope of the injunction before the district court
and, therefore, has waived the objection.”); In re
Aimster Copyright Litig., 334 F.3d 643, 656 (7th Cir.
2003) (“[Defendant] objects to the injunction’s
breadth. But having failed to suggest alternative
language either in the district court or in this court, it
(quoting Hall v. Hall, 138 S. Ct. 1118, 1128 (2018)). Likely
because it flies in the face of our Opinion and Order, Defendants
do not make the same assertion in their brief seeking relief from
us here.

12a

has waived the objection.”).7 Defendants try to evade
the consequences of their earlier silence by suggesting
(and arguing more explicitly in their Jurisdictional
Statement in the Supreme Court) that the issue
relates to standing or mootness and, thus, jurisdiction.
See Defs.’ Mem. 2-3; see also Jurisdictional Statement
12-16. But that suggestion is meritless. It is black
letter law that “the standing inquiry” is “focused on . .
. when the suit was filed,” Davis v. Fed. Election
Comm’n, 554 U.S. 724, 734 (2008), and census
operations were in full swing when these suits were
filed. And there is certainly no mootness issue now (let
alone at the time we issued our Opinion and Order),
as census operations are ongoing as of today and may
continue for at least a month. See Nat’l Urban League,
2020 WL 5739144, at *48; see also, e.g., 2020 Census
Deadline Extensions Act, S. 4571, 116th Cong. (2020)
(bipartisan bill introduced in the Senate on September
15, 2020 that would extend census operations to
October 31, 2020).
Second, to the extent that Defendants are
correct that, upon the end of census operations, our
injunction would no longer be needed to prevent
census-related harms, they seek the wrong form of
relief and at the wrong time. Instead, Defendants
must move to modify or dissolve the injunctive portion
This issue was foreseeable well before our decision. The
prospect that, in finding standing and granting relief, we might
rely solely on the harms caused by the Presidential
Memorandum to the census count was apparent as early as the
initial conference on August 5, 2020. See Aug. 5, 2020 Tr. 25-35.
That we had multiple avenues available through which we could
find a violation and craft relief does not excuse Defendants’
failure to recognize and address the issue in their brief or during
oral argument.
7

13a

of our judgment at the end of census operations,
pursuant to Rules 60(b)(5) and 62(d) of the Federal
Rules of Civil Procedure. See, e.g., Fed. R. Civ. P. 62(d)
(“While an appeal is pending from . . . [a] final
judgment that grants . . . an injunction, the court may
suspend, modify, restore, or grant an injunction . . . .”);
Horne v. Flores, 557 U.S. 433, 447 (2009) (“Rule
[60(b)(5)] provides a means by which a party can ask
a court to modify or vacate a judgment or order if a
significant change either in factual conditions or in
law renders continued enforcement detrimental to the
public interest.” (internal quotation marks and
citation omitted)); see also Fed. R. App. P. 8(a)(1) (“A
party must ordinarily move first in the district court
for . . . an order suspending, modifying, restoring, or
granting an injunction while an appeal is pending.”).
Staying the injunction now would be inappropriate in
this respect, because the factual circumstances could
be materially different at the end of census operations
— and not necessarily in Defendants’ favor.8 Put
differently, Defendants’ confident assertion that there
will be no factual basis for an injunction following the
end of census operations is entirely speculative and
thus can’t serve as the basis for a stay at this point.
Finally, the real “mismatch” here is between
Defendants’ arguments and the relief they seek,
namely a stay of our judgment in its entirety.
Injunction aside, Defendants’ argument on appeal
provides absolutely no basis to disturb the declaratory
For example, if the Census Bureau and the Secretary have
determined by that time the methodology they will use to count
the number of “aliens who are not in a lawful immigration status”
as directed in the Presidential Memorandum, Plaintiffs’ asserted
apportionment harms might no longer be speculative and could
well justify maintaining the injunction.
8

14a

judgment (thus undermining Defendants’ assertion
that our Opinion and Order constitutes an
impermissible “advisory opinion”). See, e.g.,
Richardson v. Ramirez, 418 U.S. 24, 34-40 (1974)
(holding that a case was not moot based in part on the
fact that the lower court had granted declaratory
relief); cf. Brockington v. Rhodes, 396 U.S. 41, 42
(1969) (“[I]n view of the limited nature of the relief
sought, we think the case is moot because the
congressional election is over. The appellant did not
allege that he intended to run for office in any future
elections. . . . He did not seek a declaratory judgment,
although that avenue too was open to him.” (emphases
added)). We assume — just as the Supreme Court did
in Utah and Franklin — that it is “substantially likely
that the President and other executive and
congressional officials would abide by an authoritative
interpretation of the census statute . . . by the District
Court . . . .” Franklin, 505 U.S. at 803 (plurality
opinion), quoted with approval in Utah, 536 U.S. at
463-64 (majority opinion). To the extent that this
assumption is valid, there is no basis for a stay
because, so long as the declaratory judgment stands,
the Secretary will not include the second set of
numbers in his Section 141(b) report anyway. And to
the extent that this assumption is invalid, there is no
basis for a stay because the injunction is needed to
prevent Defendants from acting unlawfully.
HARM TO PLAINTIFFS AND THE PUBLIC
INTEREST
Finally, the third and fourth stay factors —
whether a stay “will substantially injure” Plaintiffs
and “where the public interest lies,” Nken, 556 U.S. at
434; see, e.g., Sierra Club v. Trump, 929 F.3d 670, 70415a

05 (9th Cir. 2019) (holding that where, as here, the
government seeks a stay, the third and fourth factors
merge) — also weigh heavily against a stay.
Defendants’ argument on the third prong is limited to
two sentences, see Defs.’ Mem 7, and barely merits
commentary. Defendants would not suffer any harm
in the absence of a stay. But if a stay were granted,
Plaintiffs would suffer the irreparable injuries
detailed at length in our Opinion and Order: the
“massive and lasting consequences” of an inaccurate
census count, which occurs only once a decade, with
no possibility of a do-over if it turns out to be flawed.”
New York, 2020 WL 5422959, at *16 (citation
omitted); see also id. at *9-23. Moreover, we fail to see
how, as Defendants argue, “a stay serves the public
interest by promoting clarity for the public (and for
the parties) as to exactly what will happen in the
upcoming census process,” Defs.’ Mem. 8 —given that
Defendants have not articulated how, if at all, the
Secretary plans to fulfill his directive under the
Presidential Memorandum. See Defs.’ Original Mem.
7 (“The extent to which it will be feasible for the
Census Bureau to provide the Secretary of Commerce
a second tabulation is, at this point, unknown.”); see
also id. at 4, 8; Joint Pre-Conf. Ltr. 5; Defs.’ Original
Reply 1-2, 6-7; Sept. 3, 2020 Oral Arg. Tr. 36. And, of
course, “[t]here is generally no public interest in the
perpetuation of unlawful agency action. To the
contrary, there is a substantial public interest in
having governmental agencies abide by the federal
laws that govern their existence and operations.”
League of Women Voters of U.S. v. Newby, 838 F.3d 1,
12 (D.C. Cir. 2016) (internal quotation marks and
citations omitted).

16a

CONCLUSION
In sum, Defendants have not come close to
carrying “the[ir] burden of showing that the
circumstances justify an exercise” of our discretion to
grant a stay. Nken, 556 U.S. at 433-34. They fail to
show that they are likely to succeed on the merits or
that a stay would be in the public interest. And more
significantly, in the face of their own prior admissions
that a final resolution of these cases in 2021 would
cause no harm because the President could revise his
apportionment statement to Congress, Defendants’
arguments about irreparable harm and urgency are
frivolous. Accordingly, Defendants’ motion for a stay
is DENIED.
The Clerk of Court is directed to terminate
ECF No. 171.
SO ORDERED.
Dated: September 29, 2020
New York, New York
__________/s/________
RICHARD C. WESLEY
United States Circuit Judge
__________/s/________
PETER W. HALL
United States Circuit Judge
_________/s/_________
JESSE M. FURMAN
United States District Judge

17a

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
20-CV-5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS,
-vDONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS.
20-CV-5871 (JMF)
NEW YORK IMMIGRATION COALITION, ET AL.,
PLAINTIFFS,
-vDONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS.
FILED: August 19, 2020
MEMORANDUM OF LAW IN SUPPORT OF
DEFENDANTS’ MOTION TO DISMISS AND IN
OPPOSITION TO PLAINTIFFS’ MOTION FOR
PARTIAL SUMMARY JUDGMENT OR
PRELIMINARY INJUNCTION

18a

INTRODUCTION
Plaintiffs—a group of states and localities
(“Government Plaintiffs”) and a group of non- profit
organizations
(“NGO
Plaintiffs”)—bring
constitutional and statutory challenges to a
memorandum that the President issued on July 21,
2020, entitled Excluding Illegal Aliens From the
Apportionment Base Following the 2020 Census (the
“Presidential Memorandum” or “Memorandum”), 85
Fed. Reg. 44,679 (July 23, 2020). That Memorandum
provides that for purposes of reapportionment of
Representatives in Congress following the 2020
census, “it is the policy of the United States to exclude”
illegal aliens from the apportionment base “to the
extent feasible and to the maximum extent of the
President’s discretion under the law.” Id. at 44,680. It
directs the Secretary of Commerce to submit to the
President two tabulations in connection with the
apportionment—one
tabulation
includes
an
enumeration according to the methodology set forth in
the Final 2020 Census Residence Criteria and
Residence Situations, 83 Fed. Reg. 5,525 (Feb. 8, 2018)
(“Residence Criteria”), and the second, “to the extent
practicable,” requires the Secretary to provide
information permitting the President to exclude
illegal aliens from the apportionment base. Because
Plaintiffs’ various challenges to this Memorandum fail
as a matter of law, they should be dismissed.
As a threshold matter, this Court lacks subjectmatter jurisdiction over Plaintiffs’ claims both
because the claims are not ripe and because Plaintiffs
lack standing to challenge the Presidential
Memorandum. Plaintiffs’ alleged injuries, including
lost representation in Congress, decreased federal
funding, and diversion of resources, are speculative.
19a

At this point it is unknown what numbers the
Secretary of Commerce will provide the President.
Accordingly, any allegation as to the impact of the
President’s apportionment decision on matters such
as congressional representation or federal funding is
wholly theoretical and legally insufficient to meet the
ripeness and standing requirements.
Plaintiffs’ allegations that the Presidential
Memorandum will have a significant chilling effect on
immigrant communities’ participation in the census
likewise are speculative and conclusory. They are also
based on hearsay. Plaintiffs rely on affidavits from
fact and expert witnesses that contain only
generalized, second- or third-hand accounts of alleged
harm and unsubstantiated conjectures. The Court
should therefore dismiss all of Plaintiffs’ claims
pursuant to Rule 12(b)(1) for lack of ripeness and
standing.
In addition to these jurisdictional defects,
Plaintiffs’ claims are subject to dismissal for failure to
state a claim pursuant to Rule 12(b)(6). Plaintiffs
assert that the Presidential Memorandum violates the
Administrative
Procedure
Act
(“APA”),
the
constitutional separation of powers, the Tenth
Amendment, principles of equal protection under the
Fifth
and
Fourteenth
Amendments,
the
Apportionment Clauses of Article I and the
Fourteenth Amendment, 13 U.S.C. § 141, and 2 U.S.C.
§ 2a. Each of these claims fails as a matter of law.
First, there is no viable basis for APA review of
the Presidential Memorandum—both because the
President is not an “agency” under the APA and
because Plaintiffs fail to allege any “final agency
action” by the Secretary of Commerce. Second, to the

20a

extent the NGO Plaintiffs allege that the Presidential
Memorandum contravenes the separation of powers,
that claim fails because the Supreme Court in
Franklin v. Massachusetts expressly recognized the
broad scope of congressional delegation of authority to
the President in relation to apportionment. 505 U.S.
788, 799 (1992). Third, the claim that the Presidential
Memorandum
amounts
to
“coercion”
or
“punish[ment]” in violation of the Tenth Amendment
must be dismissed because Plaintiffs have offered only
conclusory allegations as to the Memorandum’s
supposedly invidious purpose and have not alleged
any commandeering of state resources. Fourth,
Plaintiffs’ equal protection claims fail because they
rely on misleading characterizations of the
Presidential Memorandum and because Plaintiffs fail
to plausibly allege “animus” or “discriminatory
intent.” Fifth, Plaintiffs’ claims under the
Apportionment Clauses, 13 U.S.C. § 141, and 2 U.S.C.
§ 2a, are legally deficient, because they are
inconsistent
with
the
Executive
Branch’s
longstanding discretion to define who qualifies as
“inhabitants” (or “persons in each State”) for purposes
of apportionment. Finally, insofar as Plaintiffs seek an
injunction against the President, such relief is
precluded by Supreme Court precedents barring
judicial intrusion on the President’s exercise of policymaking discretion.
For the same reasons that their Complaints
must be dismissed, Plaintiffs are not entitled to either
partial summary judgment or a preliminary
injunction. Plaintiffs cannot succeed on their claims
both because of threshold jurisdictional flaws, but also
because their claims are meritless. And even if
Plaintiffs had standing to bring these actions, which

21a

they do not, they have failed to plausibly assert a
threat of imminent irreparable harm from the
Memorandum. Accordingly, if the Court declines to
grant Defendants’ Motion to Dismiss, it should deny
Plaintiffs’ Motion for Partial Summary Judgment or
Preliminary Injunction.
BACKGROUND
I.

The Census and Apportionment
Generally

The
Constitution
provides
that
“Representatives shall be apportioned among the
several States according to their respective numbers,
counting the whole number of persons in each State.”
U.S. Const. amend. XIV, § 2. To make apportionment
possible, the Constitution requires that the federal
government conduct a census every ten years in such
a manner as directed by Congress. Id. art. I, § 2, cl. 3.
Each State’s number of Representatives, together
with its two Senators, also determines the number of
electors for President and Vice President in the
Electoral College. See id. art. II, § 1, cl. 2.
Congress, in turn, has by law directed the
Secretary of Commerce to conduct a census of the
“total population” every 10 years “in such form and
content as he may determine.” 13 U.S.C. § 141(a) and
(b). The Census Bureau assists the Secretary of
Commerce in the performance of this responsibility.
See 13 U.S.C. §§ 2, 4. For purposes of the 2020 census,
the Census Bureau has announced that field data
collection will end on September 30, 2020. See August
3, 2020, Statement from U.S. Census Bureau Director
Steven
Dillingham
(“Director
Dillingham”):
Delivering a Complete and Accurate 2020 Census

22a

Count,
https://www.census.gov/newsroom/pressreleases/2020/delivering-complete-accuratecount.html. According to Director Dillingham, the
Census Bureau will take various actions, such as
increasing training and providing awards to census
takers who maximize the hours worked, to “improve
the speed of [the] count without sacrificing
completeness.” Id. The Census Bureau “intends to
meet a similar level of household responses as
collected in prior censuses, including outreach to hardto-count communities.” Id.
The Census Bureau has promulgated criteria to
count most people for census purposes “at their usual
residence, which is the place where they live and sleep
most of the time.” Residence Criteria, 83 Fed. Reg. at
5,533. Following completion of the 2020 census, by
December 31, 2020, the Secretary of Commerce must
submit to the President “[t]he tabulation of total
population by States . . . as required for the
apportionment of Representatives in Congress among
the several States.” 13 U.S.C. § 141(b). “On the first
day, or within one week thereafter, of the first regular
session of the [117th Congress],” the President must
“transmit to the Congress a statement showing the
whole number of persons in each State . . . and the
number of Representatives to which each State would
be entitled . . . by the method known as equal
proportions.” 2 U.S.C. § 2a(a).
II.

The
July
21,
Memorandum

2020,

Presidential

On July 21, 2020, the President issued a
Memorandum to the Secretary of Commerce
regarding the exclusion of illegal aliens from the
apportionment base following the 2020 census. See 85
23a

Fed.
Reg.
at
44,679-81.
The
Presidential
Memorandum states that “it is the policy of the United
States to exclude” such aliens from the apportionment
base “to the extent feasible and to the maximum
extent of the President’s discretion under the law.” Id.
at 44,680. The Presidential Memorandum directs the
Secretary of Commerce to submit to the President two
tabulations. One is an enumeration “tabulated
according to the methodology set forth in” the
Residence Criteria. Id. The second calls for
“information permitting the President, to the extent
practicable,” to carry out the stated policy, i.e., an
apportionment excluding illegal aliens. Id.
To date, the Census Bureau is still evaluating
the usability of administrative records pertaining to
citizenship status in connection with the decennial
census, see Exec. Order 13880, 84 Fed. Reg. 33,821-25
(July 16, 2019), and formulating a methodology for
potentially excluding illegal aliens. See August 3,
2020, Dillingham Statement, https://www.census.gov/
newsroom/press-releases/2020/delivering-completeaccurate-count.html (“The Census Bureau continues
its work on meeting the requirements of Executive
Order 13,880 issued July 11, 2019 and the
Presidential Memorandum issued July 21, 2020. A
team of experts [is] examining methodologies and
options to be employed for this purpose. The collection
and use of pertinent administrative data continues.”).
III.

Plaintiffs’ Challenge

On July 24, 2020, the Government Plaintiffs
and NGO Plaintiffs filed complaints challenging the
Presidential Memorandum; they amended their
complaints on August 3 and August 6, respectively.
See ECF Nos. 34 (“Gov’t Pls.’ Am. Compl.”), 62 (“NGO
24a

Pls.’ Am. Compl.”). Plaintiffs allege, among other
things, that the Presidential Memorandum violates
requirements contained in Article I, the Fourteenth
Amendment, 13 U.S.C. § 141, and 2 U.S.C. § 2a to base
apportionment on the “whole number of persons in
each State”; the Fifth and Fourteenth Amendment’s
Due Process Clause’s prohibition against unlawful
discrimination; the Tenth Amendment by punishing
states that refuse to assist in enforcement of federal
immigration law; the Administrative Procedure Act
(“APA”), 5 U.S.C. § 706; separation of powers; and 13
U.S.C. §§ 141 and 195 with respect to the use of
statistical sampling. Gov’t Pls.’ Am. Compl. ¶¶ 4-5,
142-74; NGO Pls.’ Am. Compl. ¶¶ 1, 8, 11, 182-262.
Plaintiffs further allege that if the President
excludes illegal aliens from the apportionment base,
some Plaintiffs will be injured by losing one or more
Representatives (and corresponding electors in the
Electoral College), undermining their ability to
conduct congressional and state-level redistricting,
depriving them of federal funding, and degrading the
quality of the census data on which Plaintiffs rely to
perform government functions; the NGO Plaintiffs
further allege loss of political power and diversion of
resources to census outreach efforts “to combat fear
and disinformation resulting from the Presidential
Memorandum.” Gov’t Pls.’ Am. Compl. ¶¶ 6, 117-127,
135-36; NGO Pls.’ Am. Compl. ¶¶ 8, 21-83, 161-69.
Plaintiffs assert that the Presidential Memorandum
will reduce the number of aliens who participate in the
census by making them think that their responses are
less valuable and causing “fears . . . that their data
will not be safe.” Gov’t Pls.’ Am. Compl. ¶¶ 130, 13234; NGO Pls.’ Am. Compl. ¶¶ 9, 170-74. Plaintiffs seek
declaratory and injunctive relief. Gov’t Pls.’ Am.

25a

Compl. ¶¶ 7 & Prayer for Relief ¶¶ 1-9; NGO Pls.’ Am.
Compl. Request for Relief ¶¶ i-ix.
In support of their motion for partial summary
judgment or a preliminary injunction (ECF No. 77),
Plaintiffs submitted a declaration from Matthew
Colangelo, an attorney representing the State of New
York, which attached over 900 pages of documents,
including three expert declarations and 51 fact
witness declarations (ECF No. 76, “Colangelo Decl.”).
The expert reports come from (1) Mathew A. Barreto,
Ph.D., a political science professor, Colangelo Decl.
Ex. 56 (“Barreto Decl.”); (2) John Thompson, a former
Director of the Census Bureau, Colangelo Decl. Ex. 57
(“Thompson Decl.”); and (3) Christopher Warshaw,
Ph.D., an assistant professor of political science,
Colangelo Decl. Ex. 58. The 51 fact declarations, from
various state and local governmental and nongovernmental sources, forecast purported injuries
that the Presidential Memorandum could inflict on
aliens’ participation in the remaining portion of the
2020 census. Colangelo Decl. Exs. 1-51.
ARGUMENT
“To survive a motion to dismiss, a complaint
must contain sufficient factual matter, accepted as
true, to state a claim to relief that is plausible on its
face.” Allco Fin. Ltd. v. Klee, 861 F.3d 82, 94 (2d Cir.
2017) (quoting Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009)). Plaintiffs fail this straightforward standard,
so summary judgment should be denied and this case
should be dismissed.
I.

The Court Lacks Jurisdiction Because
Plaintiffs’ Claims Are Unripe
“To be justiciable, a cause of action must be
26a

ripe—it must present ‘a real, substantial controversy,
not a mere hypothetical question.’ A claim is not ripe
if it depends upon ‘contingent future events that may
not occur as anticipated, or indeed may not occur at
all.’” Nat’l Org. for Marriage, Inc. v. Walsh, 714 F.3d
682, 687 (2d Cir. 2013); see also Texas v. United States,
523 U.S. 296, 300 (1998). Ripeness incorporates both
a constitutional requirement and a prudential
requirement. See Stolt-Nielsen S.A. v. AnimalFeeds
Int’l Corp., 559 U.S. 662, 670 n.2 (2010); Nat’l Park
Hosp. Ass’n v. Dep’t of Interior, 538 U.S. 803, 808
(2003). The ripeness doctrine “is designed ‘to prevent
the courts, through avoidance of premature
adjudication, from entangling themselves in abstract
disagreements over administrative policies, and also
to protect the agencies from judicial interference until
an administrative decision has been formalized and
its effects felt in a concrete way by the challenging
parties.’” Ohio Forestry Ass’n, Inc. v. Sierra Club, 523
U.S. 726, 732-33 (1998) (quoting Abbott Laboratories,
387 U.S. at 148-49).
The constitutional requirement “overlaps with
the standing doctrine, ‘most notably in the shared
requirement that the plaintiff’s injury be imminent
rather than conjectural or hypothetical.’” In re Methyl
Tertiary Butyl Ether (MTBE) Prods. Liab. Litig., 725
F.3d 65, 110 (2d Cir. 2013) (quoting Ross v. Bank of
Am., NA., 524 F.3d 217, 226 (2d Cir. 2008)). Under the
ripeness doctrine, the Court also considers: “(1)
whether delayed review would cause hardship to the
plaintiffs; (2) whether judicial intervention would
inappropriately interfere with further administrative
action; and (3) whether the courts would benefit from
further factual development of the issues presented.”
Ohio Forestry Ass’n, Inc., 523 U.S. at 733; see also

27a

Nat’l Org. for Marriage, 714 F.3d at 691 (“To
determine whether to abstain from a case on
prudential ripeness grounds, we proceed with a twostep inquiry, requiring us to evaluate both the fitness
of the issues for judicial decision and the hardship to
the parties of withholding court consideration.”
(citation and internal quotation marks omitted)).
Here, Plaintiffs’ claims do not meet the
constitutional requirement for ripeness because the
claims are, at bottom, about apportionment, rather
than
census
procedures—and
any
alleged
apportionment injury that States may, or may not,
suffer is at this point “conjectural or hypothetical”
rather than “imminent.”
A.

It Is Currently Unknown What
Numbers the Secretary May Report
to the President

The Presidential Memorandum states that “it
is the policy of the United States to exclude” illegal
aliens from the apportionment base “to the extent
feasible and to the maximum extent of the President’s
discretion under the law.” 85 Fed. Reg. at 44,680
(emphasis added). It directs the Secretary of
Commerce to provide two sets of numbers—one
tabulated “according to the methodology set forth in”
the Residence Criteria for counting everyone at their
usual residence, and a second “permitting the
President, to the extent practicable,” to carry out the
stated policy of excluding illegal aliens from the
apportionment base. Id. at 44,680 (emphasis added).
The extent to which it will be feasible for the
Census Bureau to provide the Secretary of Commerce
a second tabulation is, at this point, unknown. See
Decl. of Dr. John M. Abowd ¶ 15. As Director
28a

Dillingham recently publicly stated, the Census
Bureau is still evaluating the usability of
administrative records pertaining to citizenship
status in connection with the decennial census and
formulating a methodology for potentially excluding
illegal aliens. See August 3, 2020, Statement from
Director Steven Dillingham, available https://
www.census.gov/newsroom/press-releases/2020/
delivering-complete-accurate-count.html.
Indeed,
Plaintiffs themselves repeatedlyallege that the
Census Bureau is currently unable to comply with the
Presidential Memorandum’s directive for an
enumeration excluding illegal aliens. See, e.g., NGO Pl
s.’ Am. Compl. ¶ 176 (“The Census Bureau . . . does not
currently have a means to individually enumerate
undocumented immigrants separate and apart from
the rest of the population in each jurisdiction.”); Gov’t
Pls.’ Am. Compl. Sec. VI & ¶ 137 (“Defendants have
not identified any reliable method to accurately
enumerate the population of undocumented
immigrants,” noting that “[j]ust months ago, the
Federal Government represented . . . that there is a
‘lack of accurate estimates of the resident
undocumented population’ on a state-by-state basis.”),
¶ 138 (administrative records do not provide accurate
information about the number of undocumented
immigrants), ¶ 140 (“[T]he Census Bureau has not yet
‘formulated a methodology’ to estimate the
undocumented population”); see also generally Gov’t
Pls.’ Am. Compl. Sec. ¶¶ 137-41 & NGO Pls.’ Am.
Compl. ¶¶ 175-79 (containing similar allegations and
citing statements by the federal government in
support).1
The specific claim brought by the NGO Plaintiffs pursuant to
13 U.S.C. §§ 141, 195—alleging that the Census Bureau will
1

29a

Because it is not known what the Secretary
may ultimately transmit to the President, it is
necessarily not yet known whether the President will
be able to exclude some or all illegal aliens from the
apportionment base. As a result, Plaintiffs’
apportionment claims are unripe as they depend upon
“‘contingent future events that may not occur as
anticipated, or indeed may not occur at all.’” See Nat’l
Org. for Marriage, Inc., 714 F.3d at 687. Put simply,
until the Census Bureau and Secretary of Commerce
transmit the information specified in the Presidential
Memorandum, and until the President acts on the
information, any claim of apportionment injury is
speculative.
B.

Other Considerations Underscore
that Plaintiffs’ Claims Are Not Ripe
Given that the effects of the Presidential
Memorandum and any apportionment injuries to
Plaintiffs are at this point unknown, other
considerations, such as the hardship to the parties
and the fitness of the issues for judicial consideration,
also counsel against the Court’s exercise of
jurisdiction. Nat’l Org. for Marriage, Inc., 714 F.3d at
691. For example, given the above-discussed
uncertainties with respect to the effects of the
Presidential Memorandum, delayed review would not
cause undue hardship to Plaintiffs. See, e.g., Ohio
Forestry Ass’n, 523 U.S. at 733-34 (challenge to agency
action unripe where there is no “significant practical
impermissibly rely on sampling to enumerate the illegal alien
population (NGO Pls.’ Am. Compl. ¶¶ 251-62)—is similarly
unripe because it is conjectural and hypothetical. Plaintiffs have
provided nothing other than speculation that the Census Bureau
will rely on sampling. Gov’t Pls.’ Am. Compl. Sec. ¶¶ 137-41;
NGO Pls.’ Am. Compl. ¶¶ 175-79.

30a

harm” at the present time because a number of future
actions would need to occur to make the harm more
“imminent” and “certain”); Texas, 523 U.S. at 300, 302
(claim unripe where a number of actions would need
to occur to cause the alleged harm, rendering it “too
speculative whether the problem . . . will ever need
solving”); Simmonds v. INS, 326 F.3d 351, 360 (2d Cir.
2003) (“The mere possibility of future injury, unless it
is the cause of some present detriment, does not
constitute hardship.”). Further, judicial review would
improperly interfere with the census, which is
currently in progress, and could impede the
apportionment, which has not yet occurred. See, e.g.,
Ohio Forestry Ass’n, Inc., 523 U.S. at 735 (action
unripe where judicial review “could hinder agency
efforts to refine its policies”). Finally, the Court would
benefit from further real-world factual development.
See, e.g., id. at 736 (action was unripe where it would
require court to engage in “time- consuming judicial
consideration . . . of an elaborate, technically based
plan, which predicts consequences that may affect
many different parcels of land in a variety of ways,”
involved issues that could change in the future, and
“depending upon the agency’s future actions . . .
review now may turn out to have been unnecessary”).
The actual tabulations that are called for by the
Memorandum must be reported by no later than the
end of this year, assuming the statutory deadlines in
§ 141 and § 2a are not extended by Congress.
Perhaps
unsurprisingly,
census
and
apportionment cases generally are decided postapportionment, when census enumeration procedures
are no longer at issue and the actual apportionment
figures are known. See, e.g., Franklin v.
Massachusetts, 505 U.S. 788, 79-91 (1992)

31a

(challenging allocation of Department of Defense’s
overseas employees to particular states following
census); Dep’t of Commerce v. Montana, 503 U.S. at
445-46 (challenging method of equal proportions to
determine representatives); Utah v. Evans, 536 U.S.
452, 458-59 (2002) (challenging sampling method
known as “hot-deck imputation” used by Census
Bureau after analyzing census figures); Wisconsin v.
City of New York, 517 U.S. 1, 4 (1996) (challenging
decision not to use particular statistical adjustment to
correct an undercount). Here, Plaintiffs are not
challenging the enumeration procedures themselves,
but only the hypothetical apportionment that might
result from actions that might be taken pursuant to
the Presidential Memorandum. See, e.g., Gov’t Pls.’
Am. Compl. ¶¶ 142-46; NGO Pls.’ Am. Compl. ¶¶ 18493. Consistent with this long line of Supreme Court
precedent, such a challenge should await the actual
apportionment.
II.
This Court Lacks Jurisdiction Because
Plaintiffs Lack Standing
For similar reasons, Plaintiffs lack standing to
pursue their claims. The doctrine of standing requires
a plaintiff to establish three elements: (1) a concrete
and particularized injury-in-fact, either actual or
imminent; (2) a causal connection between the injury
and defendants’ challenged conduct, such that the
injury is “fairly traceable to the challenged action of
the defendant”; and (3) a likelihood that the injury
suffered will be redressed by a favorable decision.
Defs. of Wildlife, 504 U.S. at 560-61. The standing
inquiry is “‘especially rigorous when reaching the
merits of the dispute would force [the court] to decide
whether an action taken by one of the other two

32a

branches of the Federal Government was
unconstitutional.’” Clapper v. Amnesty Int’l USA, 568
U.S. 398, 408 (2013) (quoting Raines v. Byrd, 521 U.S.
811, 819-20 (1997)). Plaintiffs bear the burden of
establishing the required elements of standing. Defs.
of Wildlife, 504 U.S. at 561. “At the pleading stage,
general factual allegations of injury resulting from the
defendant’s conduct may suffice,” id., but “a plaintiff
cannot rely solely on conclusory allegations of injury.”
Baur v. Veneman, 352 F.3d 625, 637 (2d Cir. 2003).
Here, none of the injuries Plaintiffs allege satisfy
these requirements.
A.

Plaintiffs’ Alleged Apportionment
Injuries Are Too Speculative to
Confer Standing

The standing requirement of “injury in fact”
requires an allegation that “the plaintiff ‘has
sustained or is immediately in danger of sustaining a
direct injury’” as a result of the challenged action.
Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1552 (2016)
(citations omitted). The injury or threat of injury must
be “concrete and particularized” and “actual or
imminent, not ‘conjectural’ or ‘hypothetical.” Defs. of
Wildlife, 504 U.S. at 560. Thus, an alleged future
injury must be “‘certainly impending,’ or there is a
‘substantial risk’ that the harm will occur.” Susan B.
Anthony List v. Driehaus, 573 U.S. 149, 158 (2014)
(quoting Clapper, 568 U.S. at 409 n.5). “‘Allegations of
possible future injury’ are not sufficient.” Clapper, 568
U.S. at 409 (quoting Whitmore v. Arkansas, 495 U.S.
149, 158 (1990)). As discussed above, see supra at 710, Plaintiffs’ alleged apportionment injuries are
speculative and conclusory, and at this point in time,
there is no “substantial risk” that harm will occur. See
Susan B. Anthony List, 573 U.S. at 158. In fact,
33a

Plaintiffs’ own allegations that the Census Bureau
has not yet “formulated a methodology” for excluding
all illegal aliens contradicts their alleged harm. See
supra at 8. Therefore, any injury to Plaintiffs—be it in
the form of loss of a Representative, loss of funding, or
otherwise— is conjectural or hypothetical. Defs. of
Wildlife, 504 U.S. at 560.
B.

Plaintiffs’ Allegations That the
Presidential
Memorandum
Will
Reduce Participation in the 2020
Census Are Also Speculative, Not
Traceable to the Memorandum, and
Not Redressable by a Favorable
Ruling

Plaintiffs alternatively allege that they will
suffer injury because the Presidential Memorandum
will purportedly reduce the number of aliens who
participate in the census by making them think that
their responses are less valuable and causing “fears .
. . that their data will not be safe,” thereby affecting
the distribution of federal funds and degrading the
quality of census data. Gov’t Pls.’ Am. Compl. ¶¶ 130,
132-36; NGO Pls.’ Am. Compl. ¶¶ 9, 170-74. However,
these alleged injuries are far too speculative to
establish standing. In addition, those injuries are
neither traceable to the Memorandum nor redressable
by a favorable ruling from this Court.
1.

Plaintiffs’ Alleged Enumeration
Injuries Are Too Speculative to
Confer Standing

As this Court noted in requesting the
appointment of a three-judge panel pursuant to 28
U.S.C. § 2284, “the Presidential Memorandum does
not purport to change the conduct of the census
34a

itself[;] [i]nstead, it relates to the calculation of the
apportionment base used to determine the number of
representatives to which each state is entitled.” ECF
No. 68 at 2. There is, facially, no reason why such a
Memorandum should have any effect on census
response rates. To the contrary, as explained by the
Census Bureau’s Associate Director for Decennial
Census Programs, Albert E. Fontenot, Jr., the Census
Bureau’s enumeration is almost complete, and the
Memorandum does not affect how the Census Bureau
is conducting its remaining enumeration operations or
“the Census Bureau’s commitment to count each
person in their usual place of residence.” Decl. of
Albert E. Fontenot, Jr. ¶¶ 7, 12. And although
Plaintiffs submit a variety of declarations to
purportedly bolster their claims that the
Memorandum has a chilling effect on respondents,2
those declarations are impermissibly conjectural,
conclusory, and hearsay.
For example, Dr. Barreto’s declaration provides
an opinion regarding the so-called “chilling effect” of
the Memorandum on individuals’ participation in the
2020 Census that is based on multiple levels of
conjecture. Dr. Barreto cites several Spanishlanguage news sources as providing hearsay
statements that activists and organizations are
A court “‘may consider affidavits and other materials beyond
the pleadings to resolve the jurisdictional issue, but [the Court]
may not rely on conclusory or hearsay statements contained in
the affidavits.’” New York v. Dep’t of Commerce, 315 F. Supp. 3d
766, 780 (S.D.N.Y. 2018) (Furman, J.) (alteration in original)
(quoting J.S. ex rel. N.S. v. Attica Cent. Schs., 386 F.3d 107, 110
(2d Cir. 2004)); see also Broidy Capital Mgmt., LLC v. Benomar,
944 F.3d 436, 441 (2d Cir. 2019) (“The district court can refer to
evidence outside the pleadings when resolving a motion to
dismiss under Federal Rule of Civil Procedure 12(b)(1).”
2

35a

concerned about the Memorandum causing fear in
Hispanic and immigrant communities; that several
studies have found that immigrant communities will
rely on Spanish-language news sources; and that
various studies, many of them from decades ago,
suggest that response rates are affected by the overall
socio-political environment. Barreto Decl. ¶¶ 15-16,
32-38. This “evidence” is insufficient to support
Plaintiffs’ allegations that the Memorandum will
significantly reduce the number of aliens who
participate in the census so as to materially affect
federal funding and degrade the quality of census
data. Although Dr. Barreto discusses studies
reflecting concerns among aliens about citizenship
information in the census generally and a citizenship
question on the census specifically (see, e.g., Barreto
Decl. ¶¶ 24-25, 54-55, 61, 68), this is far attenuated
from the issues in this case, which involves the
Presidential Memorandum. This case does not involve
a citizenship question on the census questionnaire or
a change to the Census Bureau’s enumeration under
the Residence Criteria.
Tellingly, Dr. Barreto cites no study actually
addressing the Presidential Memorandum’s effect on
the 2020 Census. And Dr. Barreto’s discussion of
citizenship-question
studies
is
grounded
in
inaccuracies. Notably, Dr. Barreto fails to address, or
even acknowledge, the shortcomings that this Court
identified in the very study Dr. Barreto now cites for
the proposition that the placement of a citizenship
question on a census questionnaire would depress
response rates. Compare Barreto Decl. ¶ 68 with New
York v. Department of Commerce, 351 F. Supp. 3d 502,
581 n.36 (S.D.N.Y. 2019) (noting that the Court would
place “only limited weight on Dr. Barreto’s study”

36a

because it had a flawed design, and did not weigh the
resulting data “to match the population totals”).
Further, Dr. Barreto fails to consider the
results of the randomized controlled trial published by
the Census Bureau after the Supreme Court issued its
opinion in the citizenship question litigation, which
found no statistically-significant depression of
response rates for households that received a test
questionnaire containing a citizenship question.
See Abowd Decl. ¶ 13; see also 2019 Census Test
Report,
Census
Bureau
(Jan.
3,
2020),
https://www2.census.gov/programs-surveys/decennial
/2020/program-management/census-tests/2019/2019census-test-report.pdf (Census Test Report). That
study contained a sample of 480,000 housing units,
and was “capable of detecting response differences as
small as 0.5 percentage points.” See Abowd Decl. ¶ 13.
Overall, “[t]he test questionnaire with the citizenship
question had a self-response rate of 51.5 percent;
[while] the test questionnaire without the citizenship
question had a self-response rate of 52.0 percent.”
Census Test Report at ix. And while some narrow
subgroups exhibited statistically-significant lower
self-response rates, id. at x, the Census Bureau
concluded that “[c]urrent plans for staffing for
Nonresponse Followup would have sufficiently
accounted for subgroup differences seen in this test.”
Id. See generally Abowd Decl. ¶ 13. As Dr. Abowd
reports, this new finding illustrates the benefit of a
“randomized controlled design,” which properly
isolates the independent variable (there, the
citizenship question) and measures its effects. Abowd
Decl. ¶ 13.
Mr.
Thompson’s
expert
declaration—
expressing the subjective opinion that he is “extremely
37a

concerned” that the Presidential Memorandum will
significantly increase the risk of undercounting
immigrant communities—also cannot establish
standing. Mr. Thompson’s citation of studies
conducted in planning for the 2020 Census that
generally indicate immigrants’ fear of the government
and their concern about responses being used against
them, and a 2018 study that he claims supports that
a citizenship question would reduce response rates,
again, have little bearing on this case. Despite
discussing these studies, Mr. Thompson’s declaration
likewise does not address the June 2019 randomized
controlled trial showing no statistically significant
difference in response rates with and without a
citizenship question. See Abowd Decl. ¶ 13. Nor do the
studies Mr. Thompson cites— which have nothing to
do with the Presidential Memorandum—support a
significant chilling effect from the Presidential
Memorandum.
Likewise, the statements contained in various
fact witness declarations that the Presidential
Memorandum will have a chilling effect on
participation of immigrants in the 2020 census also
offer nothing more than speculative, conclusory
statements and hearsay. For example, many of the
declarations provide no support whatsoever for their
assertions. See, e.g., Colangelo Decl. Exs. 9 ¶ 9- 12; Ex.
11 ¶ 11; Ex. 12 ¶ 8-9; Ex. 16 ¶¶ 8-12; Ex. 22 ¶ 8; Ex.
26 ¶¶ 11-13; Ex. 33 ¶¶ 7-8; Ex. 38 ¶¶ 7-9; Ex. 41 ¶¶ 812; Ex. 47 ¶¶ 2, 13, 20. Other declarations vaguely
reference that they heard from “community partners,”
“Census advocates,” and the like that the Presidential
Memorandum was decreasing participation among
immigrants. See, e.g., Colangelo Decl. Exs. 1 ¶ 10; Ex.
4 ¶¶ 8-9; Ex. 5 ¶ 5; Ex. 10 ¶ 6; Ex. 14 ¶¶ 15-19; Ex. 30

38a

¶¶ 9-10; Ex. 35 ¶¶ 5-7; Ex. 36 ¶¶ 10-14; Ex. 42 ¶¶ 5,
7; Ex. 43 ¶¶ 12-16; Ex. 44 ¶¶ 13, 17, 21-22; Ex. 51 ¶ 7.
Very few of these declarations provide any examples
to support their allegations, and the few that do, are
vague and based on hearsay. See, e.g., Colangelo Decl.
Exs. 17 ¶¶ 6-9; Ex. 18 ¶¶ 10-13; Ex. 34 ¶¶ 8-10; Ex. 45
¶¶ 11-12. They certainly do not provide sufficient
support that the Presidential Memorandum would
have an appreciable effect on the participation of
illegal aliens in the remaining months of the 2020
census—for which field operations are to be completed
by September 30, 2020.
Simply put, Plaintiffs’ alleged injuries all
depend on (i) the assumption that a significant
percentage of illegal aliens who otherwise would have
participated in the census will be deterred from doing
so despite outreach by the Census Bureau, and that
(ii) the belief this lack of participation will materially
degrade the census data which will (iii) result in an
appreciable effect on apportionment, redistricting,
and funding. Plaintiffs fail to allege sufficient facts
that the above sequence of events will occur with any
likelihood. See supra at 12-14.
2.

The Alleged Chilling Effect Is
Not
Traceable
to
the
Memorandum

Separate from the question of injury, the
materials submitted by Plaintiffs fail to show that any
diminution in census response rates is fairly traceable
to the Memorandum. Steel Co. v. Citizens for a Better
Env’t, 523 U.S. 83, 03 (1998) (for plaintiff to establish
standing “there must be causation—a fairly traceable
connection between the plaintiff’s injury and the
complained-of conduct of the defendant”). To satisfy

39a

the “‘traceability’” or “‘causation’” prong of the Article
III standing test, allegations must provide more than
“‘unadorned speculation’” to “‘connect their injury to
the challenged actions.’” CREW v. Trump, 953 F.3d
178, 191 (2d Cir. 2020) (quoting Simon v. Eastern
Kentucky Welf. Rights. Org., 426 U.S. 26, 44-45
(1976)), reh’g en banc denied, 2020 WL 4745067 (Aug.
17, 2020). The allegations of fact must plausibly
support a “substantial likelihood” that the plaintiff’s
injury was the consequence of the defendant’s
allegedly unlawful actions (and that prospective relief
could mitigate the harm). Id. Where a theory of injury
rests on a “highly attenuated chain of possibilities,”
Clapper v. Amnesty Int’l, 568 U.S. 398, 410 (2013),
“speculation regarding the future actions of third
parties is not sufficient to establish an imminent
injury, Lower East Side People’s Credit Union v.
Trump, 289 F. Supp. 3d 568, 580 (S.D.N.Y 2018); see
also Taylor v. Bernanke, No. 13-CV-1013 (ARR), 2013
WL 4811222, at *6 (E.D.N.Y. Sept. 9, 2013) (“Where
the occurrence of the future injury depends on the
actions of a third party not included in the plaintiff’s
suit, the Supreme Court has shown particular
reluctance to conclude that the ‘imminence’
requirement is met.”); Himber v. Intuit, Inc., No. 10CV-2511 (JFB), 2012 WL 4442796, at *7 (E.D.N.Y.
Sept. 25, 2012) (“As the jurisprudence of the Supreme
Court and Second Circuit has clearly articulated,
claims of harm based upon speculation regarding
decisions by third parties is insufficient to confer
Article III standing.”).
Here, as noted above, the primary basis for
linking the Memorandum to response rates comes
from Plaintiffs’ expert Dr. Barreto. He opines that
immigrant communities are less likely to respond to

40a

the census after the Memorandum because (1)
immigrant communities’ trust in the government and
willingness to share information was undermined,
Barreto Decl. ¶¶ 14, 19, by; (2) third-party reports
featuring “immigrants, as well as individuals who
worked with community-based organizations that
serve immigrants, and even journalists, all stat[ing]
that they believed the July 21 Memorandum was an
effort to sow confusion and distrust, and to reduce the
count of Latinos and immigrants on the 2020 Census,”
Barreto Decl. ¶¶ 33, 15; carried on (3) various media
sources, particularly Spanish- language ones, which
are highly influential in the immigrant and Latino
communities, Barreto Decl. ¶¶ 16, 32. Dr. Barreto
posits this chain as an unbroken line. But the media,
and the community activists they feature, are
independent actors; those entities’ messages about the
Memorandum are the product of their own
interpretations and views, many of which are at odds
with the plain terms of the Memorandum. See, e.g.,
Torres Decl. ¶ 18, ECF No. 76.47 (stating that CASA
de Maryland, Inc. “was approached by a number of
media outlets, including CNN, to represent the
reaction of our community . . . [and] conveyed how
harmful the action is and our commitment to ensuring
that our members are fully counted.”); Barreto Decl. ¶
33 (listing media messages characterizing the
Memorandum as something “intended to promote
fear”).
It makes little sense for Plaintiffs to attribute
whatever harm is caused by those independent actors
to the Memorandum itself, particularly if their
messages convey the incorrect impression that the
Memorandum increases the “risk of [individuals’]
information being linked to immigration records and

41a

[those individuals] facing immigration enforcement.”
Barreto Decl. ¶ 62, Pls.’ Br. at 43 (citing various
declarations speculating that the Memorandum is
likely to create fear of immigration enforcement).
Simply put, any contention or concern that the
Secretary’s compliance with the Memorandum will
somehow facilitate immigration enforcement is
contrary to established statutory provisions
mandating strict confidentiality for census responses.
See generally 13 U.S.C. § 9 (providing that personal
information collected by the Census Bureau cannot be
used against respondents by any government agency
or court); id. § 214 (setting forth penalty for wrongful
disclosure of information). Indeed, the Census Bureau
devotes resources to educating the public about the
privacy and confidentiality of census responses
specifically to allay such fears of adverse use. See, e.g.,
Data Protection and Privacy Program, Census
Bureau, available at https://www.census.gov/about/
policies/privacy.html (last visited August 17, 2020);
Fontenot Decl. ¶ 10. Because nothing in the
Memorandum
undermines
these
statutory
protections, it is unreasonable to trace fear of
immigration enforcement to the Memorandum itself,
rather than to the messages conveyed by other actors
in Plaintiffs’ chain of causation. See, e.g., Barreto Decl.
¶ 46 (noting that immigrants “may not do the full
research to realize they can still fill out the Census
safely, because they hear the news which is connecting
the July 21 [Memorandum] to Trump’s longstanding
desire to increase deportation of undocumented
immigrants” (emphasis added)); see also supra at 4.
The presence of such independent sources
distinguishes this case from the litigation over the
placement of a citizenship question on the census

42a

form, in which both this Court and the Supreme Court
found that the placement of such a question could
predictably cause lower self-response rates among
certain communities. Dep’t of Commerce v. New York,
139 S. Ct. 2551, 2566 (2019). That case presented a
situation not found here: namely, the direct collection
of information from respondents. The Memorandum is
not itself directed at census respondents and appears,
even in Plaintiffs’ telling, to be filtered to them
through third-party intermediary sources. How those
sources interpret the Memorandum should not be
dispositive of the Memorandum’s effects. Put another
way, the alleged injuries here depend on “a chain of
causation” with multiple “discrete links, each of which
‘rest[s] on [the plaintiffs’] highly speculative fear that
governmental actors” would exercise their “discretion
in a [] way” that would adversely affect Plaintiffs. See
Dep’t of Commerce, 315 F. Supp. 3d at 787
(summarizing Clapper, 568 U.S. at 410-14, and
distinguishing citizenship question case from Clapper
partly on this basis). Such a speculative chain of
causation is insufficient to establish standing.
3.

A Favorable Ruling Would Not
Redress Plaintiffs’ Alleged
Enumeration Injuries

Finally, even if Plaintiffs could establish the
existence of a “chilling” effect traceable to the
Memorandum, they still fail to establish the last prong
of standing: namely, that the effect would be cured by
a favorable ruling from this Court. The redressability
requirement “lies at the core of the standing doctrine”
because “[a]n abstract decision without remedial
consequence seems merely advisory, an unnecessary
expenditure of judicial resources that burdens the
adversary and carries all the traditional risks of
43a

making bad law and trespassing on the provinces of
the executive and legislature.” E.M. v. New York City
Dep’t of Educ., 758 F.3d 442, 450 (2d Cir. 2014); see
also Hewitt v. Helms, 482 U.S. 755, 761 (1987). Where
a plaintiff requests prospective relief in the form of a
declaratory judgment or injunction, the plaintiff must
show that “prospective relief will remove the harm”
and the plaintiff “personally would benefit in a
tangible way from the court’s intervention.” Warth
v. Seldin, 422 U.S. 490, 505, 508 (1975). “Relief that
does not remedy the injury suffered cannot bootstrap
a plaintiff into federal court; that is the very essence
of the redressability requirement.” Steel Co., 523 U.S.
at 107.
Here, it is entirely speculative that there are
enough aliens who, while currently deterred from
participating in the census, would decide to
participate if this Court granted Plaintiffs relief.
Indeed, nothing that Plaintiffs have submitted speaks
to this issue with any particularity. The closest
Plaintiffs come to attempting this showing is Dr.
Barreto’s report discussing research studies from
2018 that endeavored to predict how the removal of a
citizenship question from the census questionnaire
would affect response rates. Barreto Decl. ¶¶ 68–69.
But, as noted above, those studies are inconsistent
with the large, and statistically rigorous, study
published in 2020 by the Census Bureau, which
showed no statistically-significant diminution of
response rates in the first instance. Abowd Decl. ¶¶
13, 17. Further, there is no reason to expect the
Memorandum, which asks nothing of respondents, to
have a significant effect on response rates—and even
less reason to expect that any people deterred from
responding to the census would change their mind if

44a

the Memorandum were enjoined, especially since the
census would conclude long before any such injunction
would become final on appeal. See supra at 4.
If anything, the declarations proffered by
Plaintiffs tend to paint the opposite picture. The
declarations repeatedly lament an alleged “macro
environment” of mistrust around immigration.
Thompson Decl. ¶¶ 19–20; see also Barreto Decl. ¶ 46.
It is hard to imagine that precluding the Secretary
from complying with a Memorandum that does not
implicate immigration enforcement or change census
operations would alter the kind of mistrust that
Plaintiffs allege to be in effect currently.
***
The Supreme Court has emphasized that
standing is not an “ingenious academic exercise in the
conceivable.” Summers v. Earth Island Institute, 555
U.S. 488, 499 (2009). Plaintiffs cannot “establish
standing simply by claiming that they experienced a
‘chilling effect’ that resulted from a governmental
policy that does not regulate, constrain, or compel any
action on their part.” Clapper, 568 U.S. at 419. Rather,
Plaintiffs can establish standing only by shouldering
the substantial burden of establishing that the Court,
in a real way, can remedy an injury Plaintiffs have
suffered as a result of some action Defendants took.
Id. Because Plaintiffs have failed to make that
showing here, their complaint should be dismissed for
lack of subject matter jurisdiction.
III.

Plaintiffs Fail to State a Claim

Even if the Court concludes that it has subjectmatter jurisdiction over Plaintiffs’ claims, Plaintiffs’
failure to adequately plead any claim serves as an

45a

independent additional basis for the Court to dismiss
these consolidated actions.
A.

Franklin Mandates Dismissal
Plaintiffs’ APA Claims

of

Plaintiffs seek APA review of both the
President’s policy directives in the Presidential
Memorandum and steps that the Secretary of
Commerce may have taken to prepare and transmit a
set of “total population numbers for each state that
exclude undocumented immigrants . . . to the
President” in accordance with the Presidential
Memorandum. See NGO Pls.’ Am. Compl. ¶¶ 237-250
(asserting APA claim against “Defendants”); Gov’t
Pls.’ Am. Compl. ¶¶ 159-163 (same). Their pleadings,
however, challenge conduct by the President that is
not subject to review under the APA and, in any event,
fail to identify any act that satisfies the “final agency
action” standard set forth in Franklin, 505 U.S. at
796-801 (applying the definition of final agency action
in 5 U.S.C. § 704 to the apportionment context); see
also State of Cal. v. Dep’t of Justice, 114 F.3d 1222,
1225 (D.C. Cir. 1997) (“No final administrative action,
no judicial review”). Accordingly, Plaintiffs’ APA
claims should be dismissed.3
First, insofar as Plaintiffs seek review of the
President’s action under the APA, the law is clear that
The Second Circuit has left open the question whether a
plaintiff’s threshold failure to identify a “final agency action”
requires dismissal under Rule 12(b)(6) or Rule 12(b)(1). Compare
Air Espana v. Brien, 165 F.3d 148, 152 (2d Cir. 1999) (“The APA
. . . requirement of finality is jurisdictional”); with Sharkey v.
Quarantillo, 541 F.3d 75, 87 (2d Cir. 2008) (suggesting that
whether the “threshold requirements” of APA review are
satisfied may be analyzed under Rule 12(b)(6) instead of
12(b)(1)).
3

46a

the APA does not provide a basis for such review. In
Franklin, for example, the Supreme Court held that
because “the APA does not expressly allow review of
the President’s actions,” such “actions are not subject
to [the APA’s] requirements.” 505 U.S. at 800; accord
Dalton, v. Specter, 511 U.S. 462, 468 (1994); Lunney v.
United States, 319 F.3d 550, 554 (2d Cir. 2003)
(recognizing that under Franklin and Dalton, “the
APA does not allow courts to review the President’s
actions”). Accordingly, Plaintiffs’ APA challenges to
the Presidential Memorandum should be dismissed
under Rule 12(b)(6).
Second, to the extent that Plaintiffs also seek
APA review of a “directive” that they believe the
Secretary of Commerce has given to “the Census
Bureau to effectuate the [Memorandum’s] policy of
excluding undocumented immigrants from the
census” as well as the report the Secretary of
Commerce is expected to submit to the President in
January 2021, see NGO Pls.’ Am. Compl. ¶ 242, that
claim fails as well because there is no final agency
action. In Franklin, the Supreme Court directly
confronted the question whether a “statutory basis
[existed] … under the APA” for judicial review of the
Secretary of Commerce’s report to the President
regarding the decennial census data under 13 U.S.C.
§ 141(b). See 505 U.S. at 796-800. The Court concluded
that the Secretary’s report to the President is “not
final and therefore not subject to [APA] review”
because it “serves more like a tentative
recommendation than a final and binding
determination.” Id. at 798. More specifically, the
Court identified two prerequisites for an agency action
to be deemed “final” for APA purposes — one, that “the
agency has completed its decisionmaking process,”

47a

and, two, that “the result of that process is one that
will directly affect the parties.” Id. at 797.
Here, both the alleged directive from the
Secretary of Commerce and his submission of a report
to the President are the acts “of a subordinate official”
preceding “the final action” to be taken the President.
See Franklin, 505 U.S. at 796-97. Neither type of
action by the Secretary of Commerce, therefore, is
“final agency action” subject to review under the APA.
See id. at 797.4
B.

The Government Plaintiffs Have
Failed to Plausibly Plead That the
Presidential Memorandum Amounts
to “Coercion” in Violation of the
Tenth Amendment

The Government Plaintiffs also have failed to
plead a viable Tenth Amendment Claim. The Tenth
Amendment “reserve[s] to the states [] or to the
people” those “powers not delegated to the [federal
government] by the Constitution” or “prohibited by it
to the states.” The Government Plaintiffs conclusorily
assert that Defendants have violated the Tenth
See also Dalton, 511 U.S. at 470 (holding the Secretary of
Defense’s implementation of the President’s decision to close a
naval yard is not a “final agency action” reviewable under the
APA); Public Citizen v. U.S. Trade Rep., 5 F.3d 549, 551-52 (D.C.
Cir. 1994) (holding that the NAFTA trade agreement negotiated
by the Trade Representative is not a “final agency action” subject
to APA review because it was up to the President to decide
whether to submit the agreement to Congress); see also FlueCured Tobacco Cooperative Stabilization Corp. v. EPA, 313 F.3d
852, 860-61 (4th Cir. 2003) (“even when agency action
significantly impacts the choices available to the final
decisionmaker, this distinction does not transfer [a] challenged
action into reviewable agency action under the APA”).
4

48a

Amendment because the Presidential Memorandum
“punishes” Plaintiffs “for refusing to assist in the
enforcement of federal immigration laws, in an
attempt to coerce plaintiffs to change their policies.”
Gov’t Pls.’ Am. Compl. ¶ 155.
Plaintiffs’ Tenth Amendment claim appears to
derive from the “anti-commandeering” doctrine
articulated by the Supreme Court. See generally New
York v. United States, 505 U.S. 144, 161 (1992)
(“Congress may not simply commandeer the
legislative processes of the States by directly
compelling them to enact and enforce a federal
regulatory program”); Printz v. United States, 521
U.S. 898, 925 (1997) (“the Federal Government may
not compel the States to implement ... federal
regulatory programs”). But nothing in the
Memorandum requires States to do anything, and this
claim should therefore be dismissed.
While Plaintiffs allege that the federal
government is attempting to coerce them to “assist the
enforcement of federal immigration laws” or to
“change their policies,” Gov’t Pls.’ Am. Compl. ¶ 155,
the Presidential Memorandum does not demand or
require any specific effort that the Government
Plaintiffs should devote toward immigration
enforcement, let alone offer any “inducement [that is]
impermissibly coercive,” Nat’l Fed’n of Indep. Bus. v.
Sebelius, 567 U.S. 519, 580 (2012). Instead, to the
extent that the Memorandum refers to immigrant
populations at all, it does so only in the context of
setting forth the President’s views on the scope of his
delegated authority under 2 U.S.C. § 2a and on
“principles of representative democracy.” 85 Fed. Reg.
at 44,679-80.

49a

Indeed, the Memorandum does not incentivize
or pressure the States to cooperate in enforcing federal
immigration law in any way. Rather, the
apportionment policy set forth in the Memorandum is
wholly divorced from immigration enforcement, and
its implementation is not conditioned on some
unspecified degree of enforcement cooperation from
the States. Even if the Plaintiff States here were to
begin cooperating with federal immigration
enforcement, the Memorandum, if implemented to its
maximal extent, would (crediting Plaintiffs’
allegations) nonetheless reduce their apportionment
population base (just as it would for States which have
rendered such cooperation). And the converse is also
true: Plaintiff States may continue not to assist in
federal immigration efforts, but the Memorandum
would operate without regard to that independent
stance.
Beyond the text of the Presidential
Memorandum, Plaintiffs also have not proffered
“sufficient factual matter” that supports a reasonable
inference about the existence of an unstated,
improper, and “coercive” purpose. Conclusory
allegations as to the Memorandum’s “coercive”
purpose are clearly not enough under Iqbal. See
Hayden v. Patterson, 594 F.3d 150, 161 (2d Cir. 2010)
(under Iqbal, “allegations that are conclusory … are
not entitled to the assumption of truth”).5
As the courts have long recognized, the Government’s stated
reason for its policy decision is entitled to a “presumption of
legitimacy.” See Nat’l Archives & Record Admin. v. Favish, 541
U.S. 157, 174 (2006) (recognizing that “a presumption of
legitimacy [is] accorded to the Government’s official conduct”);
United States v. Armstrong, 517 U.S. 456, 464687 (1996) (“in the
absence of clear evidence to the contrary, courts presume that
5

50a

Further, insofar as Plaintiffs seek to ascribe a
hidden, improper, coercive motive to the Presidential
Memorandum because, in their view, this is of a piece
with Defendants’ immigration policies writ large, this
also would not satisfy Iqbal’s plausibility
requirement. See 556 U.S. at 678 (“Where a complaint
pleads facts that are merely consistent with a
defendant’s liability, it stops short of the line between
possibility and plausibility of entitlement to relief.”)
(emphasis added and internal quotation marks
omitted). Indeed, as another court in this District
recently recognized in dismissing a Tenth
Amendment coercion claim, it is well-established that
courts “will not typically inquire into the hidden
motives” for federal legislations and policies. New
York v. Mnuchin, 408 F. Supp. 3d 399, 420 (S.D.N.Y.
2019) (internal quotation marks omitted) (dismissing
Tenth Amendment challenge to federal tax law).
Similarly, courts have routinely held that
directives and statutes do not violate the Tenth
Amendment if they do not commandeer the states.
See, e.g., City of New York v. Beretta U.S.A. Corp., 524
F.3d 384, 396–97 (2d Cir. 2008) (the “critical inquiry
with respect to the Tenth Amendment is whether the
PLCAA commandeers the states,” and holding that
“[t]he PLCAA ‘does not violate the Tenth Amendment
as it does not commandeer any branch of state
government because it imposes no affirmative duty of
any kind on any of them.’”) (quoting Connecticut v.
Physicians Health Servs. of Connecticut, Inc., 287 F.3d
110, 122 (2d Cir. 2002)). Here, the Presidential
Memorandum does not implicate the Tenth
[Government agents] have properly discharged their official
duties”).

51a

Amendment because it does not command or compel
state actors to take any action at all. Indeed, the
Government Plaintiffs’ Complaint does not allege that
state actors were compelled to take specific action or
refrain from taking specific action as a result of the
Memorandum. Therefore, the Memorandum raises no
commandeering issues, and the Court should dismiss
the Tenth Amendment claim.
C.

Plaintiffs
Have
Failed
to
Sufficiently
Allege
an
Equal
Protection Claim Under the Fifth
Amendment

Plaintiffs allege that the Presidential
Memorandum was impermissibly motivated by
discriminatory animus based on race, ethnicity, and
national origin. See Gov’t Pls. Am. Compl. ¶¶ 147- 52;
NGO Pls.’ Am. Compl. ¶¶ 208-21. To make these
claims, however, Plaintiffs rely on two faulty pleading
devices—first,
they
improperly
equate
the
Memorandum’s scrutiny of illegal aliens’ status as
“inhabitants of a state” with defining those
individuals as non-persons; and, second, they
inaccurately conflate the Memorandum’s facially
neutral distinction between lawful and unlawful
aliens with racial or ethnicity-based disparate
treatment. Shorn of these devices, Plaintiffs fail to
allege the unlawful “animus” or “racially
discriminatory intent” required to plead an equal
protection violation. See Dep’t of Homeland Security v.
Regents of Univ. of Cal., 140 S. Ct. 1891, 1915 (2020)
(“Regents”) (“To plead animus, a plaintiff must raise a
plausible inference that an ‘invidious discriminatory
purpose was a motivating factor’ in the relevant
decision.”).

52a

At the outset, and citing Dred Scott, the NGO
Plaintiffs allege that the Presidential Memorandum is
“denying the personhood of people living in the United
States.” NGO Pls.’ Am. Compl.¶ 214 (emphasis in
original). This hyperbolic claim, however, cannot be
squared with the text of the Memorandum, which
specifically explains that “[d]etermining which
persons should be considered ‘inhabitants’ for the
purpose of apportionment requires the exercise of
judgment.” 85 Fed. Reg. at 44,679 (emphasis added).
Plaintiffs’ unfounded inference of animus also fails to
acknowledge that the Memorandum treats foreign
business and tourist visitors just as it treats illegal
aliens—that is, as “persons” who should be excluded
from apportionment, id.—yet no one, including
Plaintiffs, contends the former category need be
included in apportionment. In short, the Presidential
Memorandum
expressly
acknowledges
the
“personhood” of illegal aliens, but seeks to “examine”
their status, vel non, as “inhabitants of each state.” Id.
at 44,679-80.
Further, Plaintiffs inaccurately conflate the
distinction drawn in the Presidential Memorandum
between lawful and illegal aliens with racial or
ethnicity-based
disparate
treatment.
Notwithstanding Plaintiffs’ suggestion to the
contrary, there can be no dispute that the
Memorandum is facially neutral with respect to race,
ethnicity, or national origin. To the extent that it
makes any distinction between persons, the
Presidential Memorandum is focused on the
distinction between illegal aliens and citizens and
other lawful residents. See 85 Fed. Reg. at 44,680. As
the Supreme Court and the Second Circuit have both
recognized, relying on this distinction does not require

53a

heightened scrutiny for equal protection purposes
because non-citizens—much less illegal aliens—do not
constitute a protected class. See, e.g., Mathews v. Diaz,
426 U.S. 67 (1976) (limitation on eligibility for a
federal medical insurance program to citizens and
long-term permanent residents did not violate Equal
Protection Clause); Lewis v. Thompson, 252 F.3d 567,
583-84 (2d Cir. 2001) (upholding Welfare Reform Act’s
denial of prenatal care coverage to unqualified
noncitizens against Equal Protection challenge).
Without the benefits of these two artifices,
Plaintiffs are left with only conclusory allegations of
animus, see Gov’t Pls.’ Am. Compl. ¶ 149; NGO Pls.’
Am. Compl. ¶ 215, which are not sufficient to state an
equal protection claim. Specifically, insofar as
Plaintiffs rest their claim on a supposedly
“disproportionate burden on Hispanics and immigrant
communities of color,” Gov’t Pls.’ Am. Compl. ¶ 150,
this argument is foreclosed by the Supreme Court’s
recent Regents decision. As the Court recognized
there, if the fact that an immigration policy would
have “an outsized” impact on “Latinos” “because [they]
make up a large share of the unauthorized alien
population” by itself “were sufficient to a state a
claim,” then “‘virtually any generally applicable
immigration policy could be challenged on equal
protection grounds.” Regents, 140 S. Ct. at 1916.
Instead, as Regents concluded, an allegation of
disproportionate burden on a specific racial or ethnic
group is, in this context, inadequate to “establish[] a
plausible equal protection claim.” Id. at 1915.
Further, to the extent that Plaintiffs seek to
base their equal protection claim on a purported link
to the Commerce Secretary’s decision to add a
citizenship question to the 2020 Census, see Gov’t Pls.’
54a

Am. Compl. ¶¶ 98, 150; NGO Pls.’ Am. Compl. ¶ 132,
the claim is implausible because these two actions
involve separate decisions made by different
decisionmakers that are distinct in terms of timing
and implementation. In any event, Plaintiffs cannot
bootstrap their equal protection claim here to the
earlier decision because they “failed to prove, by a
preponderance of the evidence, that a discriminatory
purpose motivated Defendants’ decision to reinstate
the citizenship question on the 2020 census
questionnaire.”6 New York, 351 F. Supp. 3d at 671; see
also Kravitz v. Dep’t of Commerce, 366 F. Supp. 3d 681,
712 (D. Md. 2019).7
Finally, Plaintiffs cite a number of alleged
statements by the President and other individuals.
Merely alleging that the Presidential Memorandum is a
continuation of the attempt to add a citizenship question is
insufficient to plausibly assert discriminatory intent. Indeed,
Plaintiffs’ allegations on this score are circular—they want to
rely on the earlier decision to bolster their claim of animus here,
without acknowledging their own failure to prove animus as to
the earlier decision. Further, Plaintiffs have not identified any
basis for imputing the motivation of the earlier decision by
Secretary Ross to the President’s decision-making here—even
though that is a flaw the Court specifically identified in the
earlier proceeding. See New York, 351 F. Supp. 3d at 670
(“Plaintiffs failed to prove a sufficient nexus between President
Trump and Secretary Ross’s decision to make the President’s
statements or policies relevant to the equal protection analysis.”).
6

In a decision that later became moot, a district court in the
citizenship-question context concluded that “newly discovered
evidence” raised a “substantial issue” because it suggested “that
Dr. Hofeller was motivated to recommend the addition of a
citizenship question to the 2020 Census to advantage
Republicans by diminishing Hispanics’ political power.” Kravitz
v. Dept’ of Commerce, No. 18-cv-1041 (D. Md. June 3, 2019), ECF
No. 162-1 at 1.
7

55a

See NGO Pls.’ Am. Compl. ¶¶ 130-31, 138-39 (citing
statements by Richard Hofeller, Kris Kobach, and
Matt Schlapp). At the outset, because the President is
the only decision-maker with respect to issuance of the
Presidential Memorandum, statements of other
individuals are immaterial. See Regents, 140 S. Ct. at
1916 (statements by non-decisionmakers “remote in
time and made in unrelated contexts” are
“unilluminating”). Moreover, to the extent that
Plaintiffs discuss the President’s statements, see, e.g.,
Gov’t Pls.’ Am. Compl. ¶¶ 114-15; NGO Pls.’ Am.
Compl. ¶ 141, they fail to draw any specific link
between those statements and the specific policy
announced in the Presidential Memorandum. Thus,
they cannot plausibly serve as evidence for his
subjective motivations in issuing that discrete policy.
The face of the Presidential Memorandum
plainly states that the policy’s purpose was to promote
“the principles of representative democracy
underpinning our system of Government.” 85 Fed.
Reg. at 44,630. Plaintiffs have failed to plausibly
allege that, notwithstanding this permissible purpose,
it was merely a pretext for a “real reason” to
discriminate against Hispanics, St Mary’s Honor Ctr.
v. Hicks, 509 U.S. 502, 515 (1993), or that it was
motivated by such animus, Pers. Admin. of Mass. v.
Feeney, 442 U.S. 256, 279 (1979). Accordingly, the
Equal Protection claim should be dismissed.
D.

Plaintiffs Have Failed to State an
Apportionment Clause Claim

The operative Apportionment Clause mandates
that Representatives shall be “apportioned among the
several States according to their respective numbers,
counting the whole number of persons in each State,

56a

excluding Indians not taxed.” U.S. Const. amend. XIV,
§ 2. But, after accounting for the express exclusion of
“Indians not taxed,” neither this Clause nor its
predecessor in Article I was ever understood to
mandate the inclusion of every person present within
the boundaries of each State at the time of the census.
See id. art. I, § 2, cl. 3. To the contrary, from the time
of the Founding through the ratification of the
Fourteenth Amendment and continuing to the present
day, the Apportionment Clause has been understood
to require counting “inhabitants.” In other words, only
usual residents—those with a fixed and enduring tie
to a State, as recognized by the Executive— need be
deemed “persons in [that] State,” id. amend. XIV, § 2
(emphasis added). And because the word
“inhabitants” is sufficiently indeterminate, the
Supreme Court has recognized that the term confers
significant discretion on the Executive to make legal
determinations about the “usual residence” of an
individual without treating his physical presence in a
particular jurisdiction (or lack thereof) as dispositive.
See Franklin, 505 U.S. at 804-06.
This well-established framework plainly
forecloses Plaintiffs’ facial challenge to the
Presidential Memorandum. For Plaintiffs to succeed,
they must establish that the Constitution requires
including all illegal aliens in the apportionment base.
But that is obviously incorrect. To give just one
example, nothing in the Constitution requires that
illegal aliens residing in a detention facility after
being arrested while crossing the border must be
accounted for in the allocation of Representatives (and
hence political power). This is fatal to Plaintiffs’
Motion.

57a

1.

Only “Inhabitants” Who Have
Their “Usual Residence” in a
State Need Be Included in the
Apportionment.

As the Supreme Court has explained, “‘[u]sual
residence,’ was the gloss given the constitutional
phrase ‘in each State’ by the first enumeration Act [of
1790] and has been used by the Census Bureau ever
since to allocate persons to their home States.”
Franklin, 505 U.S. at 804. The Act also uses “other
words [ ] to describe the required tie to the State:
‘usual place of abode,’ [and] ‘inhabitant[.]’” Id. at 80405. These terms “can mean more than mere physical
presence, and [have] been used broadly enough to
include some element of allegiance or enduring tie to
a place.” Id.
The
settled
understanding
that
only
“inhabitants” who have their “usual residence” in the
country must be counted stems from the drafting
history of the Apportionment Clause. In the draft
Constitution submitted to the Committee of Style, the
Apportionment Clause required “the Legislature [to]
regulate the number of representatives by the number
of inhabitants.” 2 The Records of the Federal
Convention of 1787, at 566, 571 (Max Farrand ed., rev.
ed. 1966) (emphasis added). The Committee of Style
changed
the
language
to
provide
that
“Representatives and direct Taxes shall be
apportioned among the several States which may be
included within this Union, according to their
respective Numbers, which shall be determined by
adding to the whole Number of free Persons, including
those bound to Service for a Term of Years, and
excluding Indians not taxed, three fifths of all other
Persons.” U.S. Const. art. I, § 2, cl. 3. But “the
58a

Committee of Style ‘had no authority from the
Convention to alter the meaning’ of the draft
Constitution,” Utah v. Evans, 536 U.S. 452, 475
(2002), and the Supreme Court has thus found it
“abundantly clear” that, under the original Clause,
apportionment “should be determined solely by the
number of the State’s inhabitants,” Wesberry v.
Sanders, 376 U.S. 1, 13 (1964); see also Franklin, 505
U.S. at 804-05 (observing that “the first draft” of the
Apportionment Clause “used the word ‘inhabitant,’
which was omitted by the Committee of Style in the
final provision”).
Historical sources confirm this reading. In The
Federalist, James Madison repeatedly explained that
apportionment under the new Constitution would be
based on a jurisdiction’s “inhabitants.” See The
Federalist No. 54, at 369 (Jacob E. Cooke ed., 1961)
(observing that “the aggregate number of
representatives allotted to the several States[] is to be
determined by a federal rule founded on the aggregate
number of inhabitants”); The Federalist No. 56, at 383
(noting that the Constitution guarantees “a
representative
for
every
thirty
thousand
inhabitants”); The Federalist No. 58, at 391 (noting
that the Constitution mandates a “readjust[ment]
from time to time [of] the apportionment of
representatives to the number of inhabitants”); see
also Evenwel v. Abbott, 136 S. Ct. 1120, 1127 (2016)
(“[T]he basis of representation in the House was to
include all inhabitants” (emphasis omitted)).
Similarly, as the Supreme Court recognized, the first
enumeration Act of 1790—titled “an act providing for
the enumeration of the inhabitants of the United
States”—directed “the marshals of the several
districts of the United States” to count “the number of

59a

the inhabitants within their respective districts.” Act
of Mar. 1, 1790, § 1, 1 Stat. 101, 101; see Franklin, 505
U.S. at 803-05 (relying on the Census Act of 1790 to
apply the Apportionment Clause).
This understanding of “usual residence” and
“inhabitant” was enshrined in the constitutional text
and incorporated by historical practice when the
Fourteenth Amendment’s Apportionment Clause was
ratified almost 80 years later. According to
Representative Roscoe Conkling, a member of the
committee that drafted the Fourteenth Amendment,
the operative Apportionment Clause’s streamlined
language—requiring apportionment based on “the
whole number of persons in each State”—was meant
to fully include former slaves in the apportionment
base and otherwise “adhere[] to the Constitution as it
is.” Cong. Globe, 39th Cong., 1st. Sess. 359 (1866). The
Amendment’s text confirms that understanding: it
underscores that a person who possesses sufficient
ties to a State will be included by specifying that “the
persons in each State” must be counted, U.S. Const.
amend. XIV, § 2 (emphasis added)—a phrase that the
Supreme Court later explained to be equivalent to the
term “inhabitant.” Franklin, 505 U.S. at 804-05.
Indeed, the very next sentence of section 2 of the
Fourteenth Amendment equates “persons in each
State” with “inhabitants” by penalizing in the
apportionment any State that denies the right to vote
to the “male inhabitants of such State” who would
otherwise be eligible to vote (principally by reason of
citizenship and age). Id. Unsurprisingly, the first
census after ratification of the Fourteenth
Amendment was conducted in accordance with the
same procedures that had been used for the 1850
census, see Act of May 6, 1870, ch. 87, § 1, 16 Stat. 118,

60a

118, which, in turn had required “all [States’]
inhabitants to be enumerated,” Act of May 23, 1850,
ch. 11, § 1, 9 Stat. 428, 428; see also Franklin, 505 U.S.
at 804 (“‘Usual residence,’ was the gloss given the
constitutional phrase ‘in each State’ by the first
enumeration Act [of 1790] and has been used by the
Census Bureau ever since to allocate persons to their
home States.”).
Reading the Apportionment Clause to
contemplate apportionment of Representatives based
on “inhabitants” (or “usual residents”) also helps
explain the historical exclusion of certain people from
the apportionment base. For example, transient
aliens, such as those temporarily residing here for
vacation or business, are not included in the
apportionment base. See, e.g., Final 2020 Census
Residence Criteria and Residence Situations, 83 Fed.
Reg. 5,526, 5,533 (2018) (Residence Criteria); Dennis
L. Murphy, Note, The Exclusion of Illegal Aliens from
the Reapportionment Base: A Question of
Representation, 41 CASE W. RES. L. REV. 969, 980
(1991). That makes sense, as such aliens were not
considered “usual residents” or “inhabitants” either at
the Founding or the ratification of the Fourteenth
Amendment. As contemporaneous sources using the
term make clear, to qualify as an “inhabitant,” one
had to, at a minimum, establish a fixed residence
within a jurisdiction and intend to remain there. See,
e.g., Bas v. Steele, 2 F. Cas. 988, 993 (Washington,
Circuit Justice, C.C.D. Pa. 1818) (No. 1088)
(concluding that a Spanish subject who had remained
in Philadelphia as a merchant for four months before
seeking to leave, “was not an inhabitant of this
country, as no person is an inhabitant of a place, but

61a

one who acquires a domicil there”).8
Likewise, foreign diplomats stationed overseas
arguably remained “inhabitants” of their native
countries rather than of their diplomatic posts. See
Franklin, 505 U.S. at 805 (confirming that American
diplomat stationed overseas could still qualify as an
“inhabitant” who is “in” his home State for purposes of
See also, e.g, Hylton v. Brown, 12 F. Cas. 1123, 1129
(Washington, Circuit Justice, C.C.D. Pa. 1806) (No. 6,981)
(charging jury while riding circuit that a particular individual
“was no more an inhabitant of this state than I am, who spend
one-third of each year in this city; or any other person, who comes
here to transact a certain piece of business, and then returns to
his family”); Toland v. Sprague, 23 F. Cas. 1353, 1355 (C.C.E.D.
Pa. 1834) (No. 14,076) (distinguishing an “inhabitant” from a
“transient passenger”); United States v. Laverty, 26 F. Cas. 875,
877 (D. La. 1812) (No. 15,569A) (“An inhabitant is one whose
domicile is here, and settled here, with an intention to become a
citizen of the country.”); United States v. The Penelope, 27 F. Cas.
486, 489 (D. Pa. 1806) (No. 16,204) (“[T]he following has always
been my definition of the words ‘resident,’ or ‘inhabitant,’ which,
in my view, mean the same thing. ‘An inhabitant, or resident, is
a person coming into a place with an intention to establish his
domicil, or permanent residence; and in consequence actually
resides … .’”); 41 Annals of Cong. 1595 (1824) (referring to “the
common acceptation” of “inhabitant” as “the persons whose
abode, living, ordinary habitation, or home” is within a particular
jurisdiction); Thomas Dyche & William Pardon, A New General
English Dictionary (16th ed. 1781) (“a person that resides or
ordinarily dwells in a place or home”); 1 & 2 Samuel Johnson, A
Dictionary of the English Language s. v. abode, inhabitant,
reside, residence, resident (6th ed. 1785) (a “[d]weller,” or one
who “lives or resides” in a place, with the terms “reside,”
“residence,” and “resident” defined with reference to an “abode”—
i.e., a “continuance in a place”); Noah Webster, American
Dictionary of the English Language (1828) (defining “inhabitant”
as a “dweller; one who dwells or resides permanently in a place,
or who has a fixed residence, as distinguished from an occasional
lodger or visitor”).
8

62a

“the related context of congressional residence
qualifications”); Emer de Vattel, The Law of Nations,
ch. 19, § 213 (1817) (explaining that diplomats could
not qualify as “inhabitants” because “the envoy of a
foreign prince has not his settlement at the court
where he resides”). And unsurprisingly, foreign
diplomatic personnel living on embassy grounds have
previously been excluded from the apportionment
base. Murphy, supra, at 980.
Tourists and diplomats may be “persons”
within a State’s boundaries at the time of the
Enumeration, but no one seriously contends that they
must be included in the apportionment base under the
Constitution. Physical location does not, in short,
necessarily dictate whether one is an “inhabitant” (or
“usual resident”) of a particular jurisdiction.
2.

The Executive Has Significant
Discretion to Define Who
Qualifies as an “Inhabitant.”

Crucially, the term “inhabitant”—and the
concept of “usual residence”—is sufficiently
ambiguous to give Congress, and by delegation the
Executive, significant discretion to define the contours
of “inhabitants” for apportionment purposes. That
discretion is rooted in the Constitution. Article I
provides that apportionment numbers are determined
by an “actual Enumeration” performed every 10 years
“in such Manner as” Congress “shall by Law direct.”
U.S. Const. art. I, § 2, cl. 3; see also id. amend. XIV, §
5 (giving Congress the power to “enforce, by
appropriate legislation, the provisions of” the
Fourteenth Amendment, including the operative
Apportionment Clause). This “text vests Congress
with virtually unlimited discretion in conducting the

63a

‘actual Enumeration,’ [and] … [t]hrough the Census
Act, Congress has delegated its broad authority over
the census to the Secretary.” Wisconsin v. City of New
York, 517 U.S. 1, 19 (1996) (citations omitted). But the
Secretary is not the final word on apportionment, and
indeed is not the one responsible for determining the
apportionment base. Instead, by statute, the
Secretary must report census numbers to the
President. See 13 U.S.C. § 141(b). And it is the
President, then, who “transmit[s] to the Congress a
statement showing the whole number of persons in
each State, excluding Indians not taxed, as
ascertained under the seventeenth and each
subsequent decennial census of the population, and
the number of Representatives to which each State
would be entitled under an apportionment of the then
existing number of Representatives.” 2 U.S.C. § 2a(a).
In doing so, the President has full “authority to direct
the Secretary in making policy judgments that result
in ‘the decennial census’; he is not expressly required
to adhere to the policy decisions reflected in the
Secretary’s report.” Franklin, 505 U.S. at 799. So “the
Secretary cannot act alone; she must send her results
to the President, who makes the calculations and
sends the final apportionment to Congress.” Id. at 800.
That “final act” by the President is “not merely
ceremonial or ministerial,” but remains “important to
the integrity of the process.” Id. Indeed, it is “the
President’s personal transmittal of the report to
Congress” that “settles the apportionment” of
Representatives among the States. Id. at 799.
Of course, the Executive’s decisions in this area
must be “consonant with … the text and history of the
Constitution,” Franklin, 505 U.S. at 806, but the term
“inhabitants”—and the concept of “usual residence”—

64a

are sufficiently indeterminate to give him significant
discretion within constitutional bounds. See id. at 80406 (discussing how the notion of “usual residence” has
been applied differently over time). Indeed, Madison
himself acknowledged that the word “inhabitant” was
“vague” in discussing the House Qualifications
Clause. 2 The Records of the Federal Convention of
1787, at 216-17; cf. Franklin, 505 U.S. at 805 (in the
course of applying the Apportionment Clause,
drawing on Madison’s interpretation of the “term
‘inhabitant’” in “the related context of congressional
residence qualifications”). As noted, historical
evidence confirms that the term “inhabitant” was
understood to require, at a minimum, a fixed
residence within a jurisdiction and intent to remain
there. See supra at 30 n.8. Moreover, Founding-era
sources also reflect that, especially with respect to
aliens, the term could be understood to further require
a sovereign’s permission to enter and remain within a
given jurisdiction. See, e.g., The Venus, 12 U.S. (8
Cranch.) 253, 289 (1814) (Marshall, C.J., concurring
in part and dissenting in part) (quoting Vattel for the
proposition that “inhabitants, as distinguished from
citizens, are strangers who are permitted to settle and
stay in the country” (emphasis added)); The Federalist
No. 42, at 285 (Madison) (discussing provision of the
Articles of Confederation that required every State “to
confer the rights of citizenship in other States … upon
any whom it may allow to become inhabitants within
its jurisdiction” (emphasis added)).
Accordingly, the Executive has wide discretion
to make legal determinations about who does and does
not qualify as an “inhabitant” for purposes of inclusion
in or exclusion from the apportionment base. In
Franklin, for example, the Supreme Court held that

65a

the Executive Branch could allocate over 900,000
military personnel living overseas to their home
States on the basis of the Secretary’s judgment that
such people “had retained their ties to the States.” 505
U.S. at 806. That allocation “altered the relative state
populations enough to shift a Representative from
Massachusetts to Washington”—and had not been
used “until 1970,” save for a “one-time exception in
1900.” Id. at 791-93. Nevertheless, as the Court
explained, even though the recent approach was “not
dictated by” the Constitution, it was “consonant with
[its] text and history” and thus a permissible
“judgment” within the Executive Branch’s discretion,
even where Congress had not expressly authorized
this practice. Id. at 806. In the course of reaching this
judgment, the Court also listed a number of other
legal determinations of usual residency that the
Executive Branch has permissibly chosen to use over
the years—including determinations the Census
Bureau has since abandoned. For example, “up until
1950, college students were counted as belonging to
the State where their parents resided, not to the State
where they attended school,” and at the time the case
was
decided,
“[t]hose
persons
who
are
institutionalized in out-of-state hospitals or jails for
short terms [were] also counted in their home States.”
Id. Under the current Residence Criteria, however,
college students who live at school during the
academic year and prisoners housed in out-of-state
jails, even for the short term, are counted in the State
in which those institutions are located. Residence
Criteria, 83 Fed. Reg. at 5,534, 5,535.
Plaintiffs have never challenged the Residence
Criteria in court. To the contrary, they intervened to
defend it against challenge in another case. See

66a

Alabama v. Dep’t of Commerce, No. 18-cv- 772 (N.D.
Ala.), Mot. to Intervene, ECF No. 97 at 15 (Aug. 12,
2019). Plaintiffs’ ongoing defense of the Residence
Criteria suggests that not even they dispute that the
Executive has discretion to define “inhabitant” and to
determine who meets its strictures. See Franklin, 505
U.S. 804-06. Nor can they, given constitutional text,
history, and Supreme Court precedent. The
Presidential Memorandum is no different insofar as it
reflects the Executive Branch’s discretionary decision
to direct the Secretary in making policy judgments
that result in the decennial census. Franklin, 505 U.S.
at 799.
3.

The Apportionment Clause
Does Not Require Inclusion of
All
Illegal
Aliens
as
“Inhabitants” Having a “Usual
Residence” in a State.

Plaintiffs maintain that the Presidential
Memorandum facially violates the Apportionment
Clause because all illegal aliens necessarily qualify as
“persons in each State,” and because the
Memorandum contemplates the exclusion of such
aliens—in some as-yet unknown number—for
apportionment purposes. Put differently, Plaintiffs
posit that the Constitution prohibits the exclusion of
any illegal alien from the apportionment base, and
that the Memorandum’s announcement of that
possibility violates the Apportionment Clause. But
none of the constitutional constraints on the
Executive’s discretion to define the contours of
“inhabitants” or “usual residence” require including
all illegal aliens in the apportionment.

67a

For example, if the Census Bureau finds it
feasible to identify unlawfully present aliens who
resided in a Customs and Border Patrol (CBP) or
Immigration and Customs Enforcement (ICE) facility
within a State on census day after being arrested
while illegally entering the country, it would be
permissible to exclude them. Such individuals—like
alien tourists who happen to be staying in the country
for a brief period on and around census day—cannot
reasonably be said to have established “the required
tie to [a] State,” Franklin, 505 U.S. 804, or to be
“inhabitants” under any definition of that term.9
Likewise, if feasibly identified, the Executive
may exclude aliens who have been detained for illegal
entry and paroled into the country pending removal
proceedings, or who are subject to final orders of
removal.10 Such aliens do not have enduring ties to
These populations may be significant. During fiscal year 2019,
ICE held in custody an average daily population of 50,165 aliens.
U.S. ICE ERO, U.S. Immigration and Customs Enforcement
Fiscal Year 2019 Enforcement and Removal Operations Report,
at 5 (2019) (ICE ERO Report), https://www.ice.gov/sites/default/
files/documents/Document/2019/eroReportFY2019.pdf. And on
any given day in the summer of 2019, CBP held in custody
between 8,000 and 12,000 detainees. U.S. Customs and Border
Protection – Border Patrol Oversight: Hearing Before the H.
Subcomm. on Homeland Security of the Comm. on
Appropriations, 116th Cong. (2019) (testimony of Carla L.
Provost, Chief, U.S. Border Patrol), https://docs.house.gov/
meetings/AP/AP15/20190724/109834/HHRG-116- AP15-WstateProvostC-20190724.pdf.
9

ICE’s non-detained docket surpassed 3.2 million cases in fiscal
year 2019, a population large enough to fill more than four
congressional districts under the 2010 apportionment. ICE ERO
Report at 10; Kristin D. Burnett, Congressional Apportionment,
U.S. Census Bureau (Nov. 2011), https://www.census.gov/
10

68a

any State sufficient to become “inhabitants” with their
“usual residence” in the United States. The
government has either allowed them into the country
solely conditionally while it is deciding whether they
should be removed, or has conclusively determined
that they must be removed from the country. In
Kaplan v. Tod, 267 U.S. 228 (1925), for instance, the
Supreme Court addressed the case of an alien minor
who had been denied entry at Ellis Island in 1914 but
could not be returned to Russia during the First World
War and was therefore paroled into the country to live
with her father in 1915. When the case reached the
Supreme Court almost ten years later in 1925, it
turned entirely on the question whether the alien
minor had been “dwelling in the United States” or had
“begun to reside permanently” in the United States for
purposes of federal immigration statutes, which would
have conferred derivative citizenship on her upon her
father’s naturalization in 1920. Id. at 230. The Court
held that, during her parole, she “never has been
dwelling within the United States” and “[s]till more
clearly she never has begun to reside permanently in
the United States.” Id. As the Court explained, she
“could not lawfully have landed in the United States”
because she fell within an inadmissible category of
aliens, and “until she legally landed [she] ‘could not
have dwelt within the United States.’” Id. (quoting
Zartarian v. Billings, 204 U.S. 170, 175 (1907)). In the
Court’s view, she was in “the same” position as an
alien “held at Ellis Island for deportation.” Id. at 230;
prod/cen2010/briefs/c2010br-08.pdf. The non-detained docket
includes aliens who are both pre- and post-final order of removal,
and who have been released on parole, bond, an order of
recognizance, an order of supervision, or who are in process for
repatriation. ICE ERO Report at 10.

69a

see also, e.g., Leng May Ma v. Barber, 357 U.S. 185,
190 (1958) (holding that parole cannot affect an alien’s
status and does not place an alien “legally ‘within the
United States’”). Indeed, the Supreme Court recently
reaffirmed that “aliens who arrive at ports of entry—
even those paroled elsewhere in the country for years
pending removal—are ‘treated’ for due process
purposes ‘as if stopped at the border,’” and that the
same principle applies to those detained “shortly after
unlawful entry.” DHS v. Thuraissigiam, 140 S. Ct.
1959, 1982 (2020).
Plaintiffs emphasize that Framers of both the
original Apportionment Clause and the Fourteenth
Amendment intended to include aliens in the
apportionment base. Dkt. 77, at 16; see id. at 13-17.
But Plaintiffs’ historical evidence about the treatment
of aliens does not and cannot resolve the distinct
question whether illegal aliens must be included—for
the simple reason that there were no federal laws
restricting immigration (and hence no illegal aliens)
until 1875. See Kleindienst v. Mandel, 408 U.S. 753,
761 (1972). And Plaintiffs provide no evidence to
support the proposition that by employing the
concepts of “inhabitants” and “usual residence,” the
Framers of either the original Constitution or
Fourteenth Amendment were understood to have
bound future generations to allocate political power on
the basis of aliens living in the country in violation of
federal law. To the contrary, as the Supreme Court
has explained, the Framers understood the
“fundamental proposition[]” that the “power to admit
or exclude aliens is a sovereign prerogative.”

70a

Thuraissigiam, slip op. at 35.11 This “ancient
principle[] of the international law of nation-states” is
necessary to the sovereign’s rights to define the polity
(“the people”) that make up the nation and to preserve
itself, as both the Supreme Court and 19th-century
international law scholars recognized.12 It is
See also, e.g., Landon v. Plasencia, 459 U.S. 21, 32 (1982); Chae
Chan Ping v. United States, 130 U.S. 581, 604 (1889); Fong Yue
Ting v. United States, 149 U.S. 698, 711 (1893).
11

Kleindienst v. Mandel, 408 U.S. 753, 765 (1972); see, e.g.,
Nishimura Ekiu v. United States, 142 U.S. 651, 659 (1892) (“It is
an accepted maxim of international law, that every sovereign
nation has the power, as inherent in sovereignty, and essential
to self- preservation, to forbid the entrance of foreigners within
its dominions, or to admit them only in such cases and upon such
conditions as it may see fit to prescribe.”) (citing Vattel and
Phillimore); Vattel, The Law of Nations, bk. 2, §§ 94, 100
(explaining that the sovereign’s authority to “forbid the entrance
of his territory either to foreigners in general, or in particular
cases,” “flow[ed] from the rights of domain and sovereignty”); 1
Robert Phillimore, Commentaries Upon International Law, ch.
10, § CCXIX (1854) (similar); see also, e.g., Bernal v. Fainter, 467
U.S. 216, 221 (1984) (“The exclusion of aliens from basic
governmental processes is not a deficiency in the democratic
system but a necessary consequence of the community’s process
of political self- definition. Self-government, whether direct or
through representatives, begins by defining the scope of the
community of the governed and thus of the governors as well:
Aliens are by definition those outside of this community.”); Chae
Chan Ping, 130 U.S. at 603–04 (recognizing that a sovereign’s
power to “exclude aliens from its territory” is “an incident of every
independent nation” and is “part of its independence,” and “[i]f it
could not exclude aliens it would be to that extent subject to the
control of another power”); The Schooner Exchange v. McFaddon,
11 U.S. (7 Cranch) 116, 136 (1812) (Marshall, C.J.) (“The
jurisdiction of the nation within its own territory is necessarily
exclusive and absolute. It is susceptible of no limitation not
imposed by itself. Any restriction upon it, deriving validity from
an external source, would imply a diminution of its sovereignty
to the extent of the restriction, and an investment of that
12

71a

fundamentally antithetical to those elementary
principles to say, as Plaintiffs do, that illegal aliens
can arrogate to themselves the right to redistribute
“political power” within this polity by flouting the
sovereign power of the United States to define who can
enter and become part of the polity. Pls.’ Br. 10, 41,
51. Rejecting Plaintiffs’ approach is certainly
“consonant with” with the terms and history of the
Fourteenth Amendment. Franklin, 505 U.S. at 806.
If anything, the debates over the Fourteenth
Amendment on which Plaintiffs rely indicate that the
rationale the Framers offered for including aliens in
the apportionment base do not apply to illegal aliens.
Specifically, various legislators made clear that
unnaturalized aliens should be included in the
apportionment base precisely because the law
provided them with a direct pathway to citizenship—
mainly, an oath of loyalty and five years of residence
in the United States, see Act of Apr. 14, 1802, 2 Stat.
153. As Representative Conkling pointed out, “[t]he
political disability of aliens was not for this purpose
counted against them, because it was certain to be
temporary, and they were admitted at once into the
basis of apportionment.” Cong. Globe, 39th Cong., 1st
Sess., at 356 (1866) (emphasis added); see also, e.g., id.
at 3035 (Senator Henderson explaining that “[t]he
road to the ballot is open to the foreigner; it is not
permanently barred”). Indeed, the five-year residency
requirement meant that aliens could “acquire [the
vote] in the current decade”—and thus unnaturalized
aliens could be voting citizens before the next
apportionment. Id. at 354 (Representative Kelley).
And even an opponent of the inclusion of aliens in the
sovereignty to the same extent in that power which could impose
such restriction.”).

72a

apportionment agreed that unnaturalized aliens were
on “a short period of probation—five years; and in
most of the states the great body of them are promptly
admitted to citizenship.” Id. at 2987 (Sen. Sherman).
That rationale plainly does not extend to illegal aliens,
who generally are prohibited by law from becoming
citizens and are subject to removal. 8 U.S.C. §§
1182(a)(9), 1227(a), 1255(a) & (c), 1427(a).
Plaintiffs are also wrong in arguing that Plyler
v. Doe, 457 U.S. 202 (1982), requires the inclusion of
illegal aliens in the apportionment base. Dkt 77, at 12.
Plyler held only that illegal aliens are “persons within
the jurisdiction” of a State for purposes of the Equal
Protection Clause, 457 U.S. at 210, which is inapposite
here. In contrast to the Apportionment Clause, the
Equal Protection Clause has never been understood to
be limited to “inhabitants” or “usual residents” of a
State. That is why no one seriously contends that alien
tourists visiting the United States should be included
in the apportionment base, even though they are
undoubtedly “persons” protected by the Equal
Protection Clause. See also Mathews v. Diaz, 426 U.S.
67, 78 (1976) (“The fact that all persons, aliens and
citizens alike, are protected by the Due Process Clause
does not lead to the further conclusion that all aliens
are entitled to enjoy all the advantages of citizenship
or, indeed, to the conclusion that all aliens must be
placed in a single homogeneous legal classification.”).
Indeed, Plaintiffs’ reading of Plyler—that all
illegal aliens must be included in the apportionment—
is at odds with history and precedent. Likewise,
Plaintiffs’ reliance on a redistricting decision, Evenwel
v. Abbott, for the proposition that “the basis of
representation in the House was to include all
inhabitants,” 136 S. Ct. 1120, 1127 (2016); Pls.’ Br. 14,
73a

does not dispose of this case as Plaintiffs contend, but
rather begs the central question here as to the limits
on how “inhabitant” may be defined. Nothing in the
terms “inhabitants” or “usual residence” suggests that
this concept covers all illegal aliens. Rather, as noted
above, the Supreme Court has observed that the term
“‘[u]sual residence’ … has been used broadly enough
to include some element of allegiance or enduring tie
to a place.” Franklin 505 U.S. at 804. In addition, the
Founding generation was aware that the term
“inhabitant” could be understood to require that an
alien be given permission to settle and stay in a
jurisdiction according to the definition provided by
Vattel, whom the Supreme Court has extolled as the
“founding era’s foremost expert on the law of nations.”
Franchise Tax Board v. Hyatt, 139 S. Ct. 1485, 1493
(2019); see 1 Vattel, The Law of Nations ch. 19, § 213
(defining “inhabitants, as distinguished from
citizens,” as “foreigners, who are permitted to settle
and stay in the country”).13 And in Kaplan, the
Supreme Court held that an alien who had not
effected a lawful entry into the country could not be
characterized as “dwelling” in the country under the
latest version of a naturalization law dating from 1790
that had conditioned derivative citizenship for certain
aliens on their “dwelling” in the United States—a
concept linked with “inhabitants” since the Founding
Era. 267 U.S. at 230; see Act of Mar. 26, 1790, § 1, 1
As the Supreme Court has observed: “The international jurist
most widely cited in the first 50 years after the Revolution was
Emmerich de Vattel. In 1775, Benjamin Franklin acknowledged
receipt of three copies of a new edition, in French, of Vattel’s Law
of Nations and remarked that the book ‘has been continually in
the hands of the members of our Congress now sitting.’” U.S.
Steel Corp. v. Multistate Tax Comm’n, 434 U.S. 452, 463 n.12
(1978) (ellipsis and citations omitted omitted).
13

74a

Stat. 103, 104. Illegal aliens, however, are necessarily
limited in claiming that they have “enduring ties” to,
or are “dwelling” in, this country, because as a matter
of law they may be removed from the country at any
time. See also Gonzalez v. Holder, 771 F.3d 238, 245
(5th Cir. 2014) (applying Kaplan to an alien who
“entered the United States at the age of seven, albeit
illegally, and … remained in the country” for 16
years); U.S. ex rel. De Rienzo v. Rodgers, 185 F. 334,
338 (3d Cir. 1911) (explaining that an alien “cannot
begin” to “reside permanently” in the United States “if
he belongs to a class of aliens debarred from entry into
the country by the act to regulate the immigration of
aliens into the United States”).
Ultimately, however, it is neither necessary nor
appropriate for this Court to resolve whether any
particular category of illegal aliens must be deemed
“inhabitants” for purposes of the apportionment. In
order to prevail on this facial challenge to the
Presidential Memorandum, Plaintiffs must establish
that there is no category of illegal aliens that may be
lawfully excluded from the apportionment. See, e.g.,
Deshawn E v. Safir, 156 F.3d 340, 347 (2d Cir. 1998)
(“A facial challenge will only succeed if there is no set
of circumstances under which the challenged practices
would be constitutional.”). Plaintiffs have not, and
indeed cannot, make that showing. Rather than facing
that question, Plaintiffs divert attention by asking the
Court to decide a much different question—and more
than is necessary to resolve this case—by seeking a
holding that the Apportionment Clause would
prohibit the exclusion of all categories of aliens. That
question is not properly presented here. The
Presidential Memorandum states that it will be the
policy of the United States “to exclude from the

75a

apportionment base aliens who are not in a lawful
immigration status under the Immigration and
Nationality Act, as amended (8 U.S.C. 1101 et seq.), to
the maximum extent feasible and consistent with the
discretion delegated to the executive branch.” 85 Fed.
Reg. at 44,679 (emphasis added). And Plaintiffs have
rushed to Court before the Census Bureau has
determined which illegal aliens it may be “feasible” to
exclude, before the Census Bureau has reported any
numbers to the Secretary, before the Secretary has
reported any numbers to the President, and before the
President has reported any numbers to Congress.
Accordingly, this Court need not and should not
resolve whether
the Apportionment
Clause
necessarily excludes or includes any particular
category of illegal aliens from the apportionment base.
Rather, for Plaintiffs to prevail, they must establish
that there is no category of illegal aliens that could
ever be excluded. They cannot do so.
E.

Plaintiffs Have Failed to State an
Ultra Vires or “Separation of
Powers” Claim

Plaintiffs posit that “[b]y requiring the
exclusion of undocumented immigrants from the
statutory phrases ‘total population’ and ‘whole
number of persons in each State,’ the Memorandum
directs the President and the Secretary of Commerce
to perform unlawful, ultra vires actions.” Pls.’ Br. at
29. NGO Plaintiffs also allege that the President has
violated the Constitution’s separation-of- powers
principle because Congress “delegated authority over
the census to the Commerce Secretary, not the
President.” See NGO Pls.’ FAC ¶¶ 222–36. However
characterized, these claims fail. Like every other
census and apportionment conducted under 13 U.S.C
76a

§ 141 and 2 U.S.C. § 2a, the Memorandum fully
complies with powers delegated by Congress under
this statutory scheme.
Nothing in the statutory language of “total
population,” 13 U.S.C. § 141(b), or “whole number of
persons in each State,” 2 U.S.C. § 2a(a), requires
counting every person physically present on Census
Day, even if they lack “usual residence” in the United
States.14 It is, of course, true that “the word ‘person’ in
§ 2a makes no distinction based on citizenship or
immigration status.” Pls.’ Br. at 29. And no one
disputes that aliens (legal or illegal) are “persons.” Cf.
Plyler v. Doe, 457 U.S. 202 (1982). But § 2a does not
reference only “persons”; it tracks the Fourteenth
Amendment’s text mandating apportionment based
on the “whole number of persons in each State.” 2
U.S.C. § 2a(a) (emphasis added). So while Plaintiffs
argue that Congress is “presumed to legislate with
familiarity of the legal backdrop for its legislation,”
Pls.’ Br. at 30 (quoting Mobil Cerro Negro, Ltd. v.
Bolivarian Republic of Venezuela, 863 F.3d 96, 114 (2d
Cir. 2017)), that legal backdrop only supports the
exclusion of individuals from apportionment if they do
not have a “usual residence” in the United States.
Franklin, 505 U.S. at 804; accord Pls.’ Br. at 30
(arguing that when “Congress used the materially
Everyone seems to agree that the Executive may lawfully
exclude individuals from the enumeration and apportionment if
they do not have a “usual residence” or “enduring tie” to a State.
See Section III.E, supra; Pls.’ Br. at 23 (“[T]emporary visitors are
not included in the apportionment base precisely because the
United States is not their ‘usual residence.’”); Br. of Amici Curiae
Historians at 11, ECF No. 105-1 (“The rationale for excluding [ ]
limited categories of noncitizens is clear and entirely consistent
with the Framers’ intent, and longstanding census practice, to
count all persons residing in the United States.”).
14

77a

same language in a statute it . . . intended for [the
language] to retain its established meaning” (quoting
Lamar, Archer & Cofrin, LLP v. Appling, 138 S. Ct.
1752, 1762 (2018)); id. at 32 (contending that “2 U.S.C.
§ 2a, has always been understood to include people
who reside in a particular State” (emphasis added)).
That is why no apportionment conducted under the
Census Act has included literally everyone physically
present in the country. See Br. of Amici Curiae
Historians at 10 (“This ‘usual residence rule’ is
consistent with the Framers’ repeated emphasis on
counting ‘inhabitants’ on United States soil . . . and
has remained the guiding principle for census-taking
for 230 years.”). Just as the Memorandum does not
violate the Constitution merely by contemplating the
exclusion of some as-yet-unknown number of illegal
aliens for lack of “usual residence,” neither does it
violate the identical language of § 2a.15 See Section
III.E, supra.
Nor does it matter that the President is making
an independent choice in the apportionment process.
While the apportionment calculation itself—feeding
numbers into a mathematical formula known as the
“method of equal proportions”—is “admittedly
ministerial,” there is nothing “ministerial” about the
President’s role in obtaining the numbers used in that
formula. Franklin, 505 U.S. at 799 (explaining that
This “usual residence” approach is consistent with the
approach taken in the Census Bureau’s 2018 Residence Criteria,
which Plaintiffs are currently defending in other litigation and
touting here. See Section III.E, supra; Pls.’ Br. at 31–32. As with
every census, the Census Bureau always planned to exclude
some people from the 2020 Census without a “usual residence” in
a particular State. See Final 2020 Census Residence Criteria and
Residence Situations, 83 Fed. Reg. 5525, 5526 (Feb. 8, 2018).
15

78a

“the admittedly ministerial nature of the
apportionment calculation itself does not answer the
question [of] whether the apportionment is
foreordained by the time the Secretary gives her
report to the President”). To the contrary, “§ 2a does
not curtail the President’s authority to direct the
Secretary in making policy judgments that result in
‘the decennial census.’” Id.16 And that is exactly what
the President has done here: direct the Secretary to
report two sets of numbers, of which the President will
choose one to plug into the “method of equal
proportions. See 2 U.S.C. § 2a(a); 85 Fed. Reg. at
44,680.
Plaintiffs’ position is incompatible with the
Supreme Court’s view of the President’s role as more
than “merely ceremonial or ministerial.” Compare
Pls.’ Br. 32, 36–37 with Franklin, 505 U.S. at 789. “[I]t
is the President’s personal transmittal of the report to
Congress” that “settles the apportionment” of
Representatives, making the President “important to
Other courts since Franklin have likewise understood that §
2a allows the President to perform a significant role beyond the
mere “ministerial” calculation leading to reapportionment. See
Flue-Cured Tobacco Coop. Stabilization Corp. v. EPA, 313 F.3d
852, 860 (4th Cir. 2002) (likening an EPA report to the
Secretary’s § 141(b) report because it “is advisory and does not
trigger the mandatory creation of legal rules, rights, or
responsibilities,” allowing the President “to embrace or
disregard” the Secretary’s report); Pub. Citizen v. U.S. Trade
Representative, 5 F.3d 549, 552 (D.C. Cir. 1993) (characterizing
the Commerce Secretary’s report to the President a “moving
target” because “the President has statutory discretion to
exercise supervisory power over the agency’s action); Alabama v.
Dep’t of Commerce, 396 F. Supp. 3d 1044, 1055 (N.D. Ala. 2019)
(noting that in fulfilling his responsibilities under § 2a, “the
President is not necessarily bound to follow the Secretary’s
tabulation”).
16

79a

the integrity of the process.” Franklin, 505 U.S. at
799–800. Plaintiffs’ attempt to reduce the President to
mere statistician cannot be squared with the Supreme
Court’s holding that § 2a contemplates his exercise of
substantial discretion.17
Plaintiffs also seek to contravene Supreme
Court precedent (and 230 years of history) by arguing
that the numbers used for apportionment must be
derived solely from individual responses to the census
questionnaire. See Pls.’ Br. at 33–36. But the census
has never tallied the total number of “usual residents”
based only on questionnaire responses. In fact, for the
first 170 years of American census taking, no census
questionnaire existed because all enumeration was
done in person. See New York v. Dep’t of Commerce,
351 F. Supp. 3d 502, 520 (S.D.N.Y.) (Furman, J.), aff’d
in part, rev’d in part and remanded, 139 S. Ct. 2551
(2019). And for the 2020 Census, individuals have
been, and will be, enumerated through (1) censusquestionnaire responses online, by mail, or by phone;
(2) in-person visits by enumerators; (3) “proxy”
Plaintiffs also seem to suggest that that the Memorandum is
unlawful merely because the President has directed the
Secretary to provide information about illegal aliens. See, e.g.,
Pls.’ Br. 29, 38. But that contention also fails. Article II empowers
the President to supervise the conduct of subordinate officials
like the Secretary, see U.S. Const., art. 2, § 1, and the Opinions
Clause further empowers the President to “require the Opinion,
in writing, of the principal Officer in each of the executive
Departments, upon any Subject relating to the Duties of their
respective Offices,” id., art. 2, § 2, cl. 2. In Franklin, even the
dissenting Justices acknowledged that § 2a “does not purport to
limit the President’s ‘accustomed supervisory powers’ over the
Secretary of Commerce.” 505 U.S. at 813 n.11 (Stevens, J.,
dissenting). So Plaintiffs cannot preclude the President from
obtaining information from the Secretary, nor the Secretary from
providing it.
17

80a

responses given by those such as a neighbor or
landlord; (4) high- quality administrative records from
other federal agencies; and, as a last resort, (5) filling
gaps in enumeration data by imputing other data from
the same area. Id. at 521. In the citizenship-question
litigation, Plaintiffs elicited extensive testimony on
each of those enumeration methods, but never
suggested that any of them violated the Census Act.
See generally id. at 572–626. Indeed, the Supreme
Court has specifically approved the use of purported
“non-census data”—like administrative records and
imputation—in apportionment without remotely
hinting that either one was unlawful. Compare Pls.’
Br. at 35–36 (taking issue with the hypothetical use of
administrative records from other federal agencies)
with Franklin, 505 U.S. at 794–96, 803–06 (approving
the Census Bureau’s use of “home of record”
information from Defense Department personnel files
for apportionment) and Utah v. Evans, 536 U.S. 452,
457–59, 473–79 (2002) (approving the Census
Bureau’s use of “hot-deck imputation” for
apportionment).
In any event, it is entirely premature for
Plaintiffs to surmise that “the President will
necessarily have to rely on information that is not
contained within the census” if he is going to exclude
some as- yet-unknown number of illegal aliens from
apportionment. Pls.’ Br. at 35. As discussed above, it
is not yet known what numbers the Secretary will
transmit to the President pursuant to the Presidential
Memorandum. See supra at 8. And Plaintiffs cannot
assume that those numbers will be derived from
purported “non-census data.”.
Put simply, Plaintiffs’ attempt to manufacture
an ultra vires or separation-of-powers claim detached
81a

from their Apportionment Clause claim is unavailing.
By delegation of the Census Act, the Executive stands
in the shoes of Congress and may properly exclude
individuals from apportionment for lack of “usual
residence”—just as he has done in every other
apportionment calculated under the Census Act.
F.

Plaintiffs’ Demands for Relief
Against the President Must Be
Dismissed

Plaintiffs ask this court to enjoin the President
from implementing the policy in the Presidential
Memorandum, to issue a writ of mandamus to that
effect, and to declare his policy decision unlawful. See
Gov’t Pls.’ Am. Compl. at 45 (Prayer for Relief ¶¶ 1-4,
7); NGO Pls.’ Am. Compl. at 88 (Request for Relief ¶¶
(i)-(iv), (vi), (vii)). As the Supreme Court has long
recognized, however, federal courts cannot exercise
injunctive authority over the President’s discretionary
policy judgments. See Mississippi v. Johnson, 4 Wall
475, 501 (1867) (the judicial branch has “no
jurisdiction of a bill to enjoin the President in the
performance of his official duties”). This limitation
reflects the respect due to the President’s “unique
position in the constitutional scheme.” See Nixon v.
Fitzgerald, 457 U.S. 731, 748 n.27, 749-50 (1982)
(declining to assume that implied damages “cause[s]
of action run[] against the President”). In Franklin,
the Supreme Court reaffirmed this constitutional
principle. See 505 U.S. at 802 (noting that “grant of
injunctive relief against the President [] is
extraordinary, and should have raised judicial
eyebrows”).
Plaintiffs may contend that their
injunctive claims fit within a narrow exception that
the Supreme Court potentially left open for injunctive
claims that seek to direct the President to perform
82a

“ministerial” functions. See Franklin, 505 U.S. at 80203 (noting that Mississippi v. Johnson “left open the
question whether the President might be subject to a
judicial injunction requiring the performance of a
purely ‘ministerial’ duty”); see also Mississippi v.
Johnson, 4 Wall at 500 (defining “ministerial duty” as
“one in respect to which nothing is left to discretion”).
Franklin, however, forecloses that argument in
this case. Specifically, the Supreme Court recognized
that under 2 U.S.C. § 2a, “the Secretary [of Commerce]
cannot act alone”; instead, the President has the
“authority to direct the Secretary in making policy
judgments.” Franklin, 505 U.S. at 799-800. This
“clear[ly]” demonstrates Congress’s belief that “it was
important to involve a constitutional officer,” i.e., the
President, “in the apportionment process.” Id. at 799.
The President’s role and “duties” in the congressional
apportionment process, therefore, “are not merely
ceremonial or ministerial.” Id. at 800.
Put simply, even if Franklin and Mississippi v.
Johnson could be read to allow injunctive claims
seeking performance of purely ministerial functions,
that possible exception has no application here—
because the President’s implementation of the
Presidential Memorandum is part of his duties under
2 U.S.C. § 2a, which “are not merely ceremonial or
ministerial.” Instead, Franklin applies squarely to
Plaintiffs’ injunctive claims against the President, and
requires the dismissal of those claims. 505 U.S. at 80203.
Moreover, and at a minimum, even if injunctive
relief against the President in the performance of his
statutory duties were theoretically available,
Franklin makes clear that it “would require an

83a

express statement by Congress” authorizing such
relief. Franklin, 505 U.S. at 801. Plaintiffs have
identified no such “express statement” and none
exists.
Finally, although declaratory relief claims
against the President may be viable under existing
Second Circuit law, see Knight First Amendment Inst.
v. Trump, 928 F.3d 226 (2d Cir. 2018), other courts
have questioned the appropriateness of such claims.
For example, the D.C. Circuit, following Franklin, has
determined, “declaratory relief” against the President
for his non-ministerial conduct “is unavailable.”
Newdow v, Roberts, 603 F.3d 1002, 1012–13 (D.C. Cir.
2010). This is because “a court— whether via
injunctive or declaratory relief—does not sit in
judgment of a President’s executive decisions.” Id. at
1012 (emphasis added) (citing Mississippi, 71 U.S. at
499); see also Doe 2 v. Trump, 319 F. Supp. 3d 539, 541
(D.D.C. 2018) (“Sound separation-of-power principles
counsel the Court against granting [injunctive and
declaratory] relief against the President directly.”).
Thus, “similar considerations regarding a court’s
power to issue [injunctive] relief against the President
himself apply to [a] request for a declaratory
judgment.” Swan v. Clinton, 100 F.3d at 973, 978
(D.C. Cir. 1996).
IV.

PLAINTIFFS ARE NOT ENTITLED TO A
PRELIMINARY OR PERMANENT
INJUNCTION

If the Court declines to dismiss Plaintiffs’
claims, it should nonetheless deny Plaintiffs’ request
for the extraordinary relief of a permanent or
preliminary injunction.

84a

Although Plaintiffs seek partial summary
judgment on their Apportionment Clause and ultra
vires claims, they do not specify what remedy they
wish to accompany that judgment. Presumably,
however, Plaintiffs would have this Court enter, at
minimum, a permanent injunction prohibiting
Defendants
“from
excluding
undocumented
immigrants from the apportionment base following
the 2020 Census, or taking any action to implement or
further such a policy.” NY FAC at 45, ¶ 4; see NGO
FAC at 88, ¶¶ 3-4. Unlike the motion-to-dismiss
context in which Plaintiffs’ well-pleaded allegations
are accepted as true, Chamberlain Estate of
Chamberlain v. City of White Plains, 960 F.3d 100, 105
(2d Cir. 2020), the “extraordinary remedy” of an
injunction “may only be awarded upon a clear showing
that the plaintiff is entitled to such relief.” Winter v.
Nat. Res. Def. Council, Inc., 555 U.S. 7, 22 (2008); City
of Newburgh v. Sarna, 690 F. Supp. 2d 136, 169
(S.D.N.Y. 2010) (contrasting the standing inquiry on a
motion to dismiss with the “heavy burden of clearly
establishing the ‘actual and imminent’ threat of
irreparable harm” for an injunction). To obtain
permanent injunctive relief, Plaintiffs bear the
burden of demonstrating (1) that they have suffered
an irreparable injury; (2) that remedies available at
law, such as monetary damages, are inadequate to
compensate for that injury; (3) that, considering the
balance of hardships between the parties, a remedy in
equity is warranted; and (4) that the public interest
would not be disserved by a permanent injunction.”
eBay Inc. v. MercExchange, L.L.C., 547 U.S. 388, 391
(2006).
While Plaintiffs appear to understand that
these factors are required to obtain a preliminary

85a

injunction, Pls.’ Br. at 40, they fail to acknowledge
that these same factors must be met to obtain
permanent relief as well. Insofar as Plaintiffs believe
they are entitled to any form of injunctive relief
without satisfying other factors, they are incorrect.
Winter, 555 U.S. at 32 (“An injunction is a matter of
equitable discretion; it does not follow from success on
the merits as a matter of course.”); Amoco Prod. Co. v.
Vill. of Gambell, 480 U.S. 531, 546 n.12 (1987) (“The
standard for a preliminary injunction is essentially
the same as for a permanent injunction with the
exception that the plaintiff must show a likelihood of
success on the merits rather than actual success.”);
Patsy’s Italian Rest., Inc. v. Banas, 658 F.3d 254, 272
(2d2011); Roach v. Morse, 440 F.3d 53, 56 (2d Cir.
2006). As explained above, Plaintiffs’ Apportionment
Clause and ultra vires claims lack merit and their
request for partial summary judgment and an
injunction should be rejected for that reason alone.
Winter, 555 U.S. at 32–33. Even if these claims were
meritorious, however, Plaintiffs could not satisfy the
remaining factors, so they would not be entitled to
either preliminary or permanent injunctive relief.
A.

Plaintiffs Cannot Establish Any
Imminent and Irreparable Harm

Most significantly, Plaintiffs fail to
establish that they are “likely to suffer irreparable
harm in the absence of preliminary relief.” Winter, 555
U.S. at 20; see also Mazurek v. Armstrong, 520 U.S.
968, 972 (1997) (“[A] preliminary injunction is an
extraordinary and drastic remedy, one that should not
be granted unless the movant, by a clear showing,
carries the burden of persuasion.” (internal quotes
and citations omitted; emphasis in original)). To
establish a likelihood of irreparable harm, a plaintiff
86a

“must demonstrate that absent a preliminary
injunction they will suffer an injury that is neither
remote nor speculative, but actual and imminent, and
one that cannot be remedied if a court waits until the
end of trial to resolve the harm.” Grand River Enter.
Six Nations, Ltd. v. Pryor, 481 F.3d 60, 66 (2d Cir.
2007) (internal quotation marks omitted). Because a
preliminary injunction “is one of the most drastic tools
in the arsenal of judicial remedies,” id., Plaintiffs’
burden to show irreparable harm is necessarily higher
than what is required to establish standing. See, e.g.,
Mazurek, 520 U.S. at 972. Here, Plaintiffs fail this test
at every step—and further fail to establish that the
remaining injunction factors tilt in their favor.
1.

Plaintiffs Cannot Establish
Any Irreparable
Apportionment Injury

Because Plaintiffs rushed to Court before the
Secretary has implemented the Memorandum— and
before any census enumeration has even been
completed—Plaintiffs cannot show any imminent
threat of apportionment injury.
As detailed above, it is currently unknown what
numbers the Secretary may ultimately transmit to the
President. See supra at 8; Abowd Decl. ¶ 15. Plaintiffs’
expert declarations posit only that the wholesale
exclusion of illegal aliens may cause certain states to
lose a Congressional seat. See Pls.’ Br. at 49–50; see
generally Warshaw Decl. But those experts do not—
and cannot—predict what apportionment injury any
state might suffer from some hypothetical smaller
exclusion, assuming a state suffers any injury at all.
Given that the Secretary of Commerce has not yet
transmitted his report to the President, and the

87a

President has not yet transmitted any numbers to
Congress, any effort to predict the ultimate effect of
the Memorandum on apportionment, or the resulting
“political power of Plaintiffs’ constituents,” Pls.’ Br. at
41, is entirely speculative.
More
fundamentally,
any
purported
apportionment injury that Plaintiffs could suffer is, as
a legal matter, not irreparable. The Supreme Court
has regularly decided census cases that, like this one,
contest the relative apportionment of representatives
post-apportionment, because an erroneous or invalid
apportionment number can be remedied after the
fact.18 See, e.g., Utah, 536 U.S. at 462 (holding that
post-apportionment redress is possible if the
apportionment calculation contains an error); see also
Franklin, 505 U.S. at 803 (finding that a postapportionment order against the Secretary would
provide redress for plaintiffs); Dep’t of Commerce v.
Montana, 503 U.S. 445-46 (1992); Wisconsin v. City of
New York, 517 U.S. 1 (1996). Indeed, in Wisconsin, it
was not until six years after the 1990 census that the
Court resolved an apportionment dispute based on
those results. This case is not different. As this Court
noted in requesting the appointment of a three-judge
panel pursuant to 28 U.S.C. § 2284, “the Presidential
Memorandum does not purport to change the conduct
of the census itself[;] [i]nstead, it relates the
The only census cases decided by the Supreme Court preapportionment involved challenges to the mechanics of
conducting the census, which could not be undone postapportionment. See Dep’t of Commerce v. New York, 139 S. Ct.
2551 (2019) (challenge to a citizenship question on the 2020
Census); Dep’t of Commerce v. U.S. House of Representatives, 525
U.S. 316 (1999) (challenge to the use of statistical sampling in
the census).
18

88a

calculation of the apportionment base used to
determine the number of representatives to which
each state is entitled.” ECF 68 at 2. Accordingly, this
Court could order adequate relief after apportionment
when any injury to Plaintiffs is known with certainty,
assuming there is any at all. Indeed, the very fact that
the Memorandum calls for the Secretary to report two
numbers—one arrived at after the Census Bureau
applies its Residency Criteria, and another reflecting
the number of illegal aliens that the Secretary is able
to identify—makes clear that a post-apportionment
remedy would be easy to craft.
2.

Plaintiffs’ Allegations of
Enumeration Injury Do Not
Withstand Scrutiny

Plaintiffs’ alternative efforts to link the
Memorandum to some ongoing enumeration injury
fare no better. As explained by Associate Director
Fontenot, the Memorandum does not affect how the
Census Bureau is conducting its remaining
enumeration operations. See Fontenot Decl. ¶¶ 7, 12;
see generally Census Bureau, Review of 2020
Operational Plan Schedule, Aug. 17, 2020, https://
2020census.gov/content/dam/2020census/materials/
news/2020-operational-plan-schedule-review.pdf
(“Operational Plan”) Those operations include a
variety of protocols specifically designed over the
course of the past decade to ensure that hard-to-count
and minority communities— some of the core
constituencies for which Plaintiffs advocate—are
accurately reflected in the census. See generally
Fontenot Decl. ¶¶ 11, 12; Operational Plan at 2-11
(describing non-response follow-up, and other efforts
to achieve “acceptable level of accuracy and
completeness, with a goal of resolving at least 99% of
89a

Housing Units in every state, comparable with
previous censuses”).19 Plaintiffs speculate that,
notwithstanding these protocols, the Memorandum
“and Defendants’ corresponding public statements”
will render the enumeration less accurate—
purportedly by deterring immigrant communities
from participating. Pls. Br. at 42, 47. But these
claims suffer from at least three fundamental flaws,
each of which seriously undermines the causation
Plaintiffs are trying to establish.
a.

Plaintiff’s Theory of Harm Relies
on Attenuated Events Involving
the Independent Actions of ThirdParties

First, as discussed in the standing section,
Plaintiffs’ theory for why the Memorandum may
depress response rates relies on a highly attenuated
chain of events. Plaintiffs’ expert, Dr. Barreto, opines
that immigrant communities are less likely to respond
to the census after the Memorandum because of how
that Memorandum is discussed in the media and by
community activists. Barreto Decl. ¶¶ 15-16, 32. But
those independent actors’ messages are the product of
their own interpretation, and often at odds with the
plain terms of the Memorandum. See, e.g., Torres
Decl. ¶ 18., ECF No. 76.47 (stating that CASA de
See also 2020 Census Detailed Operational Plan for: 18.
Nonresponse Followup Operation (NRFU), Apr. 16, 2018, https://
www2.census.gov/programs-surveys/decennial/2020/programmanagement/planning-docs/NRFU-detailed-operational-plan
.pdf; see also 2020 Census Research and Testing Management
Plan, Dec. 28, 2015, https://www2.census.gov/programs-surveys/
decennial/2020/program-management/planning-docs/researchtesting-plan.pdf, at 7.
19

90a

Maryland, Inc. “was approached by a number of media
outlets, including CNN, to represent the reaction of
our community . . . [and] conveyed how harmful the
action is and our commitment to ensuring that our
members are fully counted.”); Barreto Decl. ¶ 33
(listing
media
messages
characterizing
the
Memorandum as something “intended to promote
fear”); id. ¶ 46 (noting that aliens “may not do the full
research to realize they can still fill out the Census
safely, because they hear the news which is connecting
the July 21 [Memorandum] to Trump’s longstanding
desire to increase deportation of undocumented
immigrants” (emphasis added)). It makes little sense
to attribute whatever harm is caused by those
independent actors’ messaging to the Memorandum
itself, particularly if their messages convey the
incorrect impression that the Memorandum increases
the “risk of [individuals’] information being linked to
immigration records and [those individuals] facing
immigration enforcement.” Barreto Decl. ¶¶ 62, Pls.
Br. at 43 (citing various declarations speculating that
the Memorandum is likely to create fear of
immigration enforcement). Given the strong privacy
protections for census response data, any suggestion
that the Secretary’s
compliance with the
Memorandum will somehow facilitate immigration
enforcement is flatly wrong. See generally 13 U.S.C. §
9 (providing that personal information collected by the
Census Bureau cannot be used against respondents by
any government agency or court); id. § 214 (setting
forth penalty for wrongful disclosure of information).
b.

Plaintiffs’ Theory of Harm Is
Limitless

Second, setting aside the role of independent
actors, Plaintiffs’ theory of harm proves too much.
91a

Plaintiffs’ core claim is that the Memorandum will
depress aliens’ participation in the census by allegedly
“send[ing] a clear message that this community does
not count and should be left out of the democratic
process.” Pls. Br. at 42; see, e.g., Barreto Decl. ¶ 14;
Choi Decl. ¶¶ 16-18 (Ex. 14); Torres Decl. ¶ 19 (Ex.
47). But the same line of reasoning could apply to
almost any government action or statement that
Plaintiffs find disagreeable. As Plaintiffs themselves
acknowledged during the initial status conference
with the Court, their theory would recognize harm
sufficient for standing (and presumably for a
preliminary injunction) based on a President’s mere
statements suggesting that he is exploring new
legislation that would permit the Census Bureau to
share data with immigration enforcement agencies.
See, e.g., Conference Tr. 34:13–35:6. That makes little
sense.
The transmission of a general policy message—
like the kind Plaintiffs claim the Memorandum
sends—cannot suffice to show that irreparable harm
is imminent or likely. Winter, 555 U.S. at 12, 20. The
Supreme Court has repeatedly rejected efforts to
conjure irreparable injury from a hypothetical series
of events that could theoretically cause a plaintiff
injury. See, e.g., Los Angeles v. Lyons, 461 U.S. 95, 103
(1983); Rizzo v. Goode, 423 U.S. 362, 372–73 (1976).
Indeed, it has explicitly noted that allegations of
“fear[]” of future harm must be assessed for
reasonableness: “[i]t is the reality of the threat of”
future harm that is relevant, “not the plaintiff’s
subjective apprehensions.” Lyons, 461 U.S. at 107 n.8
(emphasis added). Where, as here, fear is based on a
series
of
conjectures
and
subjective
misinterpretations—tethered not to something the

92a

government has actually done, but to some different
policy the government might (or might not) pursue in
the future—such fear cannot form the basis for
irreparable harm. See id. at 107. Merely harboring an
objection to the President’s expression of a policy
preference falls far short of the standard for injunctive
relief.
c.

The Alleged Harm is at Odds with
Existing Evidence

Third, and finally, Plaintiffs’ claims that the
Memorandum is likely to decrease response rates is
simply inconsistent with empirical evidence. Plaintiffs
go to great lengths to analogize the Memorandum to a
citizenship question on a census questionnaire. See,
e.g., Pls. Br. at 42; Barreto Decl. ¶¶ 14, 18, 24, 28, 57,
68, 86. But, as noted above, a randomized control trial
published by the Census Bureau after the Supreme
Court issued its opinion in the citizenship question
litigation found no statistically-significant depression
of response rates for households that received a test
questionnaire containing a citizenship question.
See Abowd Decl. ¶ 13; see also 2019 Census Test
Report, Census Bureau (Jan. 3, 2020), https://www2.
census.gov/programs-surveys/decennial/2020/
program-management/census-tests/2019/2019census-test-report.pdf (Census Test Report). As
explained by Dr. Abowd, this test contained a sample
of 480,000 housing units, and was “capable of
detecting response differences as small as 0.5
percentage points.” See Abowd Decl.¶ 13. And while
some narrow subgroups did exhibit statisticallysignificant lower self-response rates, Census Test
Report at x, the Census Bureau concluded that
“[c]urrent plans for staffing for Nonresponse Followup
would have sufficiently accounted for subgroup
93a

differences seen in this test.” Id. This result was
contrary to the prediction of experts who previously
testified during the citizenship-question litigation,
and some of whose declarations Plaintiffs again
submit nw. See generally Abowd Decl. ¶ 13; see, e.g.,
Barreto Decl. ¶ 68. As Dr. Abowd reports, this finding
illustrates the benefit of a “randomized controlled
design,” which properly isolates the independent
variable (there, the citizenship question) and
measures its effects. Abowd Decl. ¶ 13.
Plaintiffs cannot reasonably contend that the
Memorandum would have a greater effect on response
rates than did the citizenship question. Unlike a
question on a census questionnaire, the Memorandum
does not call for respondents to submit any
information, and it changes nothing about the
enumeration process. See 85 Fed. Reg. at 44,679
(directing the Secretary to make use of existing
information). Indeed, neither Dr. Barreto nor any
other declarant proffered by Plaintiffs identifies a
rigorous survey or statistical study measuring
whether this kind of internal Government action,
which seeks nothing of respondents and has no
connection to immigration enforcement, has any effect
on response rates within immigrant communities. See
generally Barreto Decl. ¶¶ 39-86. And nothing
Plaintiffs submit purports to statistically measure the
effect of the Memorandum itself on response rates. See
generally Barreto Decl. ¶¶ 39-86; Thompson Decl. ¶¶
21–23 (offering an opinion about the effect of the
Memorandum without relying on a source of data).
Under these circumstances, Plaintiffs cannot be
said to establish anything more than the abstract
“possibility of irreparable injury.” Nken, 556 U.S. at
434. But, as the Supreme Court has emphasized, the
94a

“‘possibility’ standard is too lenient” a basis upon
which to issue the drastic remedy of a preliminary
injunction. Winter, 555 U.S. at 22. Given that
irreparable harm “is the single most important
prerequisite for the issuance of a preliminary
injunction,” Faiveley Transport. Malmo AB v. Wabtec
Corp., 559 F.3d 110, 118 (2d Cir. 2009), Plaintiffs’
failure to establish anything more than the theoretical
possibility of harm is sufficient basis to deny the
injunction they seek.
B.

The Remaining Factors
Against an Injunction

Weigh

On the other side of the ledger, the harm to the
government and to the public interest from an
injunction would be great, and immediate. See Nken,
556 U.S. at 435 (explaining that harm to opposing
party and weighing the public interest “merge” when
relief is sought against the government). In particular,
an injunction would impede the Executive’s historic
discretion in conducting both the census and the
apportionment, contrary to Congressional intent. See
generally Franklin, 505 U.S. at 796-800. Plaintiffs
discount these interests, arguing that the
Government cannot have an interest in enforcing “an
unconstitutional law,” Pls. Br. at 51, but that
argument only holds if Plaintiffs are correct on the
merits of their argument—which, as explained above,
they are not.
In any event, Plaintiffs’ conception of the
balance and hardship and public interest collapses
those two parts of the traditional four-part injunction
test into the very first prong: merits. As the Supreme
Court has emphasized, however, that should not be
done. See Winter, 555 U.S. at 32. The public interest

95a

prong is a stand-alone requirement that must be met
separately, and cannot be short- circuited at plaintiffs’
whim. Id.
Plaintiffs vaguely suggest that enjoining the
Memorandum would allegedly remedy “Defendants’
misinformation.” Pls. Br. 52. But the only
misinformation Plaintiffs have identified in this case
is the misinterpretation of the Memorandum by the
various activists and news sources that their expert,
Dr. Barreto, and their other declarants describe in
their declarations. See Barreto Decl. ¶¶ 66-69 (Ex. 56);
Choi Decl. ¶ 24-25 (Ex. 14); Seon Decl. ¶ 22 (Ex. 43);
Torres Decl. ¶ 24 (Ex. 47). Plaintiffs have never
identified one piece of “misinformation” that the
Defendants disseminated about the Memorandum.
Any attempt to remedy misinformation would
therefore require an injunction against some other
entity. The public interest may favor that injunction,
but it does not favor an injunction against Defendants
here.
CONCLUSION
For the foregoing reasons, the Court should
grant Defendants’ motion to dismiss and dismiss these
consolidated actions. In the event the Court declines
to grant Defendants’ motion to dismiss, Plaintiffs’
motion for partial summary judgment or preliminary
injunction should be denied.
Dated: New York, New York
August 19, 2020

96a

Respectfully submitted,
ETHAN P. DAVIS
Acting Assistant Attorney General
AUDREY STRAUSS
Acting United States Attorney for
the Southern District of New York
DAVID MORRELL
Deputy Assistant Attorney General
ALEXANDER K. HAAS
Branch Director
DIANE KELLEHER
BRAD ROSENBERG
Assistant Branch Directors
/s/ Elliott M. Davis
DANIEL D. MAULER (VA Bar No.
73190)
ELLIOTT M. DAVIS (NY Reg. No.
4596755)
Trial Attorneys
Civil Division, Federal Programs
Branch
U.S. Department of Justice
1100 L St. NW
Washington, DC 20005
Phone: (202) 353-5639
Fax: (202) 616-8470
E-mail: elliott.m.davis@usdoj.gov
Counsel for Defendants

97a

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
20-CV-5770 (JMF)
STATE OF NEW YORK, ET AL., PLAINTIFFS,
-vDONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS.
20-CV-5871 (JMF)
NEW YORK IMMIGRATION COALITION, ET AL.,
PLAINTIFFS,
-vDONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES, ET AL.,
DEFENDANTS.
FILED: August 19, 2020
DECLARATION OF ALBERT E. FONTENOT,
JR.
I, Albert E. Fontenot, Jr., make the following
Declaration pursuant to 28 U.S.C. § 1746, and state
that under penalty of perjury the following is true and
correct to the best of my knowledge and belief:
1.

I am the Associate Director for Decennial

98a

Census Programs, in which capacity I serve as adviser
to the director and deputy director on decennial
programs. In this role, I provide counsel as to the
scope, quality, management and methodology of the
decennial
programs;
provide
executive
and
professional leadership to the divisions and central
offices of the Decennial Census Programs Directorate;
and participate with other executives in the
formulation and implementation of broad policies,
which govern the diverse programs of the Census
Bureau. I have served in this capacity since November
12, 2017.
2.
The following statements are based on my
personal knowledge or on information supplied to me
in the course of my professional responsibilities. These
statements are provided in support of the Defendants’
opposition to the Plaintiffs’ motion for partial
summary judgment or in the alternative for a
preliminary injunction.
3.
Since March 2020, the Census Bureau has been
required to make a number of adjustments to its plans
for field data collection for the decennial census as a
result of the COVID-19 pandemic, and in order to
comply with the statutory deadline of December 31,
2020 to deliver the apportionment count.
4.
A statutory deadline under 13 U.S.C. § 141(b)
requires that the tabulation of total population by
States as required for the apportionment of
Representatives in Congress among the several States
shall be completed within nine months after the
official start of the census and reported by the
Secretary to the President of the United States. That
date is December 31, 2020.

99a

5.
To meet that deadline in light of the delays
caused by the Covid-19 pandemic, the Census Bureau,
(as reflected in the Census Bureau Director’s August
3, 2020 Statement), has updated its operations plan.
Specifically, the Census Bureau intends to improve
the speed of the count without sacrificing
completeness. As part of its revised plan, the Census
Bureau will conduct additional training sessions to
increase the number of enumerators in the field
Additionally we will be providing monetary awards to
existing enumerators in recognition of those who
maximize hours worked, as well as retention bonuses
for those enumerators who serve for multiple weeks.
The Census Bureau will also keep phone and tablet
computer devices for enumeration in use for the
maximum time possible.
The Census Bureau will end field data collection by
September 30, 2020. Self-response options will also
close on that date to permit the commencement of data
processing. Under the revised plan, the Census
Bureau intends to meet a similar level of household
responses as collected in prior censuses, including
outreach to hard-to-count communities. Once the
Census Bureau has the data from self-response and
field data collection in our secure systems, the Bureau
plans to review the data for completeness and
accuracy, streamline processing of the data, and
prioritize apportionment counts to meet the statutory
deadline.
6.
Between the time field operations are
completed and the statutory deadline, the Census
Bureau must engage in post-data collection processing
in order to produce the Census Unedited File (CUF),
which will then be used to produce the apportionment
100a

numbers to be delivered to the Secretary.
7.
As of August 18, 2020, over 94 million
households, 64 percent of all households in the Nation,
have self responded to the 2020 Census. The initial
Non-Response Followup field work has begun and
combined with the self response numbers
approximately 71 percent of all the households in the
nation have been enumerated. Building on our
successful and innovative internet response option,
the dedicated women and men of the Census Bureau,
including our temporary workforce deploying in
communities across the country in recent and
upcoming weeks, will work diligently to achieve an
accurate count.
8.
The Census Bureau has responded to the
shortened calendar period for Non-Response FollowUp (NRFU) operations by taking steps to increase and
enhance the ability of its employees in the field to
work as efficiently as possible, all in an effort to put in
as many hours of work, spread across the total
workforce, into field operations as would have been
done under the original time frame. We have aimed to
improve the speed of our count by continuing to
maintain an optimal number of active field
enumerators by conducting additional training
sessions, providing awards to enumerators in
recognition of those who maximize hours worked and
retention awards to those who continue on staff for
successive weeks. Additionally, we are keeping phone
and tablet computer devices for enumeration in use for
the maximum time possible.
9.
As the Director stated on August 3, 2020, under
the revised plan discussed above, the Census Bureau

101a

intends to meet a similar level of household responses
as collected in prior censuses, including outreach to
hard-to-count communities.
10.
The Census Bureau will continue to protect and
keep confidential respondents’ private and personallyidentifying information, as is required by law under
Title 13.
11.
The Census Bureau will continue to comply
with the Census Bureau’s 2018 Residence Criteria,
Final 2020 Census Residence Criteria and Residence
Situations, 83 Fed. Reg. 5525 (February 8, 2018),
which, as in past decennial censuses, requires each
person to be counted in their usual place of residence,
as defined in the Residence Criteria.
12.
The Presidential Memorandum issued on July
21, 2020, Memorandum on Excluding Illegal Aliens
From the Apportionment Base Following the 2020
Census, has had no impact on the design of field
operations for decennial census, or on the Census
Bureau’s commitment to count each person in their
usual place of residence, as defined in the Residence
Criteria.

Albert E Fontenot

Digitally signed by Albert E Fontenot
Date: 2020.08.19 16:26:38 -04'00'

Albert E. Fontenot, Jr.
Associate Director
Decennial Census Programs
United States Department of Commerce
Bureau of the Census

102a

August 3, 2020
BY ECF
The Honorable Jesse M. Furman
United States District Judge
Thurgood Marshall United States Courthouse
40 Foley Square
New York, New York 10007
Re:

State of New York v. Trump, No. 20 Civ.
5770 (JMF)
New York Immigration Coalition v.
Trump, No. 20 Civ. 5781 (JMF)

Dear Judge Furman:
This Office represents Defendants in the abovecaptioned matter. We write respectfully on behalf of
all parties, to provide the parties’ views on the issues
set forth in the Court’s July 28, 2020, order and to
propose a briefing schedule in this matter. See ECF
Nos. 24, 32. We summarize below the answers to the
issues identified by the Court.
1)
whether and to what extent the two
cases should be consolidated (pursuant to Rule
42 of the Federal Rules of Civil Procedure) or
otherwise coordinated, see, e.g., 18- CV2921
(JMF), ECF No. 322 (Sept. 14, 2018) (formally
consolidating 18-CV-2921 (JMF) and 18-CV-5025
(JMF));
The parties agree that 20 Civ. 5770 and 20 Civ.
5781 should be consolidated pursuant to Fed. R. Civ.
P. 42(a)(2).

103a

2)
the status and relevance to these
cases of State of Alabama v. U.S. Department of
Commerce, 18-cv-00772 (RDP) (N.D. Ala.);
Common Cause v. Trump, 20-CV-2023 (D.D.C.);
Haitian-Americans United, Inc. v. Trump, 20-CV11421 (D. Mass.); and City of San Jose v. Trump,
20-CV-5167 (N.D. Cal.), and whether or to what
extent the Court should coordinate or
communicate with the judges presiding over
those cases;
Plaintiffs: Plaintiffs are aware of five lawsuits
that have been filed to date that challenge the
Presidential Memorandum at issue in this lawsuit (in
addition to the two actions before this Court), and are
aware from public filings that a sixth such challenge
is likely forthcoming:
•

California v. Trump, 20-CV-5169 (Judge
Chen) (N.D. Cal. filed July 28, 2020). No
scheduling order has yet been entered.
The defendants have not filed notices of
appearance in this action.

•

City of San Jose v. Trump, 20-CV-5167
(Judge Koh) (N.D. Cal. filed July 27,
2020). No scheduling order has yet been
entered. On July 29, the plaintiffs in
California v. Trump filed a motion to
relate that case to City of San Jose v.
Trump. On July 31, the City of San Jose
plaintiffs filed their assent to that
request. The defendants have not yet
responded to that motion on the docket or
filed notices of appearance in this action.

•

Common Cause v. Trump, 20-CV-2023
(Judge Cooper) (D.D.C. filed July 23,
104a

2020). No scheduling order has yet been
entered. The defendants have not filed
notices of appearance in this action.
•

Haitian-Americans United, Inc. v. Trump,
20-CV-11421 (Judge Woodlock) (D. Mass.
filed July 27, 2020). No scheduling order
has yet been entered. The defendants
have not filed notices of appearance in
this action.

•

Useche v. Trump, 20-CV-2225 (Judge
Xinis) (D. Md. filed July 31, 2020). No
scheduling order has yet been entered.
The defendants have not filed notices of
appearance in this action.

•

La Unión del Pueblo Entero v. Ross, 19CV-2710 (Judge Xinis) (D. Md. filed Sept.
13, 2019). LUPE v. Ross is a challenge to
Executive Order 13,880, Collecting
Information About Citizenship Status in
Connection with the Decennial Census,
and Secretary Ross’s directive to the
Census Bureau to collect and produce
Citizenship Voting Age Population
(CVAP) information that states may use
in redistricting. Am. Complaint ¶¶ 1-5,
88-117 (alleging claims for relief under
the Administrative Procedure Act, the
Fifth Amendment due process clause, and
42 U.S.C. § 1985). At a July 22, 2020
hearing on the defendants’ motion to
dismiss, the Court denied the motion as
moot and without prejudice, granted the
plaintiffs’ request for leave to amend their
complaint to challenge the Presidential

105a

Memorandum, and directed the plaintiffs
to file their Second Amended Complaint
by August 12, 2020. See Order, 19-CV2710, ECF No. 95 (D. Md. July 22, 2020).
These actions do not affect this Court’s ability
to adjudicate this case.1
2.
In State of Alabama v. U.S. Department
of Commerce, 18-CV-00772 (RDP) (N.D. Ala. filed May
21, 2018), plaintiffs the State of Alabama and
Congressman Mo Brooks (“Alabama”) sued the
Commerce Department, the Secretary of Commerce,
the Census Bureau, and the Director of the Census
Bureau, challenging the Final 2020 Census Residence
Criteria and Residence Situations (the “Residence
Rule”), 83 Fed. Reg. 5525, 5526 (Feb. 8, 2018), on
constitutional and APA grounds. See First Am. Compl.
for Declaratory Relief, 18-CV-772, ECF No. 112 (N.D.
Ala. filed Sept. 10, 2019). The Residence Rule is
used to “determine where people are counted during
each decennial census.” 83 Fed. Reg. at 5526. As
relevant to Alabama’s challenge, the Residence Rule
requires that citizens of foreign countries living in the
United States be counted “at the U.S. residence where
they live and sleep most of the time,” without regard
for their immigration status. Id. at 5533 (Section C.3);
see also id. at 5530. Three separate groups of
intervenors have intervened as defendants in the

Defendants are currently operating under instructions from the
Attorney General to “remind courts of the utility of multiple
lower court decisions on a contested legal issue.” Memorandum
from the Attorney General, Litigation Guidelines for Cases
Presenting the Possibility of Nationwide Injunctions 4 (Sept. 13,
2018),
https://www.justice.gov/opa/press-release/file/1093881/
download.
1

106a

Alabama action.2
On June 5, 2019, the district court denied the
defendants’ motion to dismiss. Alabama v. U.S. Dep’t
of Commerce, 396 F. Supp. 3d 1044 (N.D. Ala. 2019).
The case is currently in discovery on jurisdictional
issues. See ECF No. 147 (second amended scheduling
order). Jurisdictional discovery is due to conclude by
September 23, 2020, and dispositive motions are due
by October 21, 2020.3 See id.
On July 21, 2020, the defendants notified the
district court of the Presidential Memorandum at
issue in this case. ECF No. 152. The district court
directed the parties to file simultaneous briefs by
August 3, 2020 regarding “the effect, if any, that the
President’s June 21, 2020 Memorandum may have on
the claims asserted in this case,” and to respond to the
other parties’ initial filings by August 10, 2020. ECF
The “Martinez Intervenors” are individual voters and the
nonprofit organization Chicanos Por La Causa. The “Local
Government Intervenors” are five local governments. The “State
and Other Intervenors” are 16 states, 9 cities and counties, and
the United States Conference of Mayors. Of the 26 “State and
Other Intervenors” in the Alabama action, 25 are among the 39
plaintiffs before this Court in New York v. Trump, 20-CV-5770.
2

The Martinez Intervenors in the Alabama action have asserted
a cross-claim arguing that “[i]f Defendants were to decide to
exclude undocumented immigrants from the enumeration
reported to Congress for the purpose of apportioning
Representatives and electors to the Electoral College,” it would
violate Article I and Section 2 of the Fourteenth Amendment. See
Martinez Intervenors’ Cross-Claim Against Defendants ¶¶ 50,
54-58, 18-CV-772, ECF No. 119 (N.D. Ala. Oct. 1, 2019). None of
the Plaintiffs in NYIC v. Trump, 20-CV-5781, are parties to the
Alabama action; and none of the Plaintiffs in New York v. Trump,
20-CV-5770, joined the Martinez Intervenors’ cross-claim in the
Alabama action.
3

107a

No. 153. As of the time this joint letter was finalized,
the parties in the Alabama action had not filed these
notices.
3.
Plaintiffs do not currently believe any
coordination with any of these other cases is
necessary. No case has yet set a scheduling order to
brief the merits of any challenge to the Presidential
Memorandum at issue here. To the extent fact
discovery becomes necessary in this litigation,
Plaintiffs anticipate working with plaintiffs’ counsel
in the other cases to propose coordination procedures
to minimize duplicative discovery and reduce the
burden on Defendants, as the parties agreed to and
the Court ordered in the citizenship question
litigation. See 18-CV- 2921, ECF Nos. 221, 224.
Plaintiffs do not oppose communication between this
Court and the judges presiding over the other cases.
Defendants: Defendants believe that to a
significant degree these cases cover largely the same
issue, i.e., the validity of the July 21, 2020,
Presidential Memorandum (“PM”). Defendants
encourage the Court to communicate and coordinate
with the judges presiding over the other cases.
3)
whether there is a date by which the
issues in these cases need to be resolved and, if
so, what that date is;
Plaintiffs: To redress Plaintiffs’ apportionment
harms, this dispute must be finally resolved by the
end of 2020. Under 2 U.S.C. § 2a, the President must
transmit to Congress a statement showing both (i)
“the whole number of persons in each State . . . as
ascertained under the . . . decennial census of the
population” and (ii) “the number of Representatives to
which each State would be entitled” by “the first day,
108a

or within one week thereafter, of the first regular
session” of Congress, which will take place in the first
few days of January 2021. Id. § 2a(a). Each State is
then “entitled . . . to the number of Representatives
shown in the statement” for the next Congress. Id. §
2a(b). The issues in this case thus must be resolved at
latest before the President transmits his statement
and affects the States’ apportionment.
Given the near certainty of an appeal, this
Court will likely have to issue a decision several
months earlier. We believe a decision by early
September 2020 would build in sufficient time for
appellate review, based on the expedited appeal
schedule that followed this Court’s earlier ruling on
defendants’ attempt to add a citizenship question to
the census. In that litigation, this Court issued its
decision on January 15, 2019; the Supreme Court
granted a writ of certiorari before judgment on
February 15; the case was fully briefed and argued by
April 23; and the Supreme Court issued its decision on
June 27. We believe that the 98 days between this
Court’s prior ruling and oral argument could serve as
a benchmark here for the amount of time it will take
for any appeal in this litigation to be fully submitted
and resolved on expedited appeal.
2.
The harms that Plaintiffs are facing to
the ongoing enumeration will also require expedited
resolution. As Plaintiffs have alleged, Defendants’
actions are already deterring participation in the
ongoing decennial census and undermining the
Census Bureau’s efforts to count immigrants and their
families. Those harms must be stopped as soon as
possible, so that the Census Bureau has time to
complete an accurate enumeration without the
impediments created by defendants’ actions.
109a

“[W]ait[ing] until the census has been conducted to
consider the issues presented here . . . would result in
extreme—possibly irremediable—hardship” to the
completion of the Enumeration. Dep’t of Commerce v.
U.S. House of Representatives, 525 U.S. 316, 332
(1999).
Unfortunately, Defendants’ own actions have
sharply limited the amount of time in which this
Court can grant meaningful relief to redress these
harms. Defendants chose to wait more than a year
after the conclusion of the citizenship question
litigation, and on the eve of the commencement of
Non-Response Follow-Up operations, to issue the
Memorandum. And although the Bureau had
announced in April that it would conduct NonResponse Follow-Up (NRFU) operations through
October 31, recent press reports indicate that the
Bureau will now end NRFU by September 30. See
Hansi Lo Wang, Census Door Knocking Cut a Month
Short Amid Pressure to Finish Count, NPR (July 30,
2020),
https://www.npr.org/2020/07/30/896656747/
when-does-census-counting-end-bureau-sendsalarming-mixed-signals. In order to preserve some
amount of time for NRFU operations to be conducted
without the deterrent effect of Defendants’ recent
actions, including the Presidential Memorandum,
Plaintiffs respectfully request a ruling from this Court
by as early in September as possible.
Defendants: There is no extreme time urgency
to deciding this matter. More specifically, there is no
need to resolve this lawsuit before the submission of
the enumeration numbers to the President. Unlike in
the citizenship question cases, Plaintiffs are not
challenging some procedure that will be used in the
actual census, but an apportionment number that will
110a

be chosen by the President after the census is
complete. And their requested relief has nothing to do
with any census procedures.
The July 21, 2020, PM at issue in this litigation
asks the Secretary to send the President two options:
(1) enumeration under the Residence Criteria, 83 Fed.
Reg. 5525 (Feb. 8, 2018), and (2) enumeration
excluding undocumented immigrants. The PM
requested the second option to the “maximum extent
feasible” and to “the extent practicable.” The Census
Bureau is still evaluating the usability of
administrative records pertaining to citizenship
status in connection with the decennial Census and
formulating a methodology for potentially excluding
undocumented immigrants. As stated in the New York
Immigration Coalition, et al.’s Complaint in 20 Civ.
5781, the Government recently represented in other
litigation that it currently “lack[s] . . . accurate
estimates of the resident undocumented population”
on a state-by-state basis. Therefore, it is far from clear
the extent to which it will be feasible for the Secretary
to report an enumeration excluding undocumented
immigrants. In addition, if the Secretary reports a
number excluding some undocumented immigrants
and if the President chose that number, the effect on
the number of representatives for any state is
currently unknown and speculative. Further, there is
no support for Plaintiffs’ assertion that the PM will
have any adverse effect on responses to the Census,
which in any event, is nearly complete.
Indeed, the default is that census and
apportionment cases are decided post- apportionment
when census enumeration procedures are not at issue.
See, e.g., Franklin v. Massachusetts, 505 U.S. 788, 7991 (1992); Dep’t of Commerce v. Montana, 503 U.S.
111a

445-46 (1992); Utah v. Evans, 536 U.S. 452, 458
(2002); Wisconsin v. City of New York, 517 U.S. 1
(1996).
In the instant litigation, a decision would be
optimal with sufficient time to reach the Supreme
Court—and, if necessary, for relief to be effectuated—
before the 2022 elections. Therefore, if the Court
decided the case soon after the President sent the
enumeration and apportionment to Congress in
January 2021 (or later, if Congress responds to the
Census Bureau’s request for an extension to complete
the 2020 Census), that should provide more than
enough time for any relief the Court ordered to be
effectuated. In the event the Court reversed any
decision to exclude undocumented immigrants, the
relief could simply involve apportionment based on
enumeration under the Residence Criteria—the first
option that the Secretary will have already reported
to the President.
4)
whether
Plaintiffs
anticipate
moving for preliminary relief and, if so, when
and on what grounds;
Plaintiffs intend to file a motion for partial
summary judgment or, in the alternative, for
preliminary injunctive relief on August 7. The motion
will address plaintiffs’ claims under Article I and
Section 2 of the Fourteenth Amendment; the equal
protection guarantee of the Fifth Amendment’s due
process clause; and the Census Act, potentially among
other claims.

112a

5)
whether
Defendants
anticipate
moving to dismiss one or both cases and, if so,
on what grounds;
Defendants anticipate moving to dismiss under
Federal Rule of Civil Procedure 12(b)(1) and 12(b)(6).
The bases for the motion may include lack of ripeness,
standing, and final agency action; failure to state
certain claims; and that a claim may not properly be
brought against the President.
6)
whether there are threshold issues
— such as standing, ripeness, or (for claims
under the Administrative Procedure Act) the
existence of final agency action — that should
be addressed and, if so, when and how they
should be raised and addressed;
Plaintiffs: This Court’s prior ruling on
plaintiffs’ standing in the earlier litigation involving
the citizenship question, which the Supreme Court
affirmed, resolves Plaintiffs’ standing to bring this
related challenge. In particular, exclusion of
undocumented immigrants from the apportionment
base will cause Plaintiffs or the jurisdictions in which
Plaintiffs operate to lose seats in the House of
Representatives. Such a loss “undoubtedly satisfies
the injury-in- fact requirement of Article III standing.”
New York v. U.S. Dep’t of Commerce, 351 F. Supp. 3d
502, 626 (S.D.N.Y. 2019) (quotation marks omitted);
see also Dep’t of Commerce v. U.S. House of
Representatives, 525 U.S. 316, 330 (1999) (holding
that the plaintiffs demonstrated standing for purposes
of summary judgment by submitting an expert
affidavit showing that “it is a virtual certainty that
Indiana will lose a seat . . . under the Department’s
Plan”). In addition, Defendants’ announcement of
113a

their decision to exclude undocumented immigrants
from the apportionment count will deter immigrants
and their families from responding to the decennial
census. This Court previously found that an
undercount due to similar deterrent effect will cause
“a loss of funding from federal programs” that is “a
classic form of Article III injury in fact.” Id. at 608.
And the nongovernmental plaintiffs here will suffer
further injury from being forced “to divert
organizational resources away from their core
missions and towards combating the negative effects”
of defendants’ actions. Id. at 616.
All of these injuries are traceable to
Defendants’ recent actions and redressable by a
favorable ruling from this Court. There is no question
that the exclusion of undocumented immigrants from
the apportionment base will directly affect the
apportionment (which the Presidential Memorandum
itself both acknowledges and intends, see 85 Fed. Reg.
at 44,680). Moreover, this Court previously found—
and the Supreme Court agreed—that the predictable
effects of defendants’ actions on the accuracy of the
ongoing enumeration are sufficient to establish
traceability. New York, 351 F. Supp. 3d at 619-25. And
all of these injuries will plainly be redressed by a
favorable ruling that requires defendants to do what
the Constitution mandates: “counting the whole
number of persons in each State.” U.S. Const. amend.
XIV, § 2.
2.
This Court also need not address
ripeness for Plaintiffs’ claims under Article I and
Section 2 of the Fourteenth Amendment because these
constitutional claims are plainly ripe for review. The
Presidential Memorandum makes clear that the
decision to exclude undocumented immigrants from
114a

the apportionment base has already been made: the
Memorandum not only announces that policy but
directs the Secretary of Commerce to help “carry out
the policy” by providing a count of the number of
undocumented immigrants in each State. See Glavin
v. Clinton, 19 F. Supp. 2d 543, 547-48 (E.D. Va. 1998)
(“Given the finality of the Department's decision to
utilize statistical sampling as a means to determining
the population for the purposes of congressional
apportionment in Census 2000, it is clear that
ripeness concerns have no application in the instant
case.”).
Although the President’s statement to
Congress will not be submitted until early January
2021, it is well-settled that ripeness can be satisfied if
future injury is “certainly impending, or there is a
substantial risk that the harm will occur.” Susan B.
Anthony List v. Driehaus, 573 U.S. 149, 158 (2014)
(quotation marks omitted). “[T]he threat of vote
dilution” from an improper apportionment “is concrete
and actual or imminent, not conjectural or
hypothetical And it is certainly not necessary for this
Court to wait until the census has been conducted to
consider the issues presented here.” U.S. House of
Representatives, 525 U.S. at 332. No further factual or
administrative development is necessary before this
Court can resolve the purely legal issue of whether
Defendants’ decision and actions violate Article I and
Section 2 of the Fourteenth Amendment. See NRDC v.
U.S. E.P.A., 859 F.2d 156, 168 (D.C. Cir. 1988) (“Given
the purely legal character of the claim and the
apparent certainty that it will arise in the future, we
think the institutional concerns underlying ripeness
militate in favor of immediate resolution.”).

115a

More importantly, “time is of the essence,” and
“[d]elayed review would cause hardship to Plaintiffs.”
New York, 351 F. Supp. 3d at 502. Defendants’ actions
are currently impairing the Census Bureau’s ability to
conduct an accurate enumeration, and Defendants’
sudden and unilateral decision to shorten the time for
NRFU operations by a month makes it even more
pressing for this Court to rule. Time is also of the
essence because waiting until Defendants actually
alter the apportionment in January 2021 by excluding
undocumented immigrants will only create confusion
and disruption, particularly because Plaintiffs will
begin the lengthy and complex redistricting process
soon after the apportionment and cannot
meaningfully engage in that process without knowing
how many seats they will have in the House of
Representatives. There is no reason to invite such
chaos when Defendants’ decision to exclude
undocumented immigrants from the apportionment
base is “certain to occur by a clearly determinable time
in the near (if not immediate) future.” Chem. Waste
Mgmt., Inc. v. EPA, 869 F.2d 1526, 1534 (D.C. Cir.
1989). “[T]he hardship to the parties of withholding
court consideration” thus weighs heavily in favor of
deeming this dispute to be ripe. Abbott Labs. v.
Gardner, 387 U.S. 136, 148- 49 (1977).
3.
To the extent the Court concludes that
briefing is needed to address any ripeness or standing
issues related to Plaintiffs’ claims under Article I and
Section 2 of the Fourteenth Amendment, the parties
should address those issues simultaneously with the
briefing of Plaintiffs’ forthcoming motion for partial
summary judgment and a preliminary injunction (as
Plaintiffs propose in response to Question 8 below).
Addressing these questions in separate, antecedent

116a

briefing on a motion to dismiss would delay
adjudication in a way that would severely prejudice
Plaintiffs and the public.
Defendants: In Defendants’ view, there are
threshold issues that need to be addressed pertaining
to standing, ripeness, and the existence of final agency
action under the Administrative Procedure Act. As
noted above, Defendants propose raising these issues
in a motion dismiss and would also raise them in
opposition to Plaintiffs’ summary judgment and
preliminary injunction motion.
7)
what effect, if any, the record in
State of New York v. U.S. Department of
Commerce, 18-CV-2921 (JMF), should have on
these cases, including but not limited to
whether the record, either now or later and
either in whole or in part, should be deemed to
be part of the record in these cases (e.g., with
respect to standing);
Plaintiffs: Plaintiffs believe the record in State
of New York v. U.S. Department of Commerce, 18-CV2921 (JMF), should be deemed to be part of the record
in these cases. The factual record regarding the
plaintiffs’ injury in 18-CV-2921 largely or entirely
resolves standing in these actions, to the extent
Defendants raise it. The factual record regarding the
decision to add a citizenship question to the census
bears on Plaintiffs’ allegations here that the decision
to exclude undocumented immigrants from the
apportionment count is connected to and motivated by
the same factors as the decision to add a citizenship
question. New York Am. Compl. ¶¶ 87- 107, 20-CV5770, ECF No. 34; NYIC Compl. ¶¶ 10-11, 113-29,
135, 20-CV-5781, ECF No. 1.
117a

And the factual record that the Court
considered in 18-CV-2921 as part of its decision to
impose sanctions on the defendants following entry of
final judgment bears on the NYIC Plaintiffs’
allegations here that Defendants’ intent is to
minimize Hispanic political power by excluding them
from the census through any means available. NYIC
Compl. ¶¶ 115-17, 20-CV-5781, ECF No. 1.
Courts routinely take judicial notice of the
evidence in the record of a prior case between the same
parties. See, e.g., Shuttlesworth v. City of
Birmingham, 394 U.S. 147, 157 & n.6 (1969) (“[W]e
may properly take judicial notice of the record in that
litigation between the same parties who are now
before us.”) (citing Nat’l Fire Ins. Co. v. Thompson, 281
U.S. 331, 336 (1930)). Doing so will facilitate the
litigation of this time-sensitive matter and will cause
no prejudice to Defendants, who vigorously litigated
these factual issues through a bench trial less than
two years ago. Cf. Shuttlesworth, 394 U.S. at 157
(“The petitioner here was one of the petitioners in the
Walker case, in which, just two Terms ago, we had
before us a record showing many of the ‘surrounding
relevant circumstances’ of the Good Friday march.”)
(citing Walker v. City of Birmingham, 388 U.S. 307
(1967)).
During the parties’ meet-and-confer for the
preparation of this joint letter, Defendants took the
position that the record from 18-CV-2921 should not
be deemed part of the record in these cases because,
according to Defendants, these cases are not related.
The President’s public remarks on multiple occasions
show otherwise. On July 11, 2019, two weeks after the
Supreme Court affirmed this Court’s decision in 18CV-2921, the President issued an Executive Order to
118a

“ensure that accurate citizenship data is compiled in
connection with the census,” and announced at a Rose
Garden press conference that the Executive Order
showed he was not “backing down on our effort to
determine the citizenship status of the United States
population.” New York Am. Compl. ¶¶ 94-97, 20-CV5770, ECF No. 34; see also NYIC Compl. ¶¶ 121-22,
20-CV-5781,
ECF No. 1. And in issuing the Presidential
Memorandum at issue here, the President stated:
“Last summer in the Rose Garden, I told the American
people that I would not back down in my effort to
determine the citizenship status of the United States
population. Today, I am following through on that
commitment by directing the Secretary of Commerce
to exclude illegal aliens from the apportionment base
following the 2020 census.” Statement from the
President Regarding Apportionment (July 21, 2020),
https://www.whitehouse.gov/briefingsstatements/statement-president-regardingapportionment/; see also New York Am. Compl. ¶¶ 98,
106-07, 20-CV-5770, ECF No. 34; NYIC Compl. ¶ 11,
20-CV-5781, ECF No. 1.
Defendants: The record in State of New York v.
U.S. Department of Commerce, 18-CV- 2921 (JMF),
should not be deemed to be part of the record in the
instant litigations. The record in State of New York v.
U.S. Department of Commerce, 18-CV-2921 (JMF), a
closed case that concerned the Secretary of
Commerce’s decision to add a citizenship question on
the 2020 Census, should have no effect on this case.
These two new lawsuits present challenges distinct
from the issues that were raised and litigated in the
closed case. In short, these new cases raise
constitutional claims regarding the President’s July
119a

21, 2020, memorandum on how to conduct
apportionment following the 2020 census—they do not
concern the 2020 Census questionnaire or the
procedures for conducting the 2020 Census.
Accordingly, the new cases will require the Court to
resolve different factual questions and legal issues.
The present litigations concern a different
decision by a different decisionmaker for different
stated reason than the citizenship-question case. The
citizenship-question
litigation
concerned
the
Secretary of Commerce’s March 2018 decision to add
a citizenship question on the 2020 Census, and the
litigation occurred before the 2020 Census
commenced. It concerned how the citizenship-question
would affect the accuracy of the enumeration. The
Secretary was the only one with statutory authority to
include a citizenship question on the census
questionnaire. 13 U.S.C. § 141.
By contrast, this case concerns the President’s
July 2020 memorandum on how to use census data for
apportionment, which was issued after the 2020
Census was already nearly two- thirds complete. The
PM asks the Secretary to report two numbers: (1) the
enumeration based on total population, and (2) the
enumeration excluding undocumented individuals “to
the extent practicable.” The Census Bureau is
conducting a complete enumeration of the total
population and nothing in the PM alters that counting
process. The President, not the Secretary of
Commerce, is the only one with statutory authority to
settle apportionment. See Franklin v. Massachusetts,
505 U.S. 788, 799 (1992) (holding that “it is the
President’s personal transmittal of the report to
Congress that settles the apportionment” and that
“the President, not the Secretary [of Commerce], takes
120a

the final action that affects the States”).
Finally, any relief ordered in this case would be
different than the relief ordered in the citizenshipquestion case. The Court’s prior order prohibited the
use of a citizenship question on the 2020 Census. Any
relief ordered in the new cases would have nothing to
do with a citizenship question. Cf. LUPE v. Ross, 19
Civ. 2710, 2019 WL 6035604, at *3 (D. Md. Nov. 13,
2019) (in context of finding citizenship case and case
challenging Executive Order 13800 unrelated,
stating: “Although Plaintiffs contend that the
predicate events for these two cases are part of a
larger conspiracy, this requires the Court to view the
cases at a high level of generality. In actuality, this
case would require the Court to evaluate a different
administrative record, resolve different factual
questions regarding the intent behind [the
presidential and secretarial actions at issue], and
eventually, if Plaintiffs succeed, order different
relief.”).
8)
(a) whether any of Plaintiffs’ claims
can be litigated on the basis of stipulated facts
and/or without discovery (or with minimal
discovery) and without the production of an
Administrative Record; (b) if so, whether such
claims should be handled on a separate, faster
track from claims that would require either or
both the production of an Administrative
Record or discovery; and (c) if so, the most
efficient means to present those claims for
resolution by the Court (e.g., a motion for
preliminary injunction, a motion for summary
judgment, or a bench trial on stipulated facts);

121a

Plaintiffs: Plaintiffs’ claims under Article I and
Section 2 of the Fourteenth Amendment and the
Census Act, and potentially other claims, can be
resolved on summary judgment without discovery and
without production of an Administrative Record.
Discovery and an Administrative Record likewise are
not necessary to resolve Plaintiffs’ alternative request
for preliminary injunctive relief based on their
intentional discrimination claims under the equal
protection guarantee of the Fifth Amendment’s due
process clause. Plaintiffs propose that the most
efficient means to present those claims for resolution
by the Court is on their forthcoming motion for partial
summary judgment or, in the alternative, for
preliminary injunction.
Given the exigencies presented by this case,
Plaintiffs propose the following briefing schedule for
this motion: Plaintiffs shall file their motion by
August 7, 2020. Defendants shall file any opposition
by August 17, 2020. Plaintiffs shall file their reply by
August 24, 2020.
Plaintiffs understand that Defendants intend
to move to dismiss under Fed. R. Civ. P. 12(b)(1) and
12(b)(6). Plaintiffs propose that Defendants’ motion
shall be briefed on the same schedule as Plaintiffs’
motion for summary judgment or preliminary
injunction—that is, Defendants shall file any motion
to dismiss by August 7, 2020; Plaintiffs shall file their
opposition by August 17, 2020; and Defendants shall
file their reply by August 24, 2020.
Defendants: Defendants believe that this case
should be dismissed on jurisdictional grounds. There
is currently no administrative record because there is
no final agency action and this case does not involve

122a

the Administrative Procedure Act. The only action
that has been taken was action by the President
directing the Secretary of Commerce concerning
information that should be provided to the President
in a report due at the end of this year. If the Court
were to decide the case after apportionment, there will
be no administrative record because the President is
not an agency under the Administrative Procedure
Act. Cross-motions for summary judgment could be
filed soon after apportionment is reported to Congress.
Defendants propose the following briefing
schedule:
•

Plaintiffs’ motion: August 7, 2020

•

Defendant’s opposition/motion to dismiss:
August 28, 2020

•

Plaintiffs’ reply: September 4, 2020

•

Defendants’ reply: September 11, 2020

For the reasons described in response to
question 3, Defendants believe that this schedule is
reasonable. Specifically, given that the arguments
made in each parties’ affirmative briefs will likely be
similar to the arguments made in their responsive
briefs Defendants’ proposal for staggered briefing
with a total of 4 briefs is more efficient than Plaintiffs’
proposal of 6 briefs and would help the Court and the
parties to avoid a significant amount of repetitive and
redundant briefing.
Further, Defendants are unable, as Plaintiffs
propose, to file a motion to dismiss by Friday.
Plaintiffs’ proposal is particularly unreasonable given
that Plaintiffs just amended their complaint this
morning. In addition, Defendants think it is illogical
to afford only 10 days for responsive briefs, while
123a

giving 7 days for reply briefs, as Plaintiffs propose.
9)
to the extent that discovery is
appropriate for any of Plaintiffs’ claims, the
nature and extent of such discovery — including
whether there is any anticipated need for
motion practice (e.g., with respect to
depositions of high-ranking officials) — and
how such discovery should be handled in light
of the COVID-19 pandemic
Plaintiffs: Because Plaintiffs believe these
cases can be resolved on their forthcoming motion for
partial summary judgment, Plaintiffs believe a
discovery schedule is premature at this point. To the
extent the Court does not resolve these matters on
Plaintiffs’ forthcoming motion, discovery will likely be
necessary on (at least) Plaintiffs’ intentional
discrimination claims, and Plaintiffs propose that the
parties confer and present a discovery schedule to the
Court at that point if necessary. With respect to
depositions of high-ranking officials, because the
operative test requires showing either that “the
official has unique first-hand knowledge related to the
litigated claims or that the necessary information
cannot be obtained through other, less burdensome or
intrusive means,” Lederman v. N.Y. City Dep’t of
Parks & Recreation, 731 F.3d 199, 203 (2d Cir. 2013),
Plaintiffs believe this question should be addressed
following additional fact development if necessary.
Defendants: While Defendants do not agree
that any discovery will be necessary, the parties agree
that the issue of what, if any, discovery will be needed
should be deferred until after the Court decides the
parties’ motions.

124a

10) any other information that the
parties believe may assist the Court in
advancing the case to resolution, including, but
not limited to, a description of any dispositive
issue or novel issue raised by the case; and
Plaintiffs: Plaintiffs bring the Court’s attention
to the Three-Judge Court Act, which provides that “[a]
district court of three judges shall be convened when
otherwise required by Act of Congress, or when an
action is filed challenging the constitutionality of the
apportionment of congressional districts or the
apportionment of any statewide legislative body.” 28
U.S.C. § 2284(a). Plaintiffs do not believe § 2284(a)
applies—and these cases are properly adjudicated by
a single district judge—because these cases do not
present challenges to any apportionment of
congressional districts; instead, Plaintiffs challenge
the unlawful decision to exclude undocumented
immigrants from the population count to be used for
the apportionment of Representatives in Congress.
See id.; see also Fed’n for Am. Immigration Reform v.
Klutznick, 486 F. Supp. 564, 577-78 (D.D.C. 1980)
(three-judge court) (“[W]e have concluded that the
issue is most likely one for a single district judge,”
because “[h]ere the challenge is to census practices
which will produce data on which the apportionment
of House of Representative members to states will be
based, not to any state action reapportioning
congressional districts.”).
The Second Circuit has held that 28 U.S.C. §
2284 is jurisdictional, and that “[w]hen a single
district court judge improperly adjudicates a case
required to be heard by a three-judge court, a court of
appeals normally lacks jurisdiction over the merits
and is limited to deciding whether the district court
125a

erred by not referring the case to a three-judge court.”
Karlson v. Paterson, 542 F.3d 281, 286-87 (2d Cir.
2008). Plaintiffs therefore raise this question for the
Court’s attention in the event the Court would like
further briefing on this question now.
Defendants: It would be novel for a Court to
decide an apportionment case before the Census has
been completed or before apportionment has occurred.
In establishing a briefing schedule, Defendants
respectfully suggest that the Court should also
consider that Defendants will need to coordinate the
review of their papers through different Government
components, and should allow sufficient time to
permit that process to occur.
Plaintiffs allege constitutional violations
relating to the apportionment of congressional
districts. See NYS Am. Compl. ¶ 4 (asserting that the
PM is “open disregard” of a “constitutional mandate to
base apportionment on the ‘whole number of persons
in each State’”); see also id. ¶¶ 56-80 (discussing the
constitutional apportionment requirement for
congressional districts). Accordingly, to the extent
that this case proceeds beyond the jurisdictional and
justiciability questions to the merits, Defendants
anticipate requesting the convening of a the threejudge court pursuant to 28 U.S.C. § 2284. Id.
(providing that that a three-judge court “shall be
convened . . . when an action is filed challenging the
constitutionality
of
the
apportionment
of
congressional districts.”) (emphasis added); see
Shapiro v. McManus, 136 S. Ct. 450, 455 (2015)
(recognizing that a “three-judge court is not required
where the district court lacks jurisdiction of the
complaint or the complaint is not justiciable in the
federal courts”). Section 2284(b)(3) also prohibits a
126a

single judge from alone deciding a preliminary
injunction motion, which could affect the timing of the
schedule proposed below, in the event Defendants’
threshold jurisdictional arguments are rejected.
Respectfully submitted,
AUDREY STRAUSS
Acting United States Attorney for the
Southern District of New York
By:

/s/ Allison M. Rovner
JEFFREY OESTERICHER
ALLISON M. ROVNER
Assistant United States Attorneys
86 Chambers Street, Third Floor
New York, New York 10007
Tel.: (212) 637-2695/2691
Email: Jeffrey.Oestericher@usdoj.gov
Allison.Rovner@usdoj.gov

cc: Counsel of Record (by ECF)

127a

